No. _______

In the

Supreme Court of the United States
VERMONT NATIONAL TELEPHONE COMPANY,
Petitioner,
v.
VERMONT DEPARTMENT OF TAXES,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF VERMONT
PETITION FOR A WRIT OF CERTIORARI
HENRY P. BUBEL
TIFFANY N. TAM
PATTERSON BELKNAP WEBB
& TYLER LLP
1133 Avenue of the
Americas
New York, NY 10036
WM. ROGER PRESCOTT
TIMOTHY C. DOHERTY, JR.
DOWNS RACHLIN MARTIN
PLLC
199 Main Street
Burlington, VT 05401

ROMAN MARTINEZ
Counsel of Record
ERIC J. KONOPKA
CHRISTINE C. SMITH
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-3377
roman.martinez@lw.com

Counsel for Petitioner

QUESTION PRESENTED
The Due Process Clause permits states to tax
nonresidents on income from the sale of an intangible
asset if that asset has a “situs,” or is “localized,” in the
state. This Court has held that an intangible asset
has a “situs” if it grants a right that is “identified with
a particular place because the exercise of the right is
fixed exclusively or dominantly at that place.” People
of the State of New York ex rel. Whitney v. Graves, 299
U.S. 366, 372 (1937). Vermont’s corporate taxation
scheme incorporates this federal constitutional situs
principle. Under that scheme, if an intangible asset
has a situs in another state, Vermont may not tax
nonbusiness income earned from that asset. See Vt.
Tax Reg. § 1.5833-1(e).
This case concerns a nonbusiness gain earned on
the sale of two licenses issued by the Federal
Communications Commission (FCC). Even though
the licenses granted rights to broadcast exclusively in
New York, the Vermont Supreme Court held that
they were not “localized” in New York and thus had
no “situs.” It did so by adopting a novel rule that
Whitney’s situs test is satisfied only if the intangible
asset at issue was “created or protected” by the law of
the state of the proposed situs. Solely because the
FCC licenses were created by federal law—not state
law—and the FCC governed their use and sale, the
Vermont Supreme Court held that Vermont could
properly tax the gain. The question presented is:
Whether the Vermont Supreme Court erred in
holding that a federal license, that can be used only
in one state, lacks a situs in that state under
Whitney’s interpretation of the federal due process
principles governing state taxation.

ii
RULE 29.6 STATEMENT
Pursuant to this Court’s Rule 29.6, Vermont
National Telephone Company states that it has no
parent corporation and that no publicly held company
owns 10% or more of its stock.
RELATED PROCEEDINGS
Vermont National Telephone Company v.
Department of Taxes, No. 2019-280, Supreme Court of
Vermont, judgment entered October 9, 2020 (2020 VT
83, __ A.3d __), motion for reargument denied
November 2, 2020.
Vermont National Telephone Company v. State of
Vermont Department of Taxes, No. 528-9-18 Wncv,
Superior Court of Vermont, Washington Unit,
judgment entered July 31, 2019.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED ......................................... i
RULE 29.6 STATEMENT.......................................... ii
RELATED PROCEEDINGS ...................................... ii
TABLE OF AUTHORITIES ...................................... v
OPINIONS AND ORDERS BELOW ......................... 1
JURISDICTION ......................................................... 1
CONSTITUTIONAL AND REGULATORY
PROVISIONS INVOLVED................................... 1
INTRODUCTION ...................................................... 2
STATEMENT OF THE CASE ................................... 4
A. Legal Background ........................................... 4
B. Factual Background ........................................ 7
C. Procedural History .......................................... 9
REASONS FOR GRANTING THE WRIT............... 13
A. The Vermont Supreme Court Blatantly
Departed From Whitney ................................ 14
B. The Decision Below Interferes With State
Powers Over Taxation, UDITPA, And The
Laws Of At Least 11 States .......................... 22
C. The Vermont Supreme Court’s Error
Allowed Vermont To Penalize Vermont
National For Its Good-Faith Tax
Compliance .................................................... 29

iv
TABLE OF CONTENTS—Continued
Page
D. The Vermont Supreme Court’s Error Is
Sufficiently Egregious To Warrant
Summary Reversal ........................................ 31
CONCLUSION ......................................................... 34
APPENDIX
Opinion of the Supreme Court of Vermont,
Vermont National Telephone Co. v.
Department of Taxes, 2020 VT 83, __ A.3d
__ (2020) ..............................................................1a
Determination of the State of Vermont
Commissioner of Taxes, In re Vermont
National Telephone Co., Inc., ATC #16-10
(Aug. 28, 2018) ..................................................40a
Decision on Appeal of the Superior Court of
Vermont, Vermont National Telephone Co.
v. State of Vermont Department of Taxes,
No. 528-9-18 Wncv (Vt. Super. Ct. July 31,
2019) ................................................................109a
Order of the Supreme Court of Vermont
Denying Motion for Reargument, Vermont
National Telephone Co. v. Department of
Taxes, No. 2019-280 (Vt. Nov. 2, 2020) ..........124a
Vt. Tax Reg. § 1.5833-1 .........................................126a

v
TABLE OF AUTHORITIES
Page(s)
CASES
Allegheny Pittsburgh Coal Co. v. County
Commission of Webster County,
488 U.S. 336 (1989) ..........................................4, 22
Arkansas v. Sullivan,
532 U.S. 769 (2001) ..............................................31
Ash v. Tyson Foods, Inc.,
546 U.S. 454 (2006) ..............................................32
Bovat v. Vermont,
141 S. Ct. 22 (2020)..............................................33
Bridges v. Autozone Properties, Inc.,
900 So. 2d 784 (La. 2005) ....................................21
Citizens’ National Bank of Cincinnati v.
Durr,
257 U.S. 99 (1921) ................................................15
Commissioner v. Asphalt Products Co.,
482 U.S. 117 (1987) ..............................................32
Commissioner v. McCoy,
484 U.S. 3 (1987) ..................................................32
Curry v. McCanless,
307 U.S. 357 (1939) ..........................................5, 14
Graves v. Schmidlapp,
315 U.S. 657 (1942) ................................................4

vi
TABLE OF AUTHORITIES—Continued
Page(s)
Horn v. Banks,
536 U.S. 266 (2002) ..............................................32
International Harvester Co. v. Wisconsin
Department of Taxation,
322 U.S. 435 (1944) ........................................20, 21
Johnson v. City of Shelby,
574 U.S. 10 (2014) ................................................31
KPMG LLP v. Cocchi,
565 U.S. 18 (2011) ................................................31
McCulloch v. Maryland,
17 U.S. (4 Wheat.) 316 (1819) .............................22
Mobil Oil Corp. v. Commissioner of Taxes of
Vermont,
445 U.S. 425 (1980) ..............................................22
North Carolina Deparment of Revenue v.
Kimberley Rice Kaestner 1992 Family
Trust,
139 S. Ct. 2213 (2019)......................................4, 14
Ohio v. Reiner,
532 U.S. 17 (2001) ................................................32
People of the State of New York ex rel. Cohn
v. Graves,
300 U.S. 308 (1937) ................................................4

vii
TABLE OF AUTHORITIES—Continued
Page(s)
People of the State of New York ex rel.
Whitney v. Graves,
299 U.S. 366 (1937) ...................................... passim
Rogers v. County of Hennepin,
240 U.S. 184 (1916) ..............................................21
Sao Paulo State of the Federative Republic
of Brazil v. American Tobacco Co.,
535 U.S. 229 (2002) ..............................................32
Stark v. Comptroller of the Treasury,
554 A.2d 458 (Md. Ct. Spec. App. 1989)..............21
Timbs v. Indiana,
139 S. Ct. 682 (2019)............................................30
United States v. Bajakajian,
524 U.S. 321 (1998) ..............................................30
United States v. Hodson Broadcasting,
666 F. App’x 624 (9th Cir. 2016) .........................16
United States v. White Bear Brewing Co.,
350 U.S. 1010 (1956) ............................................32
Weston v. City Council of Charleston,
27 U.S. (2 Pet.) 449 (1829) ...................................22
Wisconsin v. J.C. Penney Co.,
311 U.S. 435 (1940) ..............................................14

viii
TABLE OF AUTHORITIES—Continued
Page(s)
FEDERAL CONSTITUTIONAL
AND STATUTORY PROVISIONS
U.S. Const. amend. XIV, § 1 .......................................1
28 U.S.C. § 1257(a)......................................................1
28 U.S.C. § 2101(c) ......................................................1
47 U.S.C. § 301 ..........................................................16
STATE STATUTES, RULES
AND REGULATIONS
Ariz. Rev. Stat. § 43-1092(A) ....................................28
Cal. Rev. & Tax Code § 17952 ..................................28
1 Colo. Code Regs. § 201-2:39-22-303.612(1)(a) .................................................................25
Ga. Comp. R. & Regs. 560-7-8-.01(1)(b)(5) ...............28
Ind. Code § 6-3-2-2(f)(3)(E)(i) ....................................25
Ky. Rev. Stat. Ann. § 132.190(2) ..............................27
Ky. Rev. Stat. Ann. § 141.120(11)(a)(4)(b)(i) ............25
La. Admin. Code tit. 61, § 1135(L)(3)(a) ...................25
830 Mass. Code Reg. § 63.38.1..................................25
Mo. Rev. Stat. § 143.451 ...........................................25

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Mo. Rev. Stat. § 143.455 ...........................................25
Mont. Code Ann. § 15-1-601 .....................................25
Mont. Admin. R. 42.26.250(1)(a) ..............................25
17 N.C. Admin. Code 5G.1201(1)..............................25
N.C. Gen. Stat. § 105-130.4 ......................................25
Okla. Stat. Ann. tit. 68, § 2358(b).............................27
Or. Admin. R. 150-314-0435(6)(a) ............................25
Or. Admin. R. 150-316.0171(2)(b).............................28
Or. Admin. R. 150-317-1040(6)(a) ............................25
Or. Rev. Stat. § 314.666(3)(a) ...................................25
280-20-25 R.I. Code R. § 9.8(Q)(1)(a) ........................25
Tenn. Code Ann. § 67-4-2012 ....................................25
Tenn. Code Ann. § 67-4-2111 ....................................25
Vt. R. App. P. 40 ..........................................................1
Vt. Stat. Ann. tit. 32, § 3108(a) (2019) .....................11
Vt. Stat. Ann. tit. 32, § 3202(b)(3) .................. 9, 11, 29
Vt. Tax Reg. § 1.5833-1(e) ............................. 2, 6, 8, 27

x
TABLE OF AUTHORITIES—Continued
Page(s)
OTHER AUTHORITIES
Ernest J. Brown, The Supreme Court, 1957
Term—Foreword: Process of Law, 72
Harv. L. Rev. 77 (1958) ........................................32
David Elkins, Horizontal Equity as a
Principle of Tax Theory, 24 Yale L. &
Pol’y Rev. 43 (2006)..............................................26
Michael T. Fatale, Geoffrey Sidesteps Quill:
Constitutional Nexus, Intangible
Property and the State Taxation of
Income, 23 Hofstra L. Rev. 407 (1994) ................21
Mich. Bureau of Tax Pol’y, Letter Ruling
2018-1 (Nov. 21, 2018),
https://www.michigan.gov/documents/
treasury/Letter_Ruling_20181_641184_7.pdf ....................................................28
Multistate Tax Comm’n, Model General
Allocation & Apportionment Regulations
(July 25, 2018), https://www.mtc.gov/
MTC/media/AUR/FINAL-APPROVED2018-Proposed-Amendments-042020.pdf ...........24
Multistate Tax Comm’n, Model Multistate
Tax Compact with Recommended
Amendments to Article IV (adopted July
2014 and 2015), https://www.mtc.gov/TheCommission/Multistate-Tax-Compact
(last visited Feb. 18, 2021) ............................24, 26

xi
TABLE OF AUTHORITIES—Continued
Page(s)
Oral Argument, Vermont National
Telephone Co. v. Department of Taxes,
2020 VT 83 (2020) (No. 2019-280),
https://soundcloud.com/user970290540/2019-280a ..........................................18
Steven M. Shapiro et al., Supreme Court
Practice (11th ed. 2019) .......................................31
Sup. Ct. R. 10(c) ..................................................13, 31

PETITION FOR A WRIT OF CERTIORARI
Petitioner Vermont National Telephone Company
(Vermont National or Petitioner) respectfully
petitions this Court for a writ of certiorari to review
the judgment of the Vermont Supreme Court in this
case.
OPINIONS AND ORDERS BELOW
The opinion of the Vermont Supreme Court (App.
1a-39a) is reported at 2020 VT 83, __ A.3d __ (2020).
The decision of the Vermont Superior Court (App.
109a-23a) and the determination of the Vermont
Commissioner of Taxes (App. 40a-108a) are
unreported.
JURISDICTION
The Vermont Supreme Court entered its opinion
and judgment on October 9, 2020. App. 1a-39a. On
November 2, 2020, the Vermont Supreme Court
denied Petitioner’s timely motion for reargument,
Vermont’s equivalent to a petition for rehearing. Id.
at 124a-25a; see Vt. R. App. P. 40. This petition is
timely because it is filed within 150 days of the denial
of reargument, as authorized by 28 U.S.C. § 2101(c)
and this Court’s order of March 19, 2020. This Court
has jurisdiction under 28 U.S.C. § 1257(a).
CONSTITUTIONAL AND REGULATORY
PROVISIONS INVOLVED
Section 1 of the Fourteenth Amendment to the
United States Constitution provides:
No State shall . . . deprive any person of
life, liberty, or property, without due
process of law . . . .

2
Vermont Tax Regulations Section 1.5833-1(e)
provides:
Nonbusiness income will be allocated to the
state in which the income producing assets
are located. If the income producing asset
has no situs, the income will be allocated to
the state of commercial domicile, the
principle [sic] place from which the
business is directed or managed.
INTRODUCTION
The
Vermont
Supreme
Court
blatantly
misconstrued this Court’s controlling precedent—and
the limits of due process—in an effort to allow
Vermont to tax income that should have been taxable
only in New York. The resulting decision conflicts
with this Court’s precedent, is at odds with the laws
of at least 11 other states, and transgresses basic
principles that promote fairness in taxation. Whether
by summary reversal or plenary review, the Court
should overturn this erroneous decision.
In this case, the State of Vermont asserted the
right to tax a gain on the sale of two FCC licenses that
allowed the holder to broadcast exclusively in New
York. Under Vermont law, whether the State had
that right turns on whether the licenses had a “situs”
in New York for federal due process purposes: If those
licenses had a situs in New York, then New York
could tax the gain and Vermont could not; but if they
did not have a situs in New York, then Vermont was
free to tax the gain.
The situs principle recognizes that, for due process
purposes, a state may tax income from an asset that
is sufficiently linked to the state, regardless of

3
whether the owner has a connection to the state. And
this Court has long held that intangible assets like
the government licenses at issue here are so linked to
a state if they grant a right whose “exercise . . . is
fixed exclusively or dominantly” in that state. People
of the State of New York ex rel. Whitney v. Graves, 299
U.S. 366, 372 (1937). This case should have been
decided based on a straightforward application of
Whitney. The FCC licenses at issue explicitly granted
rights whose exercise was “fixed exclusively” in New
York. Those licenses therefore had a situs in New
York. Hence, Vermont could not tax the gain earned
from selling them.
Rather than follow that syllogism to its logical
conclusion, the Vermont Supreme Court took a
different path. According to that court, an intangible
asset can be “fixed exclusively or dominantly,” id., in
a state only if it was “created or protected by [that]
state’s laws,” App. 19a (¶ 39) (emphasis added). But
that requirement is nowhere to be found in Whitney—
or in any of this Court’s other due process case law.
Indeed, the exception to the situs rule the Vermont
Supreme Court invented would have produced the
opposite result in Whitney itself.
The magnitude of the Vermont Supreme Court’s
error is reason enough to grant review. But the likely
effects of the decision amplify the need for this Court’s
attention. The Vermont Supreme Court took an
unduly narrow view of situs, constraining states’
normally broad powers of taxation to enlarge its
own—at least for this particular case. That court’s
decision is at odds with a model law and the laws of
at least 11 states that follow it; unjustifiably treats
intangible assets differently depending on whether
they are created by state or federal law; and creates a

4
significant risk of double taxation on the sale of FCC
licenses, as well as countless other federally and
privately conferred rights to conduct activity
exclusively within defined out-of-state geographic
locations. The court’s decision also leads to an unfair
result in this case:
The decision exacerbated
Vermont’s unjustified money-grab by approving a
draconian strict-liability penalty of nearly 25%, even
though Petitioner acted in good faith and obtained
accurate tax advice that—because the gains were
taxable in New York—they were not taxable in
Vermont.
The Vermont Supreme Court’s radical revision of
this Court’s precedent is plain, unmistakable, and
important. This Court’s intervention is warranted.
STATEMENT OF THE CASE
A. Legal Background
1. This case turns on a basic principle of federal
constitutional due process known as the “situs”
principle. Although states have “broad powers to
impose and collect taxes,” the Due Process Clause
imposes some limits on those powers. Allegheny
Pittsburgh Coal Co. v. County Comm’n of Webster
Cnty., 488 U.S. 336, 344 (1989). Among other things,
“there must be ‘some definite link, some minimum
connection, between a state and the person, property
or transaction it seeks to tax.’” North Carolina Dep’t
of Revenue v. Kimberley Rice Kaestner 1992 Family
Tr., 139 S. Ct. 2213, 2219-20 (2019) (citation omitted).
That link often comes from the taxpayer’s residence
or domicile in a state. See, e.g., People of the State of
New York ex rel. Cohn v. Graves, 300 U.S. 308, 314-15
(1937) (New York could tax rents a resident earned on
out-of-state property); Graves v. Schmidlapp, 315

5
U.S. 657, 660-61 (1942) (domicile generally provides a
sufficient constitutional basis to tax income from
property).
With respect to nonresidents and
nondomiciliaries, however, that link must be
established another way. That is where situs comes
into play.
The situs concept recognizes that a piece of
property may be so connected to a state that the state
can tax it, even if the state could not otherwise tax the
property’s owner. In the case of, say, real property,
this is easy to understand. Rights in land “are to be
regarded in many respects as localized at the place
where [the land] is located,” such that the
“government within whose territorial limits” the land
is situated may tax it. Curry v. McCanless, 307 U.S.
357, 363-64 (1939).
The same basic rule applies to intangible property,
including the government licenses at issue in this
case. As this Court held in Whitney, if an intangible
asset is “localized” to a particular state, that asset
acquires a situs in—and may be taxed by—that state.
299 U.S. at 372; see id. at 372-74 (holding that
fractional membership in the New York Stock
Exchange had a situs in New York). In Whitney, the
Court set out the basic constitutional test for
determining the situs of an intangible asset: An
intangible asset has a situs if it (1) “grow[s] out of the
actual transactions of a localized business” or (2)
provides a right that is “identified with a particular
place because the exercise of the right is fixed
exclusively or dominantly at that place.” Id. at 372.
This case concerns Whitney’s second prong.
2. As the Vermont Supreme Court recognized
below, Vermont’s corporate tax system incorporates
Whitney’s constitutional situs principle into the tax

6
treatment of intangible assets. See App. 16a (¶¶ 3334). The Vermont regulation at issue here provides:
“Nonbusiness income will be allocated to the state in
which the income producing assets are located. If the
income producing asset has no situs, the income will
be allocated to the state of commercial domicile, the
princip[al] place from which the business is directed
or managed.” Vt. Tax Reg. § 1.5833-1(e).
In other words, if an intangible asset has a situs,
Vermont will allocate all nonbusiness income earned
from it to the situs state. But if the asset lacks a situs,
Vermont will allocate all nonbusiness income earned
from it to the state of the taxpayer’s commercial
domicile. See App. 16a (¶ 34). This allocation matters
because a corporation owes Vermont taxes only on
nonbusiness income allocated to Vermont. This rule
thus prevents double taxation where an intangible
asset has a situs outside of Vermont because—
pursuant to Vermont’s own regulations—Vermont
may not tax nonbusiness income earned from that
asset.
To see how this works, consider a corporation
domiciled in Vermont that owns two intangible
assets: (1) air rights over a tract of land in New York,
and (2) film rights in a popular novel. The air rights
have a situs in New York because their exercise is
“fixed exclusively or dominantly” in New York.
Whitney, 299 U.S. at 372. If the corporation sold those
rights, Vermont would allocate any gain from the sale
to New York and would not tax the gain itself. In this
way, Vermont’s regulatory scheme avoids the
potential for double taxation by not taxing income
that New York can constitutionally tax. In contrast,
the film rights have no situs. Those rights can be used
anywhere in the United States; their exercise is not

7
tied to any particular state.
Therefore, if the
corporation sold those rights, Vermont would allocate
any gain from the sale to the state of commercial
domicile, i.e., Vermont.
B. Factual Background
Vermont National is a small, family-owned
corporation that provides internet and telephone
service to predominantly rural areas of Vermont. In
2003, it acquired two licenses from the FCC for the
lower 700 megahertz portion of the electromagnetic
spectrum in upstate New York. App. 44a (¶ 14). The
“Albany license” covered Albany, Troy, Schenectady,
Amsterdam, and Saratoga Springs. Id. at 3a (¶ 4).
The “Glens Falls license” covered Glens Falls,
Whitehall, and Fort Ann. Id. At that time, the 700
megahertz band was being used by television
broadcasters, but the FCC had plans to transition
television to a different frequency, which would free
up the band for mobile telecommunications use. P.C.
193-94;1 see App. 3a (¶ 3).
Vermont National purchased the New York-based
FCC licenses as an investment, believing it could
acquire at a reasonable price the right to broadcast a
specific radio frequency over Albany/Schenectady,
New York, which at the time was one of America’s 50
largest metropolitan areas. It chose these particular
licenses because “Albany is a fairly large metropolitan
area that has both a significant static population and
a significant commuter population,” meaning there
are “many potential . . . customers.” P.C. 193. At the
1 “P.C.” references are to the Appellant’s Printed Case
(appendix) filed in Vermont National Telephone Co. v.
Department of Taxes, 2020 VT 83 (2020) (No. 2019-280).

8
same time, Albany was not such a large market that
the cost of the licenses was prohibitive. Id. Vermont
National’s intuition about the value of the licenses
proved correct. In 2013, it sold the licenses, excluding
a small area covering Hebron, New York, to AT&T
Mobility Spectrum, LLC (AT&T), realizing a gain of
approximately $24 million. App. 3a (¶ 5).
Before reporting this income to the state taxing
authorities, Vermont National diligently consulted its
accountant about the tax consequences of the sale.
See P.C. 94-96. Based on its accountant’s advice,
Vermont National concluded that the gain on the sale
of the New York-based FCC licenses constituted
nonbusiness income that should be allocated to New
York. It reasoned that the licenses granted rights
that were “fixed exclusively or dominantly” in New
York and thus had a New York situs. Whitney, 299
U.S. at 372. Consistent with the Vermont regulation
described above, Vermont National reported the
capital gain on its Vermont tax return as nonbusiness
income allocated to a non-Vermont source. App. 3a4a (¶¶ 5-6); see Vt. Tax Reg. § 1.5833-1(e)
(nonbusiness income from an asset is allocated to the
situs state if there is one). As a result, Vermont
National did not pay Vermont corporate tax on that
gain.
In 2015, the Vermont Department of Taxes
(Department) audited Vermont National.
The
Department determined that the gain on the sale of
the New York-based licenses should have been
allocated to Vermont and assessed state corporate
taxes of $1,947,437, plus $334,899 in interest. App.

9
4a-5a (¶ 6 & n.2).2 Moreover, despite finding Vermont
National “[a]bsolutely” cooperative during the audit,
the Department also imposed an automatic
underpayment penalty of $445,223. P.C. 214; see App.
5a (¶ 6); see also Vt. Stat. Ann. tit. 32, § 3202(b)(3)
(authorizing penalty of up to 25% of an
underpayment). As a Department employee later
explained, that automatic penalty simply “comes out
of our system”—Department employees have no
discretion over the penalty and do not assess a
taxpayer’s culpability or good-faith efforts to comply
with the tax laws. P.C. 218. On the contrary, “every
single time, there’s a penalty assessed.” Id.
C. Procedural History
1. Vermont National appealed the tax assessment
and penalty to the Commissioner of the Department.
App. 5a (¶ 7). Before the Commissioner, Vermont
National argued that the New York-based licenses
had a situs in New York under a straightforward
application of Whitney, because they conveyed rights
that could be used only in New York. Id. As Vermont
National explained, the licenses covered New York
regions exclusively, and their value was inextricably
tied to New York’s population levels, geography, state
and local regulations, and the like. Id.; see also P.C.
241-57 (testimony regarding the licenses). Vermont
National also argued that the automatic
underpayment penalty was inappropriate, especially
in light of the company’s good-faith consultation with
its accountant, its transparent reporting of its income,

2 The asserted tax liability also included a small unrelated
tax adjustment that is not at issue here. See App. 4a (¶ 6 & n.2).

10
and its admittedly “[a]bsolute[]” cooperation during
the audit. P.C. 214.
The Commissioner affirmed the assessment of the
tax and penalty. App. 5a-6a (¶ 8). The Commissioner
determined that “situs” as used in the relevant
regulation is a “term of art referring to whether an
asset is constitutionally subject to taxation in a state.”
Id. at 6a (¶ 9). Thus, the Commissioner recognized,
the key question was whether the New York-based
FCC licenses had a situs in—and were potentially
taxable by—New York under the Due Process Clause.
Id.
The Commissioner found, however, that the New
York-based licenses were not constitutionally eligible
for taxation in New York.
The Commissioner
determined that the licenses were not “localized” in
New York, and therefore did not have a situs in New
York. Id. at 75a (citation omitted). Instead of
focusing on whether the licenses granted a right that
was “fixed exclusively or dominantly” in New York as
Whitney requires, 299 U.S. at 372, the Commissioner
focused on whether the licenses granted a right “to
use an extant building,” App. 70a. Because the
licenses were not connected to existing cell towers and
“had nothing to do with New York State real
property,” the Commissioner concluded that they
lacked a situs.
Id. at 65a.
Although the
Commissioner acknowledged that the licenses
granted broadcasting rights exclusively in New York,
he dismissed those broadcasting locations as “simply
market areas drawn on the map.” Id.
The Commissioner also upheld the automatic
underpayment penalty.
Id. at 104a-07a.
The
Commissioner refused to consider Vermont National’s
good-faith efforts to comply with the tax laws, going

11
out of his way to emphasize that Vermont’s “no-fault
penalty does not require a showing of negligence,
fraud, or any other state of mind; it is a strict-liability
provision, meaning it is triggered by mere
nonpayment.”
Id. at 106a.
Accordingly, the
Commissioner continued, the Department was within
its rights to apply a penalty of up to 25%—on top of a
punitive, above-market interest rate—to any
taxpayer “who simply failed to pay a tax when due,
for whatever reason.” Id.; see Vt. Stat. Ann. tit. 32,
§ 3202(b)(3); id. § 3108(a) (2019) (mandating that
interest rate on underpayments exceed standard
interest rate by 2%).
2. Vermont National appealed to the Vermont
Superior Court. On appeal, the Department defended
the Commissioner’s approach to Whitney, arguing
that an intangible asset had to be tied to real property
in New York to have a situs there, and that “[a]n FCC
License does not grant rights in any physically
situated New York organization.” Dep’t Super. Ct. Br.
14 (Jan. 18, 2019). But the court took a different tack.
It declined to apply Whitney altogether because, it
said, “situs” as used in the regulation was not a term
of art referring to constitutional situs but rather
merely a synonym for physical location. App. 114a16a. Since intangible assets, by definition, have no
physical location, the court held that the regulation
allocated income from the FCC licenses to Vermont
National’s commercial domicile, Vermont. Id. at
116a-21a. The court also affirmed the automatic
penalty, finding that it did not violate the Excessive
Fines Clause without even addressing Vermont
National’s lack of culpability. Id. at 122a-23a.
3. Vermont National appealed to the Vermont
Supreme Court.
That court agreed with the

12
Commissioner that “situs” as used in the relevant
regulation “is a term of art referring to where an
intangible asset is constitutionally subject to
taxation.” Id. at 13a (¶ 27). But it rejected the
Commissioner’s view that intangible assets must be
tethered to an “extant building” to have a situs. See
id. at 15a-17a (¶¶ 32-34).
Yet the Court still
concluded that the fact that the licenses “granted
rights to broadcast in New York was . . . not sufficient
to establish a situs” in New York. Id. at 17a (¶ 35).
To reach that conclusion, the Vermont Supreme
Court created a novel exception to Whitney. The court
acknowledged that the “Supreme Court [has] held
that an intangible asset may have a situs, regardless
of any business use, if the intangible grants a right
that ‘is fixed exclusively or dominantly’ at a particular
place.” Id. at 17a-18a (¶ 37) (quoting Whitney, 299
U.S. at 372). But instead of applying Whitney’s test
as written, the court invented a brand-new exception.
Purporting to ascertain Whitney’s hidden meaning,
the Vermont Supreme Court determined that
Whitney’s test applied only to assets “created or
protected by a state’s laws.” Id. at 18a-19a (¶¶ 38-39)
(emphasis added). Solely because the New Yorkbased licenses “were created by the FCC,” and the
FCC governed their use and sale, the court concluded
that the licenses lacked a situs in New York, and it
therefore affirmed the tax assessment. Id. at 20a-26a
(¶¶ 40-50).
The court also sustained the automatic
underpayment penalty against Vermont National’s
Excessive Fines Clause challenge.
The court
concluded that the penalty was not constitutionally
excessive because it was “proportionate” to Vermont
National’s supposed offense—even though the

13
penalty applied “regardless of the taxpayer’s fault or
good faith” and even though Vermont National had
made a good-faith effort to comply with Vermont’s tax
laws and regulations. Id. at 31a-39a (¶¶ 61-76).
4. Vermont National filed a motion for
reargument. It contended that the Vermont Supreme
Court’s novel “created or protected by state law” rule
was flatly inconsistent with Whitney. Mot. for
Reargument 4 (Oct. 23, 2020). Moreover, Vermont
National explained, that rule was in tension with the
laws and regulations of at least 11 other states, as
well as with the Uniform Division of Income for Tax
Purposes Act (UDITPA), which permit the taxation of
business income from licenses that merely authorize
business activity in the state. Id. at 5-6. The Vermont
Supreme Court denied that motion without opinion.
See App. 124a-25a.
REASONS FOR GRANTING THE WRIT
This Court should overturn the Vermont Supreme
Court’s radical departure from binding precedent of
this Court. Under People of the State of New York ex
rel. Whitney v. Graves, FCC licenses to broadcast only
in New York plainly grant rights that are “fixed
exclusively or dominantly” in New York. 299 U.S.
366, 372 (1937). Here, the New York-based licenses
were constitutionally subject to taxation in New
York—and therefore were not taxable in Vermont.
Certiorari is warranted because the Vermont
Supreme Court’s decision “has decided an important
federal question in a way that conflicts with relevant
decisions of this Court.” Sup. Ct. R. 10(c).
The decision below is not only clearly wrong under
Whitney—it is also in serious tension with UDITPA
and the laws of at least 11 states that have adopted

14
it. Moreover, it undermines states’ broad powers of
taxation, arbitrarily treats similar intangible assets
differently, and, if allowed to proliferate, will create a
significant risk of double taxation of multistate
corporations. Because of the clarity and importance
of this error, summary reversal is appropriate. But
either way, this Court’s intervention is necessary.
A. The Vermont Supreme Court Blatantly
Departed From Whitney
According to the Vermont Supreme Court,
Vermont National’s gain on the sale of the New Yorkbased FCC licenses was taxable by Vermont because
those licenses had no situs, in New York or anywhere
else. The corollary to that holding is that New York
could not have taxed that gain without violating the
federal Due Process Clause. That holding rested
entirely on the state court’s novel and incorrect
interpretation of Whitney. The Vermont Supreme
Court’s blatant departure from this Court’s precedent
requires the Court’s immediate attention.
1. Whitney is one of many cases recognizing that
the Due Process Clause requires “some definite link,
some minimum connection, between a state and the
person, property or transaction it seeks to tax.” North
Carolina Dep’t of Revenue v. Kimberley Rice Kaestner
1992 Family Tr., 139 S. Ct. 2213, 2219-20 (2019)
(citation omitted). For due process purposes, the
“simple but controlling question is whether the state
has given anything for which it can ask return.”
Wisconsin v. J.C. Penney Co., 311 U.S. 435, 444
(1940); see also, e.g., Curry v. McCanless, 307 U.S.
357, 367 (1939) (a state may tax intangible assets
“when the taxpayer extends his activities with respect

15
to his intangibles, so as to avail himself of the
protection and benefit of the laws of [that] state”).
Whitney addressed the tax treatment of income
from the sale of a partial, one-quarter membership (or
“seat”) in the New York Stock Exchange (NYSE or
Exchange). Whitney, 299 U.S. at 369. The taxpayer,
Whitney, was a partner in a Boston-based brokerage
firm that owned a full membership in the NYSE. Id.
“[B]y virtue of an increase in the number of members
of the Exchange, each member became entitled to a
‘right’ to one-fourth of a new membership,” which
Whitney and his partners sold for a substantial gain.
Id. The State of New York sought to tax that gain.
Whitney claimed that the State lacked authority to do
so under the Constitution.
Drawing on prior precedents of this Court,
Whitney asserted that a membership in the Exchange
is “intangible personal property” that “is taxable only
at the domicile of the owner” unless it “has a ‘business
situs’” elsewhere. Id. at 371-72; see Citizens’ Nat’l
Bank of Cincinnati v. Durr, 257 U.S. 99, 109 (1921)
(holding that Ohio, the state of domicile, could tax
stockbroker’s NYSE seat). He argued that “the
membership cannot be said to have a business situs
in New York because he and his copartners reside[d]
and transact[ed] all their business in Massachusetts.”
Whitney, 299 U.S. at 372. Therefore, Whitney said,
the gain was taxable only by the state of commercial
domicile, i.e., Massachusetts. See id.
This Court disagreed, believing that Whitney’s
“argument fail[ed] to give adequate consideration to
the nature and incidents of the [NYSE] membership.”
Id. The Court explained that an intangible asset like
an NYSE membership has a situs if it is “localiz[ed]
by virtue of [its] attributes . . . in relation to the

16
conduct of affairs at a particular place.” Id. While
situs may be—and often is—established through “the
actual transactions of a localized business,” the Court
stressed that the asset need not actually be used in
business to have a situs. Id. Rather, an intangible
asset can also have a situs if it grants a right that is
“identified with a particular place because the
exercise of the right is fixed exclusively or dominantly
at that place.” Id.
Because “the dominant feature” of an Exchange
seat is the “privilege of conducting the business of the
buying and selling of securities on the floor of the
Exchange,” the Court held that the asset had a situs
in New York. Id. at 373. That was true even though
Whitney and his partners (1) did not conduct any
business in New York, (2) did not actually use their
NYSE membership to directly buy or sell securities on
the floor of the Exchange, and (3) could not use the
fractional membership they sold to transact any
business whatsoever. Thus, the Court held, New
York could tax the gain. See id. at 374.
2. Under a straightforward application of
Whitney, the New York-based FCC licenses at issue
here have a situs in New York. Like the NYSE
membership in Whitney, “the privilege which inheres”
in the licenses is localized in New York and “can be
exercised nowhere else.” Id. at 372-73.
Most importantly, the licenses authorized the
holder to broadcast exclusively within specified
geographic regions of New York. It is hard to imagine
a more clear-cut example of an intangible right
“localized”—or “fixed exclusively or dominantly”—in
New York. Id. at 372. Indeed, the holder of an FCC
license may be penalized for broadcasting outside its
licensed geographic area. See 47 U.S.C. § 301; United

17
States v. Hodson Broad., 666 F. App’x 624, 627 (9th
Cir. 2016).
Additionally, it is undisputed that the value of the
licenses was “very specific to [its New York] location.”
P.C. 257. As uncontested expert testimony in the
record shows, the price that a buyer pays for an FCC
license depends heavily on local factors such as:
• Resident population, id. at 241-42;
• Commuter population, id. at 242-43;
• Average income level, id. at 243-44;
• Demographic trends, id. at 245;
• Infrastructure development, id. at 248-49;
• Physical terrain, id. at 250-52;
• State and local regulations governing
construction, labor, commercial activities,
and the like, id. at 255-56;
• The presence of any “exclusion zones,” such
as military bases, that would diminish the
customer base, id. at 252-54; and
• The geographic reach of competing
telecommunications companies, id. at 247.
All of these characteristics reinforce the inherently
local, New York-based character of the licenses at
issue here. Indeed, it is presumably because AT&T
wanted to exploit these valuable local characteristics
that it agreed to pay Vermont National a substantial
sum for the licenses.
That Vermont National did not itself use the
licenses to broadcast in New York is irrelevant. After
all, Whitney and his partners did not conduct any
business in New York or use their NYSE membership
to directly trade securities on the floor of the
Exchange. See Whitney, 299 U.S. at 372. The Court

18
nonetheless found that Whitney’s one-quarter NYSE
membership had a situs in New York because the
“nature and incidents” of the rights it conveyed “so
link[ed]” it to New York that it came “within the
taxing power of New York”—regardless of whether
those rights had ever been exercised. Id. at 372, 374.
As the Court explained, “[t]he nature of that right is
not altered by the failure to exercise it.” Id. at 373.3
Indeed, the facts in this case weigh even more
strongly in favor of finding a New York situs. Not only
did Whitney and his partners not do business in New
York, but the intangible asset that gave rise to
income—the fractional NYSE membership—could
not be used for anything on its own. By contrast, the
FCC licenses at issue here conferred real, valuable
rights to broadcast in New York. Because the licenses
were “so link[ed]” to New York as to have a situs
there, id. at 374, under Vermont’s regulation, the gain
on the sale of those licenses should have been
allocated to New York, not Vermont. Accordingly,
Vermont could not tax the gain.

3 Even though Whitney found the “failure to exercise” a

right irrelevant to the situs analysis, much of the questioning at
oral argument before the Vermont Supreme Court focused on the
fact that Vermont National had not used the FCC licenses to
broadcast in New York. See, e.g., Oral Argument at 1:25-4:40,
8:35-9:47, 27:40-28:42, Vermont Nat’l Tel. Co. v. Department of
Taxes, 2020 VT 83 (2020) (No. 2019-280), https://soundcloud.com
/user-970290540/2019-280a.
Tellingly, counsel for the
Department was unable to square his argument with Whitney’s
express holding that an intangible asset need not be used in a
state to have a situs there, telling the court “I don’t know what
to make of that” holding and insisting that such use was
required. Id. at 25:43-26:30.

19
3. Instead of simply applying Whitney’s longsettled rule, the Vermont Supreme Court devised a
brand-new—and entirely unjustified—exception to
that rule. To have a situs in a state, the Vermont
Supreme Court said, an asset not yet used in business
must have been “created or protected by [that] state’s
laws.” App. 19a (¶ 39) (emphasis added). That the
asset grants rights that are “fixed exclusively or
dominantly” in a state is, according to that court, not
enough. Id. at 18a-19a (¶¶ 38-39). Because the FCC
licenses were created by federal law—and because
federal law governed their use and sale—the Vermont
Supreme Court held that they did not have a situs, in
New York or anywhere else. Id. at 20a (¶ 40).
This novel restriction has no basis in Whitney or
any other precedent. Whitney recognized that a
sufficient due process link is established between an
intangible asset and a state when the rights conveyed
by that asset are “localized” in the state. Whitney’s
focus was on the location of the business activity that
the intangible asset authorized. Whitney imposed no
requirement that state law create or protect the asset.
In fact, the intangible asset sold in Whitney would
have flunked the Vermont Supreme Court’s test, for
the rights and privileges on which the Whitney Court
focused were neither created nor protected by New
York state law. New York law did not create the
membership rights in Whitney; those rights were
created by the NYSE, an unincorporated association.
See 299 U.S. at 370. New York law did not directly
protect those rights either; “the constitution, by-laws
and rules of the Exchange” governed the purchase,
sale, transfer, and use of memberships. Id. at 372.
To be sure, New York state law indirectly
benefited NYSE memberships.
New York laws

20
governed the physical site of the NYSE and perhaps
facilitated the trading activities that took place there
that made the memberships so valuable. But the
Vermont Supreme Court discounted the same sorts of
indirect benefits in the case of FCC licenses. It gave
no weight whatsoever to the fact that New York’s laws
made the state a good place to live, work, and do
business—the very reasons why the right to broadcast
over New York’s airwaves was so valuable. See supra
at 17 (describing testimony regarding the value of
FCC licenses). Those are the New York features that
“localized” the FCC licenses in New York, and those
are the New York features that the Vermont Supreme
Court erred in ignoring.
In short, the Vermont Supreme Court
fundamentally and self-servingly misunderstood the
basis of the “definite link” or “minimum connection”
in Whitney. The fact that a state does not create, or
directly regulate the sale of, an asset does not mean
the taxpayer has received no benefits from the state.
Although New York did not create or directly regulate
Whitney’s NYSE seat, the seat’s value depended
highly on New York features, including local
commercial regulations and business conditions. And
Whitney’s membership right could be used only in
New York. That is more than enough to establish
situs there and satisfy the Due Process Clause.
4. Other precedents buttress that conclusion.
This Court has long recognized that a state need not
directly regulate an income-producing asset to tax it.
For example, in International Harvester Co. v.
Wisconsin Department of Taxation, the Court
concluded that Wisconsin could constitutionally tax
dividends received by out-of-state residents from an
out-of-state corporation, just because those dividends

21
were supposedly traceable to income previously
earned in the state. See 322 U.S. 435, 442 (1944).
That Wisconsin did not create or regulate the stock,
the dividends, or the shareholders to whom the
dividends belonged was unimportant. As the Court
explained, the fact that Wisconsin could not “prevent
the withdrawal of the earnings from the state or the
declaration of the dividends” has “no bearing on
[Wisconsin’s] right to measure, in terms of taxes, both
the benefits which it has conferred on the
stockholders in their relations with the state, and the
activities or transactions which are within the reach
of its regulatory power.” Id. at 443. Along similar
lines, this Court allowed a state to tax membership
rights in a grain exchange, even though those rights
were created and regulated by the local Chamber of
Commerce rather than state law. Rogers v. County of
Hennepin, 240 U.S. 184, 186, 191 (1916).
Other state courts have likewise recognized that
the key to Whitney was not the direct effect of state
law, but the fact that “the chief characteristic of the
membership right was so connected to the physical
site of the NYSE as to bring ownership, including the
sale, of that right within the jurisdiction of New
York.” Bridges v. Autozone Props., Inc., 900 So. 2d
784, 803 n.8 (La. 2005); see Stark v. Comptroller of the
Treasury, 554 A.2d 458, 462-64 (Md. Ct. Spec. App.
1989). As one commentator has explained, the
“privilege [in Whitney] was localized in New York
since it could be exercised there, but nowhere else.”
Michael T. Fatale, Geoffrey Sidesteps Quill:
Constitutional Nexus, Intangible Property and the
State Taxation of Income, 23 Hofstra L. Rev. 407, 440
n.201 (1994). The Vermont Supreme Court’s decision
flies in the face of this longstanding authority.

22
B. The Decision Below Interferes With State
Powers Over Taxation, UDITPA, And The
Laws Of At Least 11 States
Not only is the decision below obviously incorrect,
it unduly narrows states’ broad powers of taxation
and is at odds with UDITPA and the laws of at least
11 states that follow it. Moreover, the decision below
arbitrarily treats similar intangible assets differently
and, if allowed to proliferate, will create a significant
risk of unjust double taxation of multistate
corporations. This Court should reject the Vermont
Supreme Court’s misinterpretation of Whitney and
thereby nip any spillover consequences of that court’s
decision in the bud.
1. In cases going back to at least McCulloch v.
Maryland, this Court has recognized the importance
and breadth of states’ taxing power. 17 U.S. (4
Wheat.) 316, 425 (1819); see, e.g., Weston v. City
Council of Charleston, 27 U.S. (2 Pet.) 449, 466 (1829)
(“The power of taxation is one of the most essential to
a state, and one of the most extensive in its
operation.”); Allegheny Pittsburgh Coal Co. v. County
Comm’n of Webster Cnty., 488 U.S. 336, 344 (1989)
(“The States, of course, have broad powers to impose
and collect taxes.”). And while the Due Process
Clause of course constrains that power, this Court has
been careful to interpret due process pragmatically,
so as to allow a state to tax people, activities, and
property that are practically connected to it. Cf., e.g.,
Mobil Oil Corp. v. Commissioner of Taxes of Vt., 445
U.S. 425, 440-42 (1980) (allowing Vermont to tax
dividends from a foreign corporation that was part of
a unitary business that operated in the state).

23
Indeed, the situs principle itself is an outgrowth of
this Court’s pragmatic understanding of the Due
Process Clause. It permits a state to tax (among other
things) income from intangible assets that are
inherently connected to the state—even if the
taxpayer and its other activities are located outside
the state. See supra at 4-5, 14-15.
The Vermont Supreme Court’s decision threatens
to artificially limit states’ ability to tax intangible
assets. As explained above, that court found that the
FCC licenses at issue here lacked a situs in New
York—meaning that New York could not tax them
without violating the Due Process Clause—even
though those licenses conferred rights that could be
exercised solely in New York and were valuable only
because characteristics of the state and its people,
businesses, and markets made them valuable. See
supra at 14-21. To say that New York cannot tax
those licenses simply because they were created by
the FCC, instead of by state law, ignores the
fundamental connection they have to New York.
Nor can the Vermont Supreme Court’s decision be
cabined to FCC licenses.
Its holding that an
intangible asset is “fixed exclusively or dominantly”
in a state under Whitney’s situs rule only if it was
“created or protected by [that] state’s laws,” App. 18a19a (¶¶ 38-39), directly calls into question whether
states may tax other geographically confined rights
created by the federal government—such as air,
timber, and mineral rights over federally controlled
land. Presumably those other intangible assets would
also lack a situs under the Vermont Supreme Court’s
rule. What is more, any right created by private
parties and not directly regulated by state law could
be deemed to lack a situs under that rule too.

24
The potential reach of the Vermont Supreme
Court’s misguided interpretation of Whitney is
substantial. And its result is (unsurprisingly) selfserving: The whole purpose of denying New York and
other states the right to tax intangible assets plainly
localized in those states is to grant Vermont the
ability to impose such taxes.
2. The Vermont court’s decision is also in serious
tension with UDITPA and the laws of at least 11 other
states that follow it. UDITPA is a model law that,
among other things, establishes rules for multistate
corporations to apportion income among the states
where they operate. Most relevant here, UDITPA
provides that a state may tax business income from “a
contract right, government license, or similar
intangible property that authorizes the holder to
conduct a business activity in a specific geographic
area” of the state. Multistate Tax Comm’n, Model
Multistate Tax Compact with Recommended
Amendments to Article IV, art. IV, § 17(a)(4)(ii)(A)
(adopted July 2014 and 2015) (emphases added)
(“Multistate Tax Compact”);4 see Multistate Tax
Comm’n, Model General Allocation & Apportionment
Regulations § IV.17.(f)(1)(E), Example (ii) (July 25,
2018) (giving as example the sale of an FCC license,
the proceeds of which are in a state because “the
intangible property sold is a government license that
authorizes the holder to conduct business activity” in

4 Available
at
https://www.mtc.gov/The-Commission/
Multistate-Tax-Compact (last visited Feb. 18, 2021).

25
that state).5
At least 11 states have adopted
UDITPA’s model rule in some form.6
Under that rule, it does not matter whether the
taxpayer actually uses the government license to
conduct business in a state, or whether the source of
the license is state or federal law. Rather, the rule
covers any license that authorizes business activity in
the state. UDITPA thus recognizes that income
generated by any intangible government license to
conduct activity within a particular state is
intrinsically linked to that state for federal due
process purposes—and, thus, that the state is fully
entitled to tax that income.
The Vermont Supreme Court’s decision directly
contradicts this principle. Although the FCC licenses
plainly authorized business activity in New York—
and only New York—the Vermont Supreme Court
held that New York could not constitutionally tax
Vermont National’s gain from the sale of those
licenses. This holding calls into question UDITPA’s
premise that authorization, not use or source, is the
touchstone for taxation of income from government
licenses. And it likewise undermines UDITPA’s view
that when a government license authorizes activity
5 Available

at
https://www.mtc.gov/MTC/media/AUR/
FINAL-APPROVED-2018-Proposed-Amendments-042020.pdf.
6 See 1 Colo. Code Regs. § 201-2:39-22-303.6-12(1)(a); Ind.

Code
§ 6-3-2-2(f)(3)(E)(i);
Ky.
Rev.
Stat.
Ann.
§ 141.120(11)(a)(4)(b)(i); La. Admin. Code tit. 61, § 1135(L)(3)(a);
830 Mass. Code Reg. § 63.38.1; Mo. Rev. Stat. §§ 143.451,
143.455; Mont. Code Ann. § 15-1-601; Mont. Admin.
R. 42.26.250(1)(a); N.C. Gen. Stat. § 105-130.4; 17 N.C. Admin.
Code 5G.1201(1); Or. Rev. Stat. § 314.666(3)(a); Or. Admin.
R. 150-314-0435(6)(a), 150-317-1040(6)(a); 280-20-25 R.I. Code
R. § 9.8(Q)(1)(a); Tenn. Code Ann. §§ 67-4-2012, 67-4-2111.

26
inside a state, that state necessarily has a sufficient
connection to the license to tax income derived from
its sale or use.7
3. The Vermont Supreme Court’s novel
interpretation of Whitney is also at odds with basic tax
principles that promote fairness, including horizontal
equity and the avoidance of double taxation.
Horizontal equity is a “universally accepted . . .
criteria of a ‘good tax’” that “demands that similarly
situated individuals face similar tax burdens.” David
Elkins, Horizontal Equity as a Principle of Tax
Theory, 24 Yale L. & Pol’y Rev. 43, 43 (2006). Under
that principle, all licenses that authorize business
activity primarily in a single state should be treated
the same. Yet by holding that an intangible asset has
a situs in a state only if it was “created or protected
by [that] state’s laws,” App. 19a (¶ 39), the Vermont
Supreme Court’s decision subjects such licenses to
disparate tax rules depending solely on whether they
are creatures of state or federal law. Under that
approach, for example, a federal license to fish in New
York waters would not have a tax situs in New York—
but a New York license to fish in those same waters
would have such situs. That court never justified
such differential treatment, which has no basis in
logic—a clear violation of horizontal equity principles.
7 To be sure, UDITPA applies to business income, while the

Vermont Supreme Court’s decision applies to nonbusiness
income. See App. 2a (¶ 2), 78a; Multistate Tax Compact, art. IV,
§ 1(a). But regardless of the type of income at issue, both answer
the question of whether that income is sufficiently connected to
a state to allow the state to tax it. UDITPA’s recognition that
mere authorization of business activity brings income from an
intangible asset within a state’s taxing power is at odds with the
contrary reasoning of the Vermont Supreme Court.

27
Moreover, if the Vermont Supreme Court’s
decision is allowed to proliferate, corporations that
operate in more than one state will be subject to a
significant risk of double taxation. Regulations like
the Vermont one at issue here are designed to avoid
such double taxation. Vermont’s regulation allocates
all nonbusiness income from intangible assets to
either the state where those assets have a situs or the
state of the owner’s commercial domicile. See Vt. Tax
Reg. § 1.5833-1(e). This all-or-nothing allocation
amplifies the double taxation risk from the Vermont
Supreme Court’s erroneous interpretation of Whitney.
If, for example, New York’s courts held that the FCC
licenses at issue here had a situs in New York—as
Whitney dictates—then New York could tax the entire
gain that Vermont National earned, even though
Vermont already did. The Vermont Supreme Court’s
decision thus uniquely disfavors federal licenseholders by subjecting them to double taxation not
faced by state license-holders.
This double taxation risk is not small or
hypothetical. Recognizing that risk, other states have
statutes and regulations that, like Vermont’s,
attempt to avoid such double taxation.8 And a
number of states do in fact tax nonresidents on

8 See, e.g., Ky. Rev. Stat. Ann. § 132.190(2) (all intangible

personal property of domestic corporations is considered in fixing
the value of corporate franchises “unless it has acquired a
business situs without this state”); Okla. Stat. Ann. tit. 68,
§ 2358(b) (income from intangible personal property is allocated
to the taxpayer’s state of domicile except “where such property
has acquired a nonunitary business or commercial situs apart
from the domicile of the taxpayer”).

28
income from intangible assets that have an in-state
situs.9
Notably, Vermont National has itself been
subjected to double taxation as a result of Vermont’s
mistaken rule. In 2018, after the sale of the FCC
licenses at issue here, Vermont National sold another
license covering broadcasting areas in Michigan. The
Michigan Bureau of Taxes determined that it had the
power to tax the sale of that Michigan-based license,
even though Vermont National “never provided
services to customers in Michigan under the license.”
Mich. Bureau of Tax Pol’y, Letter Ruling 2018-1 (Nov.
21, 2018);10 see also, e.g., Vermont Nat’l Vt. Sup. Ct.
Reply Br. 10 (Dec. 27, 2019) (discussing this letter).
“Because the license covered a geographic area
entirely within Michigan,” the Michigan Bureau of
Taxes concluded that the sale of the license to
Michigan should be “sourced” to Michigan. Mich.
Bureau of Tax Pol’y, Letter Ruling 2018-1. The sale
was ultimately subject to tax in both Michigan and
Vermont.
If the Vermont Supreme Court’s decision is left
intact, multistate corporations will be subject to
double taxation on federal licenses—as well as on a
9 See, e.g., Ariz. Rev. Stat. § 43-1092(A) (income from

intangible personal property “is not income from sources within
this state unless the property has acquired a business situs
within this state”); Cal. Rev. & Tax Code § 17952 (same); Ga.
Comp. R. & Regs. 560-7-8-.01(1)(b)(5) (gain on sale of intangible
personal property “ordinarily is not taxable . . . except to the
extent that such intangible personal property has acquired a
business situs in this State”); Or. Admin. R. 150-316.0171(2)(b)
(same).
10 Available
at
https://www.michigan.gov/documents/
treasury/Letter_Ruling_2018-1_641184_7.pdf.

29
broad array of commercial transactions—by Vermont
and any other state that adopts Vermont’s approach
to Whitney. That result is plainly unjust, unduly
penalizes federal licenses (and license-holders), and
could also prevent corporations from making
productive—and economically efficient—business
deals. This Court should eliminate any uncertainty
over the tax consequences of such sales by rejecting
the Vermont Supreme Court’s flawed rule.
C. The Vermont Supreme Court’s Error
Allowed Vermont To Penalize Vermont
National
For
Its
Good-Faith
Tax
Compliance
As explained, Vermont’s misinterpretation of
Whitney is custom-tailored to serve the state’s own
interest in maximizing revenue, at the expense of
other states and taxpayers subject to double taxation.
Here, though, the State compounded its legal error by
going out of its way to impose a nearly 25% penalty
on Vermont National’s perceived violation of law, to
the tune of almost half a million dollars. It did so,
moreover, despite Vermont National’s undisputed
(and amply documented) good-faith effort to comply
with its tax obligations. P.C. 94-96, 214; App. 5a (¶ 7),
36a-39a (¶¶ 72-76).
The unjustified penalty
reinforces the need for this Court’s intervention.
Vermont imposed the penalty under a statute that
allows the Commissioner to assess a penalty of 1% per
month for an outstanding income tax liability, up to a
maximum of 25%. Vt. Stat. Ann. tit. 32, § 3202(b)(3).
That potentially draconian penalty is triggered even
when the taxpayer has made a reasonable and sincere
good-faith effort to comply with its tax obligations.
The Department imposed almost the highest penalty

30
possible on Vermont National, at 23% of the liability,
even though Vermont National reasonably relied on
the (accurate) advice of its tax accountant—and even
though the Department conceded the company was
“[a]bsolutely” cooperative during the audit. P.C. 214;
App. 36a-37a (¶ 73).
Vermont’s application of that penalty is highly
questionable under the Excessive Fines Clause. A
government exaction violates the Excessive Fines
Clause if it is both “punitive” and “excessive.” United
States v. Bajakajian, 524 U.S. 321, 334 (1998). “The
touchstone of the constitutional inquiry under the
Excessive Fines Clause is the principle of
proportionality: The amount of the [penalty] must
bear some relationship to the gravity of the offense
that it is designed to punish.” Id. at 334; see also
Timbs v. Indiana, 139 S. Ct. 682, 687-88 (2019) (“The
Excessive Fines Clause traces its venerable lineage
back to at least 1215, when Magna Carta guaranteed
that ‘[a] Free-man shall not be amerced for a small
fault, but after the manner of the fault . . . .’”
(alteration in original) (citation omitted)).
Here, “the Department’s penalty undoubtedly
constitutes punishment,” App. 35a (¶ 71), and
Vermont National bore absolutely no culpability for
its supposed “offense.” It consulted a professional
accountant before filing its taxes, was fully
transparent in its accounting, and was “[a]bsolutely”
cooperative during the audit. P.C. 214. Moreover, for
the reasons explained above, Vermont National’s tax
position
was
not
merely
reasonable,
but
unquestionably right.
Ultimately, Vermont National was subjected to an
excessive tax penalty of 23% only because it failed to
anticipate the Vermont Supreme Court’s drastic—

31
and unjustified—departure from this Court’s settled
precedent. The excessive, no-fault penalty provides
all the more reason for this Court to reverse the
supposed underpayment on which it is based.
D. The Vermont Supreme Court’s Error Is
Sufficiently
Egregious
To
Warrant
Summary Reversal
This is one of the rare cases in which summary
reversal is warranted. As explained, the Vermont
Supreme Court’s decision conflicts with Whitney,
resulted in nearly $3 million in unjustified liabilities,
interferes with state taxation, and violates basic
principles of fairness in taxation.
In these
circumstances, summary reversal is the right course.
Summary reversal is appropriate where a state
court decision is “flatly contrary to this Court’s
controlling precedent” on a principle of federal
constitutional law. Arkansas v. Sullivan, 532 U.S.
769, 771 (2001) (per curiam). As the leading treatise
explains, summary reversal is warranted “[i]f it
clearly appears at the certiorari stage that the
premise or basis of the state court’s ruling respecting
state law is a misreading of a federal constitutional
proposition.” Steven M. Shapiro et al., Supreme Court
Practice § 3.23 (11th ed. 2019); see also Sup. Ct. R.
10(c).
This Court has granted summary reversal in
numerous similar cases where the lower court plainly
misapplied clear Supreme Court precedent.11 And
11 See, e.g., Johnson v. City of Shelby, 574 U.S. 10, 12 (2014)

(per curiam) (courts below incorrectly dismissed plaintiffs’ suit
for failing to expressly invoke 42 U.S.C. § 1983 in the complaint);
KPMG LLP v. Cocchi, 565 U.S. 18, 19 (2011) (per curiam) (state

32
the Court has not hesitated to correct such errors in
the tax arena.12 Indeed, history shows that the Court
developed its recent practice of granting summary
reversal in tax cases. See Ernest J. Brown, The
Supreme Court, 1957 Term—Foreword: Process of
Law, 72 Harv. L. Rev. 77, 82-87 (1958) (describing
Court’s then-emerging trend of summary reversals
and noting that many such cases in this trend
involved tax liens).
Here, the Vermont Supreme Court upheld
Vermont’s authority to tax gains from the sale of
certain types of intangible property—and declared
that New York (and presumably other states) lack
such
authority—based
entirely
on
its
misinterpretation of Whitney and the federal
constitutional “situs” principle. See supra at 14-21.
court “failed to determine whether” all of the claims were
arbitrable under the Federal Arbitration Act); Ash v. Tyson
Foods, Inc., 546 U.S. 454, 455, 457 (2006) (per curiam) (court of
appeals “erred in articulating the standard” for pretext under 42
U.S.C. § 1981 and Title VII); Sao Paulo State of the Federative
Republic of Brazil v. American Tobacco Co., 535 U.S. 229, 232
(2002) (per curiam) (court of appeals applied the wrong standard
for judicial disqualification); Horn v. Banks, 536 U.S. 266, 271
(2002) (per curiam) (court of appeals “committed a clear error by
failing to perform” the required retroactivity analysis); Ohio v.
Reiner, 532 U.S. 17, 21 (2001) (per curiam) (state court’s decision
“clearly conflict[ed]” with this Court’s Fifth Amendment case
law).
12 See, e.g., Commissioner v. McCoy, 484 U.S. 3, 6 (1987)

(per curiam) (court of appeals “clearly exceeded its jurisdictional
bounds” in forgiving interest and statutorily imposed penalty);
Commissioner v. Asphalt Prods. Co., 482 U.S. 117, 120 (1987)
(per curiam) (court of appeals disregarded tax penalty statute
that “could not [have] be[en] clearer”); United States v. White
Bear Brewing Co., 350 U.S. 1010, 1010 (1956) (per curiam)
(summarily reversing prioritization decision in a tax lien case).

33
An error of this magnitude and clarity cannot stand.
Indeed, the Vermont Supreme Court’s holding is not
only directly contrary to Whitney, but would have
produced the opposite result on Whitney’s very facts.
This is precisely the sort of case for which the
summary reversal mechanism exists.13
For all the reasons discussed, the Vermont
Supreme Court’s decision is wrong and clearly
conflicts with Whitney. Summary reversal is entirely
justified. But if this Court disagrees, it should grant
plenary review to clarify Whitney’s situs rule and how
the Due Process Clause applies to state taxation of
intangibles like the FCC licenses at issue here. Either
way, this Court should not let the Vermont Supreme
Court’s erroneous holding stand.

13 This is not the first time in recent memory the Vermont

Supreme Court has ignored this Court’s precedent to rescue
state officers. A few months ago, three Justices issued a
statement rebuking that court for upholding a search without
analyzing controlling Fourth Amendment precedent—which
“almost certainly required a different result.” Bovat v. Vermont,
141 S. Ct. 22, 23 (2020) (Gorsuch, J., joined by Sotomayor &
Kagan, JJ., respecting the denial of certiorari). The Vermont
Supreme Court’s lopsided enforcement of this Court’s precedent
in an effort to justify unconstitutional actions by state officials
warrants the strong medicine of summary reversal.

34
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
HENRY P. BUBEL
TIFFANY N. TAM
PATTERSON BELKNAP WEBB
& TYLER LLP
1133 Avenue of the
Americas
New York, NY 10036
WM. ROGER PRESCOTT
TIMOTHY C. DOHERTY, JR.
DOWNS RACHLIN MARTIN
PLLC
199 Main Street
Burlington, VT 05401

ROMAN MARTINEZ
Counsel of Record
ERIC J. KONOPKA
CHRISTINE C. SMITH
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-3377
roman.martinez@lw.com

Counsel for Petitioner
February 18, 2021

APPENDIX

TABLE OF CONTENTS
Page
Opinion of the Supreme Court of Vermont,
Vermont National Telephone Co. v.
Department of Taxes, 2020 VT 83, __ A.3d
__ (2020) ..............................................................1a
Determination of the State of Vermont
Commissioner of Taxes, In re Vermont
National Telephone Co., Inc., ATC #16-10
(Aug. 28, 2018) ..................................................40a
Decision on Appeal of the Superior Court of
Vermont, Vermont National Telephone Co.
v. State of Vermont Department of Taxes,
No. 528-9-18 Wncv (Vt. Super. Ct. July 31,
2019) ................................................................109a
Order of the Supreme Court of Vermont
Denying Motion for Reargument, Vermont
National Telephone Co. v. Department of
Taxes, No. 2019-280 (Vt. Nov. 2, 2020) ..........124a
Vt. Tax Reg. § 1.5833-1 .........................................126a

1a
2020 VT 83
No. 2019-280
Vermont National
Telephone Company
v.
Department of Taxes

Supreme Court
On Appeal from
Superior Court,
Washington Unit, Civil
Division
March Term, 2020

Mary Miles Teachout, J.
William R. Prescott and Timothy C. Doherty, Jr. of
Downs Rachlin Martin PLLC, Burlington, and
Henry P. Bubel and Tiffany N. Tam of Patterson
Belknap Webb & Tyler LLP, New York, New York,
for Plaintiff-Appellant.
Thomas J. Donovan, Jr. Attorney General, and Will
S. Baker, Assistant Attorney General, Montpelier,
for Defendant-Appellee.
PRESENT: Reiber, C.J., Robinson, Eaton, Carroll and
Cohen, JJ.
¶ 1. Carroll, J. Vermont National Telephone
Company (VNT) appeals the Commissioner of Taxes’
determination that, pursuant to Department of Taxes
Regulation § 1.5833-1, the capital gain VNT earned
from the 2013 sale of two Federal Communications
Commission (FCC) telecommunications licenses is

2a
subject to Vermont tax.1 VNT also argues that the
penalty the Commissioner assessed for VNT’s failure
to report the 2013 sale violated 32 V.S.A. § 3202(b)(3)
and the Vermont and United States Constitution. We
affirm.
¶ 2. Before turning to the facts, we briefly
discuss the Department regulation governing this
dispute. Regulation § 1.5833-1 governs the taxation
of corporate income. It provides that business income
shall be “apportioned” to Vermont to the extent the
income “is derived from any trade, business or activity
conducted” within the state.
Allocation and
apportionment of “Vermont net income” by
corporations § 1.5833-1, Code of Vt. Rules 10 060
002(a)(1)
[hereinafter
Regulation
§ 1.5833],
http://www.lexisnexis.com/hottopics/codeofvtrules.
Nonbusiness income, however, is “allocated” in full to
the state where the income-producing assets are
“located” or have a “situs.” Regulation § 1.5833-1(e).
If the assets have neither a location nor a situs, the
income is allocated to the state of the business’s
commercial domicile, which is defined as “the
principle place from which the business is directed or
managed.” With that background, we turn to the
facts of this dispute.
1

Section 5862(d) of Title 32 provides that “[a] taxable
corporation which is part of an affiliated group engaged in a
unitary business shall file a group return containing the
combined net income of the affiliated group.” At all times
relevant to this appeal, VNT was part of a unitary group doing
business in Vermont and elsewhere that included subsidiaries
VTel Wireless, Inc., Four Winds Farm, Inc., and VTel Data
Networks, Inc. For purposes of this appeal, there is no need to
distinguish between VNT and its subsidiaries, so we refer to
them collectively as VNT.

3a
¶ 3. The following is undisputed. In 2003, the
FCC auctioned licenses granting the right to
broadcast in the 700 MHz frequency of the
electromagnetic spectrum in specific geographic
areas.
The 700 MHz frequency was originally
licensed for television broadcast. In the 1980s,
however, the FCC decided to move television
broadcasting to a lower portion of the spectrum and
license the 700 MHz frequency for mobile
telecommunications.
By 2003, many television
channels were still broadcasting at 700 MHz and it
was unclear when they would stop operating at that
spectrum, which was problematic because television
operations at this frequency would interfere with
mobile telecommunications.
¶ 4. Considering these uncertainties, VNT
purchased two FCC licenses in 2003 for investment
purposes. These licenses granted the company the
exclusive right to broadcast over parts of upstate New
York. License WPZW674, otherwise known as the
“Albany license,” covered a geographic area that
included Albany, Troy, Schenectady, Amsterdam, and
Saratoga Springs. License WPZW676, otherwise
known as the “Glens Falls license,” covered Glens
Falls, Whitehall, and Fort Ann. In 2010, the FCC
granted VNT authorization to “carve out” a portion of
the Glens Falls license to provide telecommunications
service to approximately 1700 customers around
Hebron, New York.
¶ 5. In 2013, VNT sold the Albany and Glens
Falls licenses—excluding the “carve-out” area
covering Hebron—to AT&T Mobility Spectrum LLC,
resulting in a capital gain of approximately
$23,970,730. Following the sale, VNT sought advice
from its accounting firm about whether the sale would

4a
be subject to Vermont and/or New York tax. In a
memorandum to VNT, the firm concluded that the
gain would not be subject to Vermont tax. The firm
explained that under Regulation § 1.5833-1, the
capital gain would qualify as nonbusiness income.
Because the Regulation directs nonbusiness income to
be allocated to the state where the income-producing
assets are located, the firm reasoned that the capital
gain would be allocated to New York under the
assumption that the licenses were located there. The
memorandum expressly cautioned that:
Any
tax
advice
contained
in
this
correspondence or attachments is based upon
our understanding of relevant facts and the tax
law and governmental rulings that were in
effect at the time the advice was given.
Furthermore, in accordance with [Internal
Revenue Service] rules, we hereby advise you
that any tax advice contained in this
correspondence or attachments is not intended
or written to be used, and it cannot be used, by
any taxpayer for the purpose of avoiding
penalties that may be imposed on the taxpayer
by the Internal Revenue Service.
¶ 6. On its 2013 Vermont tax return, VNT—
based on the advice of its accounting firm—reported
the capital gain from sale of the licenses as
nonbusiness income allocated entirely to a nonVermont source. In 2015, the Department audited
VNT and assessed corporate income tax on the capital
gain from the sale of the licenses,2 $334,899 in
2

The Commissioner assessed corporate income tax in the
amount of $1,947,437, which included unpaid tax on the capital

5a
interest, and an automatic underpayment penalty of
$445,222.52. VNT appealed to the Commissioner.3
¶ 7. Before the Commissioner, VNT argued that
the capital gain from the sale of the licenses was not
subject to Vermont tax because the income-producing
assets—the FCC licenses—were located in New York
as “they convey benefits that can only be exercised in
New York . . . and their value is inextricably bound to
a host of geographic-specific factors in New York.”
Assuming, in the alternative, that the licenses had no
location, VNT contended that the licenses would still
not be subject to Vermont tax because VNT’s
commercial domicile was in Connecticut, not
Vermont. VNT also argued the Department should
not have assessed an automatic underpayment
penalty because, given the complexity of the legal
issues, VNT acted reasonably in allocating the gain
from the sale of the licenses to New York.
¶ 8. In a lengthy written decision, the
Commissioner affirmed the assessment of corporate
income tax and the underpayment penalty. First, the
Commissioner concluded that the FCC licenses were
neither located nor had a situs in New York. The
Commissioner reasoned that the geographic-specific
factors VNT cited did not locate the licenses in New
York because they were “all factors which may affect
the unknown, but potential, future cost of acquiring
infrastructure and future income in the event the
gain from the sale of the licenses and unpaid tax on wages
earned by VNT’s president and CEO.
3 See 32 V.S.A. § 5883 (“Upon receipt of a notice of
deficiency . . . or of assessment of penalty . . . the taxpayer may
. . . petition the Commissioner in writing for a determination of
that deficiency . . . or assessment.”).

6a
licenses are used in New York business.” That the
licenses granted the right to broadcast in New York
did not mean the licenses were located there because
the broadcast areas “were simply market areas drawn
on the map by the FCC.”
¶ 9. In determining that the licenses did not
have a situs in New York, the Commissioner
concluded that the term “situs” in Regulation
§ 1.5833-1 was a term of art referring to whether an
asset is constitutionally subject to taxation in a state.
The Commissioner explained that due process
requires some minimum connection between “a state
and the person, property or transaction” it seeks to
tax. (Quotation omitted.) Consistent with this rule,
intangible property is generally subject to tax by the
owner’s state of domicile because intangible property
is a source “of actual or potential wealth” that “cannot
be dissociated from” its owner. (Quotations omitted.)
Intangible property may, however, be subject to tax in
a state other than the owner’s domicile “if the owner
engages in activities related to the intangible and
those activities are subject to the taxing state’s
governmental protections and benefits.” In the latter
case, the intangible acquires a “business situs” or “tax
situs.” Based on these constitutional principles, the
Commissioner determined that because VNT never
engaged in activities related to the licenses in New
York—e.g., did not charge or collect broadcast
contract fees—the licenses did not acquire a tax situs
there.
¶ 10. Second, the Commissioner concluded that
in 2012 and 2013, VNT’s commercial domicile was in
Vermont.
The Commissioner made extensive
findings to support this conclusion, which were
summarized as follows:

7a
Vermont was the location of the principal
office, the place where high-level policy was
implemented, where the conduct of day-to-day
business operations occurred, where the
greatest number of office staff and business
employees worked, and where the business
records were kept, and was the state that gave
the greatest protection and benefits . . . .
¶ 11. Finally, the Commissioner declined to abate
the underpayment penalty because the structure of
§ 3202(b)(3) indicated that the Legislature “intended
to create a penalty for simple failure to pay with no
fault.” In addition, the Commissioner determined
that the penalty was appropriate because one of the
purposes of penalties was to encourage taxpayers to
seek formal guidance from the Department rather
than take questionable tax positions. By failing to
seek formal guidance, VNT “assumed the risk” of a
penalty. VNT appealed to the trial court.
¶ 12. At the trial court, VNT made three
arguments. First, it argued that the licenses were
“localized” in New York because it is the only place
that granted the right to broadcast. Second, VNT
argued that the Commissioner improperly considered
“all the facts” in determining VNT’s commercial
domicile. Finally, VNT argued that the automatic
penalty violated § 3202(b)(3)—because that section
requires the Commissioner to exercise discretion in
determining whether to assess a penalty—and was
constitutionally excessive.
¶ 13. Although the trial court affirmed the
Commissioner’s decision, it disagreed with some of his
analysis and conclusions about where the FCC
licenses were located.
First, the trial court

8a
determined that the term “situs” in the Regulation
was not being used as a term of art, such as tax situs
or business situs. Instead, according to the trial court,
the term simply meant location, which was the
“parallel term expressly used in the first sentence” of
Regulation § 1.5833-1. Applying this interpretation,
the trial court determined that the licenses were not
located in New York because the licenses had “no
intrinsic location,” and it distinguished between the
business use of the licenses—which has a discernable
location—and the licenses themselves—which do not.
¶ 14. Second, the court concluded that the
Commissioner properly weighed the relevant factors
to determine that VNT’s commercial domicile was in
Vermont. Finally, with regard to the penalty, the
court, quoting Piche v. Department of Taxes, 152 Vt.
229, 234, 565 A.2d 1283, 1286 (1989), held that the
automatic penalty did not violate § 3202(b)(3) because
the decision to impose automatic penalties
“represents the full extent to which the Commissioner
has chosen to exercise his discretionary authority as
granted under the statute.” The court also concluded
that the penalty was not constitutionally excessive
because it did not exceed the range of penalties
permitted by § 3202(b)(3) and constituted only “a
small percentage of the outstanding liability.” VNT
appealed.
¶ 15. VNT makes similar arguments on appeal.
First, VNT argues that the licenses are located in New
York because they convey “privileges that can only be
exercised in a particular place”—namely, the right to
broadcast in a defined geographic area and the
corresponding right to deny others the ability to
broadcast. Second, assuming the licenses are not
located in New York, VNT argues that its commercial

9a
domicile is in Connecticut because that is where the
high-level decisions of officers and directors are made.
Finally, VNT submits that the Department’s
automatic penalty violates due process because the
relevant statute requires the Department to conduct
a “particularized inquiry into the considerations
pertinent to a specific defendant.”
(Quotation
omitted.) Alternatively, VNT contends that the
penalty violates the Excessive Fines Clauses of the
Vermont and United States Constitutions.
I. Standard of Review
¶ 16. Because Vermont does not have an
intermediate appellate court, this case presents one of
the rare circumstances where a party has the right to
two appeals. Section 5885 of Title 32 gives taxpayers
the right to appeal the Commissioner’s determination
“concerning a notice of deficiency, an assessment of
penalty or interest, or a claim of refund” to the
superior court. 4 V.S.A. § 2, in turn, provides a right
to appeal judgments of the superior court to this
Court. See State v. Philip Morris USA Inc., 2008 VT
11, ¶ 9, 183 Vt. 176, 945 A.2d 887 (“Ordinarily, this
Court is empowered to review, and litigants are
entitled to appeal from, any final order of the superior
court.”).
¶ 17. “Where there is an intermediate level of
appeal from an administrative body, we review the
case under the same standard as applied in the
intermediate appeal.” Tarrant v. Dep’t of Taxes, 169
Vt. 189, 195, 733 A.2d 733, 738 (1999). Although a
trial court normally acts as a factfinder, it functions
“solely as an appellate body” when reviewing the
decisions of administrative bodies. See In re Town of
Sherburne, 154 Vt. 596, 603, 581 A.2d 274, 278 (1990).

10a
Accordingly, we review the Commissioner’s decision
directly, “independent of the superior court’s findings
and conclusions.” Devers-Scott v. Office of Prof’l Reg.,
2007 VT 4, ¶ 4, 181 Vt. 248, 918 A.2d 230.
II. Tax Assessment
¶ 18. The Commissioner held, pursuant to
Regulation § 1.5833-1, that the capital gain from the
sale of the licenses was subject to Vermont tax
because the licenses had neither a location nor a situs,
and VNT’s commercial domicile was in Vermont.
VNT argues that the Commissioner erred in holding
that the capital gain was subject to Vermont tax
because (1) the licenses are located in New York; and
(2) assuming the licenses have no location, VNT’s
commercial domicile is in Connecticut, not Vermont.
A. Location of FCC Licenses
¶ 19. VNT argues that the licenses are localized
in New York because they convey “privileges than can
only be exercised in a particular place”—namely, the
right to broadcast in a specific geographic area and
the corresponding right to deny others the ability to
broadcast. Regulation § 1.5833-1(a)(1) provides that
business income shall be apportioned to Vermont
based on the extent to which the income “is derived
from any trade, business, or activity conducted”
within the state. Nonbusiness income, however, is
allocated in full to the state where the income
producing assets are “located” or have a “situs.”
Regulation § 1.5833-1(e). If the assets have neither a
location nor a situs, the income is allocated to the
business’s commercial domicile. Id.
¶ 20. Here, there is no dispute that the sale of the
licenses qualified as nonbusiness income. The issue
is whether the Commissioner erred in concluding that

11a
the income-producing assets—i.e., the licenses—were
neither located in nor had a situs in New York. The
Commissioner concluded that the licenses did not
have a location because intangible property, by
definition, has no physical location, and the mere fact
that the licenses conveyed rights that could be
exercised in New York did not mean they were located
there. According to the Commissioner, the licenses
also did not acquire a New York situs because VNT
never engaged in business activities with the licenses
there, which means that VNT never availed itself of
New York’s laws.
¶ 21. VNT argues that in interpreting the
Regulation, the Commissioner conflated “situs” with
the concept of “nexus.” According to VNT, whereas
nexus is the “constitutional standard that considers
the sufficiency of connections between a taxpayer and
the state seeking to impose a tax,” the term situs in
Regulation § 1.5833-1 “simply asks where an asset is
located for purposes of allocating nonbusiness
income.” Citing New York ex rel. Whitney v. Graves,
299 U.S. 366 (1937), VNT argues the FCC licenses are
located in New York because they grant a right that
can only be exercised there.
¶ 22. “We approach regulatory construction in
the same manner as we do statutory interpretation.”
In re Williston Inn Grp., 2008 VT 47, ¶ 14, 183 Vt.
621, 949 A.2d 1073 (mem.). “[O]ur overall goal is to
discern the intent of the drafters.” Conservation Law
Found. v. Burke, 162 Vt. 115, 121, 645 A.2d 495, 499
(1993). “[W]e do so by examining the plain meaning
of the regulatory language, with other tools of
construction should the plain meaning rule prove
unavailing.” In re Conservation Law Found., 2018 VT

12a
42, ¶ 15, 207 Vt. 309, 188 A.3d 667 (quotation and
alteration omitted).
¶ 23. However, because agencies, rather than the
Legislature, draft regulations, “[w]e employ a
deferential standard of review of an agency’s
interpretation of its own regulations.” State v.
Grenier, 2014 VT 121, ¶ 20, 198 Vt. 55, 110 A.3d 291
(quotation omitted). “Our deferential level of review,
however, does not equate with mere judicial passivity
. . . .” In re Wal-Mart Stores, Inc., 167 Vt. 75, 80, 702
A.2d 397, 400 (1997) (quotation omitted).
We still conduct an independent review and
will overturn an agency’s interpretation of its
own promulgated regulation that exceeds the
authority granted under the state enabling
statute, that conflicts with past agency
interpretations of the same rule, that results in
unjust, unreasonable, or absurd consequences,
or that demonstrates compelling indications of
error.
In re Conservation Law Found., 2018 VT 42, ¶ 16
(quotation and citations omitted).
¶ 24. Consistent with this deferential standard of
review, we conclude that the Commissioner correctly
determined that “situs” is a term of art referring to
where intangible property is constitutionally subject
to taxation.
Applying this term of art, the
Commissioner did not err in determining the licenses
did not have a New York situs.
1. Situs
¶ 25. VNT first argues that the term “situs” in
Regulation § 1.5833-1 is synonymous with location.
We disagree. The Regulation’s plain meaning, the

13a
presumption against superfluous language, and
VNT’s own argument indicate that situs is a term of
art referring to where intangible property is
constitutionally subject to taxation.
¶ 26. Beginning with the plain text, the
Regulation, phrased slightly differently, directs
nonbusiness income to be allocated to the state of a
business’s commercial domicile provided that the
income-producing assets have neither a “location” nor
a “situs.” Regulation § 1.5833-1(e). It is a basic
presumption of statutory interpretation “that
language is inserted in a statute advisedly.”
Trombley v. Bellows Falls Union High Sch. Dist. No.
27, 160 Vt. 101, 104, 624 A.2d 857, 860 (1993). We
accordingly “construe statutes to avoid rendering one
part mere surplusage.” In re Jenness & Berrie, 2008
VT 117, ¶ 24, 185 Vt. 16, 968 A.2d 316.
¶ 27. Applying the presumption in this case, we
must presume that the Department intended the
words “location” and “situs” in the Regulation to carry
different meanings. Otherwise, the parts of the
Regulation referencing situs would be “mere
surplusage.” Id. This presumption is confirmed by
the fact that “location” and “situs” have different
meanings. Whereas “location” refers to a physical
position, see Location, Black’s Law Dictionary (11th
ed. 2019), “situs” is “[t]he location or position (of
something) for legal purposes,” Situs, Black’s Law
Dictionary (11th ed. 2019). For taxation purposes
specifically, “situs” is a term of art referring to where
an intangible asset is constitutionally subject to
taxation. See First Bank Stock Corp. v. Minnesota,
301 U.S. 234, 237-38 (1937); Wheeling Steel Corp. v.
Fox, 298 U.S. 193, 209-10 (1936).

14a
¶ 28. “[D]ue process requires some definite link,
some minimum connection, between a state and the
person, property or transaction it seeks to tax.” Miller
Bros. Co. v. Maryland, 347 U.S. 340, 344-45 (1954). A
state’s authority to tax is accordingly based on the
“protection, opportunities and benefits [it] confers.”
Allied-Signal, Inc. v. Dir., Div. of Taxation, 504 U.S.
768, 778 (1992) (quotation omitted). “The simple but
controlling question is whether the state has given
anything for which it can ask return.” ASARCO Inc.
v. Idaho State Tax Comm’n, 458 U.S. 307, 315 (1982)
(quotation omitted).
¶ 29. Based on these constitutional principles,
tangible property is exclusively subject to tax “within
the territorial jurisdiction of the taxing state,” First
Bank Stock Corp., 301 U.S. at 240, because the taxing
state has provided “the benefit and protection of laws
enabling the owner to enjoy the fruits of his
ownership,” Curry v. McCanless, 307 U.S. 359, 36465 (1939) (“The power of government and its agencies
to possess and to exclude others from possessing
tangibles, and thus to exclude them from enjoying
rights in tangibles located within its territory, affords
adequate basis for an exclusive taxing jurisdiction.”).
¶ 30. This rule, however, is “meaningless when
applied to intangibles which, since they are without
physical characteristics, can have no location in
space.” First Bank Stock Corp., 301 U.S. at 240; see
also McCanless, 307 U.S. at 365 (“Very different
considerations, both theoretical and practical, apply
to the taxation of intangibles, that is, rights which are
not related to physical things.”). To determine where
intangible property is subject to taxation, we indulge
in a “metaphor,” Graves, 299 U.S. at 372, and assign
such property a fictionalized tax situs for the purpose

15a
of “symbolizing . . . those considerations which are
persuasive grounds for deciding that a particular
place is appropriate for the imposition of [a] tax.”
First Bank Stock Corp., 301 U.S. at 240-41; Wheeling
Steel Corp., 298 U.S. at 209 (“[B]y reason of the
absence of physical characteristics [intangibles] have
no situs in the physical sense, but have the situs
attributable to them in legal conception.”).
¶ 31. Intangibles are generally subject to tax at
the owner’s domicile. Graves, 299 U.S. at 371-72; see
also Wheeling Steel Corp., 298 U.S. at 209 (“[W]e have
held that a state may properly apply the rule mobilia
sequuntur personam and treat [intangibles] as
localized at the owner’s domicile for purposes of
taxation.”). This is so because intangible rights “are
but relationships between persons, natural or
corporate,” and the power of government over them
“can be made effective only through control over and
protection afforded to those persons whose
relationships are the origin of the rights.” McCanless,
307 U.S. at 366.
¶ 32. Despite “wide application” of the general
principle that intangible property is subject to
taxation at the owner’s domicile, “an important
exception has been recognized.” Wheeling Steel
Corp., 298 U.S. at 209. Intangibles acquire a business
situs—“as distinguished from the legal domicil[e] of
their owner,” First Bank Stock Corp., 301 U.S. at
238—“when the taxpayer extends his activities with
respect to his intangibles, so as to avail himself of the
protection and benefit of the laws of another state, in
such a way as to bring his person or property within
the reach of the tax gatherer there.” McCanless, 307
U.S. at 367; Graves, 299 U.S. at 371-72 (recognizing
that intangibles are “taxable only at the domicile of

16a
the owner” unless they have acquired a “business
situs” elsewhere).
¶ 33. By using the terms “location” and “situs” in
Regulation § 1.5833-1, the Department clearly
intended to distinguish between tangible and
intangible assets and incorporate the abovementioned constitutional principles to determine
where nonbusiness income is subject to taxation. The
Regulation directs nonbusiness income derived from
tangible assets—i.e., assets with a location—to be
allocated to the state where the assets are located
because, constitutionally speaking, tangible property
is exclusively subject to taxation at its location
“within the territorial jurisdiction of the taxing state.”
First Bank Stock Corp., 301 U.S. at 240. The concept
of location is “meaningless,” however, when
considering where intangible assets are subject to
taxation. Id. The Regulation accordingly introduces
the concept of “situs” to determine where nonbusiness
income derived from intangible assets is subject to
taxation and incorporates the constitutional rule that
intangibles are “taxable only at the domicile of the
owner” unless they have acquired a situs elsewhere.
Graves, 299 U.S. at 371-72.
¶ 34. This reading of the Regulation—that “situs”
is a term of art referring to where intangible property
is constitutionally subject to taxation—is the only
way that, under the Regulation, nonbusiness income
derived from intangible assets could ever be allocated
to a state other than a business’s commercial
domicile, which is exactly the result that VNT
advocates for. VNT argues the FCC licenses are
allocated to New York, which is not the state of its
commercial domicile. However, if—as VNT argues—
the term situs in the Regulation is synonymous with

17a
location, then, under the Regulation, intangible
assets would always be allocated to the state of
commercial domicile because intangible assets, by
definition, do not have a physical location. Wheeling
Steel Corp., 298 U.S. at 209. Because the FCC
licenses are intangible assets, and therefore have no
location, the only way they could be allocated to New
York is if they have acquired a situs there. Despite
arguing that the word situs in the Regulation is
synonymous with location, the result VNT seeks
requires that situs be interpreted as a term of art.
2. Application
¶ 35. The remaining question is whether the
Commissioner erred in concluding the FCC licenses
did not have a situs in New York. The Commissioner
reasoned that the licenses did not have a situs in New
York because VNT never used the licenses in business
activity there. That the licenses granted rights to
broadcast in New York was also not sufficient to
establish a situs because the broadcast areas “were
simply market areas drawn on the map by the FCC.”
¶ 36. Citing Graves, VNT argues that an
intangible asset has a situs, regardless of any actual
business use, if the asset grants a right that can only
be exercised in a particular place. Because the FCC
licenses grant a right to broadcast in New York, VNT
argues that the licenses have a situs there. Applying
the deferential standard of review associated with an
agency’s interpretation of its own regulation, we
conclude that VNT has not demonstrated that the
Commissioner erred in concluding the FCC licenses
did not have a New York situs.
¶ 37. It is certainly true that in Graves, the
United States Supreme Court held that an intangible

18a
asset may have a situs, regardless of any business
use, if the intangible grants a right that “is fixed
exclusively or dominantly” at a particular place. 299
U.S. at 372-73. This statement, however, must be
placed in context. To do so, we return to some basic
principles about taxation. The concept of situs is a
way of “symbolizing . . . those considerations which
are persuasive grounds for deciding that a particular
place is appropriate for the imposition of [a] tax.”
First Bank Stock Corp., 301 U.S. at 240-41. A state’s
ultimate power to tax is based on the “protection,
opportunities and benefits [it] confers.” Allied-Signal,
Inc., 504 U.S. at 778 (quotation omitted). “The simple
but controlling question is whether the state has
given anything for which it can ask return.” Idaho
State Tax Comm’n, 458 U.S. at 315 (quotation
omitted).
¶ 38. Consistent with these principles, in Graves,
the United States Supreme Court recognized that an
intangible asset may acquire a situs if either (1) the
intangible is used in “the actual transactions of a
localized business” or (2) the intangible grants a right
that is “fixed exclusively or dominantly” at a
particular place. 299 U.S. at 372. In the first
instance, an intangible acquires a situs because the
taxpayer has “extend[ed] his activities with respect to
his intangibles, so as to avail himself of the protection
and benefit of the laws of another state, in such a way
as to bring his person or property within the reach of
the tax gatherer there.” McCanless, 307 U.S. at 367.
¶ 39. In the second instance, however, the
intangible has a situs regardless of whether the
intangible is actually used in business. Graves, 299
U.S. at 373 (explaining that “[t]he nature of th[e
intangible] right is not altered by the failure to

19a
exercise it”). What is implied in the Court’s analysis
in Graves is that the intangible has been created or
protected by a state’s laws. The intangible at issue in
that case was a membership in the New York State
Stock Exchange.
In determining that the
membership had a situs in New York regardless of
any actual business use, the Court pointed out the
multiple benefits that New York law had provided,
explaining that the membership embraced:
the privilege of a member to transact business
on the Exchange as well as a valuable right of
property which is the subject of transfer with
the approval of the Exchange and may survive
resignation, expulsion or death.
In both
aspects the right is held and can be exercised
only in subjection to the constitution, by-laws
and rules of the Exchange. The Exchange is a
market place. The privilege which inheres in
the membership is the right to conduct
transactions at that market place.
That
privilege of conducting the business of the
buying and selling of securities on the floor of
the Exchange is the dominant feature of the
membership or “seat.”
Id. at 372-73 (footnote omitted). Graves and basic
constitutional principles of taxation indicate that
intangible assets can have a situs, regardless of any
business use, if the right associated with the
intangible is fixed in a particular place and that
place’s laws have provided protection and benefits.
Again, “[t]he simple but controlling question is
whether the state has given anything for which it can
ask return.” Idaho State Tax Comm’n, 458 U.S. at
315.

20a
¶ 40. Considering all of these principles, the
Commissioner determined that the FCC licenses did
not have a situs in New York by virtue of granting
rights to broadcast there. Throughout his decision,
the Commissioner explained that the FCC licenses
granted rights that were created and protected by the
FCC, not New York. Because the rights were created
by the FCC, the Commissioner concluded that New
York did not protect or benefit VNT’s passive
investment and, therefore, the licenses did not
acquire a situs there. Given the deferential standard
of review and the Commissioner’s thorough reasoning
as to why the FCC licenses did not have a situs in New
York, VNT has failed to demonstrate any “compelling
indications of error.” In re Conservation Law Found.,
2018 VT 42, ¶ 16 (quotation omitted).
B. Commercial Domicile
¶ 41. Because the FCC licenses have neither a
location nor a situs, the capital gain from the sale of
the licenses is allocated to VNT’s commercial
domicile.
Regulation § 1.5833-1(e).
The
Commissioner concluded that the “true test” for
commercial domicile is “to consider all the facts, to
determine where the actual conduct of business
operations occurs, and which state gives the greatest
protection and benefits to the corporation.”
(Quotations omitted.)
Applying this test, the
Commissioner concluded, based on extensive factual
findings, that VNT’s commercial domicile in 2012 and
2013 was in Vermont:
Vermont was the location of the principal
office, the place where high-level policy was
implemented, where the conduct of day-to-day
operations occurred, where the greatest

21a
number of office staff and business employees
worked, and where the business records were
kept, and was the state that gave the greatest
protection and benefits . . . .
¶ 42. VNT does not challenge any of the
Commissioner’s factual findings on appeal. Instead,
VNT argues that the Commissioner improperly gave
“equal weight” to “nonessential factors” in concluding
that its commercial domicile was in Vermont. Citing
the United States Supreme Court’s decision in
Wheeling Steel Corp. v Fox., 298 U.S. 193 (1936),
VNT argues that the most important factor is “the
center of authority and control.” Applying this test,
VNT argues its commercial domicile is in Connecticut
because that is where its president makes “high-level
strategic decisions” and the board of directors meets.
¶ 43. As described above, supra, ¶ 23, “[w]e
employ a deferential standard of review of an agency’s
interpretation of its own regulations.” Grenier, 2014
VT 121, ¶ 20. We begin with some basic background
principles on the concept of commercial domicile,
which arose to address where intangible property
owned by corporations should be taxed. Intangible
property is generally subject to tax at the owner’s
domicile. Graves, 299 U.S. at 371-72. Because “a
corporation is deemed for most purposes to be
domiciled in the state of its incorporation, intangibles
are usually taxable in that state.” S. Pac. Co. v.
McColgan, 156 P.2d 81, 93 (Cal. Dist. Ct. App. 1945).
The rationale for this rule is that corporations
generally carry on their business “in the state of
incorporation and generally [have their] principal
place of business there.” Id. As such, “the corporation
benefit[s] from the functions of government in respect

22a
to its activities generally, and in relation to its
intangibles, more in that state than in any other.” Id.
¶ 44. This rule, however, is based on a fiction, and
in some circumstances, “[l]egal fiction should be made
to yield to reality.” Cargill, Inc. v. Spaeth, 10 N.W.2d
728, 733 (Minn. 1943). When a corporation “does not
operate at its legal domicile,” but “maintains in
another state its principal business office, from which
its management functions,” the corporation is said to
acquire a commercial domicile. Kevin Assocs., L.L.C.
v. Crawford, 2003-0211, p. 9 (La. 1/30/04), 865 So. 2d
34, 40; see also Anniston Sportswear Corp. v. State,
151 So. 2d 778, 782 (Ala. 1963) (“[W]hen [a
corporation] does not operate at its legal domicile and
maintains in another state its principal business
office . . . the latter place is considered as its
‘commercial domicile.’ ”); Cargill, Inc., 10 N.W.2d at
733 (“A corporation may make its actual, as
distinguished from its technically legal, home in a
state other than that of its incorporation.”). A
corporation is subject to taxation at its commercial
domicile because it is there that it receives the
benefits provided by the government and may
therefore “be required to pay its fair and just share of
the cost of such benefits.” Anniston Sportswear Corp.,
151 So. 2d at 782.
¶ 45. With these background principles in mind,
we turn to the question at issue here. What VNT
disputes is the relevant test for determining where a
corporation acquires a commercial domicile.
It
asserts that the dispositive factor is the location of
high-level decision making and the Commissioner
improperly weighed other less important factors.
Under Regulation § 1.5833-1(e), commercial domicile
is defined as “the principle [sic] place from which the

23a
business is directed or managed.”
The term
commercial domicile was first defined in Wheeling
Steel Corp. v. Fox. See Sinclair Pipe Line Co. v. State
Comm’n of Revenue & Taxation, 339 P.2d 341, 344
(Kan. 1959) (“The matter of a commercial domicile of
a corporation and the power to tax has been
considered by the Supreme Court of the United States
in several cases.” (citing Wheeling Steel Corp., 298
U.S. 193)); N. Baton Rouge Dev. Co. v. Collector of
Revenue, 304 So. 2d 293, 297 (La. 1974) (explaining
that commercial domicile “is generally understood as
defined in Wheeling Steel Corp. v. Fox”); Assoc’d
P’ship I, Inc. v. Huddleston, 889 S.W.2d 190, 198
(Tenn. 1994) (“The term, ‘commercial domicile,’
originated in the U.S. Supreme Court decision,
Wheeling Steel Corp. v. Fox.”).
¶ 46. In Wheeling Steel Corp., the United States
Supreme Court held that a Delaware corporation had
a commercial domicile in West Virginia. 298 U.S. at
211-12. The Court explained that the corporation
maintained “its general business offices” in West
Virginia, which was where the corporation kept “its
books and accounting records,” directors held their
meetings, and officers conducted “the affairs of the
corporation.” Id. at 211. The general business office
was the corporation’s “center of authority” that made
it “the actual seat of its corporate government.” Id. at
212.
¶ 47. In interpreting Wheeling Steel Corp., courts
have emphasized that the principal inquiry for
commercial domicile is to consider where the business
is managed and directed. Memphis Nat. Gas Co. v.
Beeler, 315 U.S. 649, 652 (1942) (holding that
corporation had commercial domicile in Tennessee
because “[i]t manage[d] its business from its office”

24a
there); S. Nat. Gas Corp. v. Alabama, 301 U.S. 148,
153-54 (1937) (concluding that corporation’s
commercial domicile was in Alabama because the
“ ‘entire management’ was conducted from its
principal office at the place”); Anniston Sportswear
Corp., 151 So. 2d at 782(explaining that commercial
domicile is at company’s “principal business office,
from which its management functions”); N. Baton
Rouge Dev. Co., 304 So. 2d at 297 (“[T]he ‘commercial
domicile’ exists where the principal place of business
is located and from which the corporation’s activities
function and are managed.” (quotation omitted));
Assoc’d P’ship I, Inc., 889 S.W.2d at 198 (“[T]he
commercial domicile of a corporation is the place from
which the business is managed or directed . . . .”).
¶ 48. To determine where a business is managed
or directed, courts consider a variety of factors,
including, but not limited to, where employees and
officers work, where orders are received and fulfilled,
where the books and bank accounts are located, and,
of course, where the board of directors meets.
Memphis Nat. Gas Co., 315 U.S. at 652 (explaining
that company managed business in Tennessee
because that is “where it ke[pt] its accounts,
provide[d] for the payroll of employees on its line in
Tennessee and other states, and prepare[d] and sen[t]
out bills for gas delivered in Tennessee and other
states”); S. Nat. Gas Corp., 301 U.S. at 154
(explaining that management was conducted in
Alabama because that is where company received and
fulfilled orders); Assoc’d P’ship I, Inc., 889 S.W.2d at
198 (considering where officers and employees
worked, management meetings were held, books
kept, and bank accounts located).

25a
¶ 49. Where the board of directors meets is
certainly a relevant factor in considering commercial
domicile, but it is neither determinative nor does it
carry more weight than any other factor. Crawford,
865 So. 2d at 42 (explaining that location of board
meetings “alone is not determinative of commercial
domicile”). In fact, the notion that the location of the
board of directors meetings is the most important
factor runs counter to the basic concept of commercial
domicile, which is to look beyond the “fiction” that a
corporation is domiciled in its state of incorporation
and instead require it “to pay its fair and just share of
the costs of . . . benefits” provided in the state where
it actually operates. Anniston Sportswear Corp., 151
So. 2d at 782; see also S. Pac. Co., 156 P.2d at 99
(“[T]he contention that, as a matter of law the only
state that can possibly be held to be its commercial
domicile is that state where its board of directors
meets, is as unrealistic, unsound, and artificial as the
concept that the corporation for all tax purposes is
domiciled in the state of incorporation.”).
¶ 50. Considering the definition of commercial
domicile, and the various precedents interpreting this
term, the Commissioner did not err in concluding that
VNT’s commercial domicile was in Vermont.
Consistent with this precedent, the Commissioner
considered numerous factors to determine that VNT’s
commercial domicile was in Vermont because that is
where it conducted business operations and received
the most benefits. Specifically, the Commissioner
found that VNT’s day-to-day business was conducted
out of its Springfield, Vermont office because at that
office, the Chief Financial Officer, among other
things, filed all of VNT’s 2012 and 2013 Vermont nonincome tax returns, paid sales tax, and paid payroll

26a
withholding tax. Most of the business records for the
years 2012, 2013, and 2014—including sales records,
financial statements, withholding-tax filings, W-2s
and W-3s, and supporting work papers—were kept in
the Springfield office. In 2012 and 2013, a majority of
VNT’s employees, fifty-seven out of fifty-nine, were
subject to Vermont withholding tax, which meant
that VNT had over fifty “employees in each year who
were either resid[ing] in Vermont or working in
Vermont.” The Commissioner also noted that in its
2013
Connecticut
corporate
return,
VNT
affirmatively stated, under the penalty of perjury,
that its principal place of business was in Vermont.
By contrast, the Commissioner found that during
those same years, VNT had no property in
Connecticut, had no employees there, and did not
store any business records there. Furthermore, the
Commissioner found that the record was unclear as to
“how many board meetings were held in Connecticut
in 2012 and 2013.” VNT does not challenge any of
these findings.
III. Penalty
¶ 51. The Department assessed an automatic
penalty of $445,222 because VNT failed to report the
gain from the 2013 sale of the FCC licenses and failed
to pay taxes on a portion of its president and CEO’s
wages. VNT argues the automatic penalty violated
due process because 32 V.S.A. § 3202(b) requires the
Commissioner to exercise discretion on a case-by-case
basis in determining whether to impose a penalty.
Alternatively, VNT argues that the penalty is
constitutionally excessive.

27a
A. Section 3202(b)
¶ 52. Pursuant to § 3202(b)(3) and Department
policy, the Commissioner imposed an automatic
penalty of $445,222. The Commissioner declined to
abate the penalty, explaining that although use of the
word “may” in § 3202(b)(3) gives the Commissioner
discretion to withhold the penalty on a case-by-case
basis, “there were no circumstances here which
warranted withholding the penalty.”
¶ 53. On appeal, VNT argues the automatic
penalty violated due process because in determining
whether to assess a penalty, § 3202(b)(3) requires the
Commissioner to exercise discretion on an
individualized, case-by-case basis. By automatically
imposing a penalty, VNT contends the Commissioner
failed to exercise discretion as required by the statute.
VNT contends that had the Department conducted an
individualized review, the Department would not
have penalized VNT because it adopted a reasonable
construction of Regulation § 1.5833-1 in good faith
based on the advice of accountants.
¶ 54. As a threshold matter, VNT’s due-process
argument is not preserved because it was not raised
before the Commissioner. “We have repeatedly
stressed that we will not address arguments not
properly preserved for appeal.” In re White, 172 Vt.
335, 343, 779 A.2d 1264, 1270 (2001). “[T]o properly
preserve an issue, a party must present the issue to
the administrative agency with specificity and clarity
in a manner which gives the agency a fair opportunity
to rule on it.” Pratt v. Pallito, 2017 VT 22, ¶ 16, 204
Vt. 313, 167 A.3d 320 (quotation and alteration
omitted). VNT argued before the Commissioner that
the automatic penalty violated § 3202(b)(3). We

28a
accordingly only address VNT’s assertion that the
automatic penalty violated § 3202(b)(3) because the
Commissioner failed to exercise discretion.
¶ 55. Moving to the merits, § 3202(b)(3) provides
that the Commissioner “may” assess a penalty for a
taxpayer’s failure to pay a tax liability imposed by
Title 32. The word “may” provides the Commissioner
with discretion as to whether to assess a penalty. See
Vt. Agency of Nat. Res. v. Duranleau Constr., Inc.,
159 Vt. 233, 238, 617 A.2d 143, 146 (1992) (explaining
that word “may” gave agency discretion). Because the
decision to assess a penalty is a discretionary one, we
review for an abuse of discretion. Hall v. Dep’t of Soc.
Welfare, 153 Vt. 479, 484, 572 A.2d 1342, 1345 (1990)
(“This Court will not interfere with the performance
of a discretionary duty in the absence of a showing of
an abuse of discretion . . . .”). An agency’s failure to
exercise discretion is an abuse of discretion. Burbo v.
Dep’t of Soc. Welfare, 157 Vt. 664, 665, 599 A.2d 1045,
1046 (1991) (mem.) (holding that an agency’s “refusal
to exercise the discretion that its own regulation
allow[ed was] an abuse of discretion”).
¶ 56. We decided this exact issue in Piche v.
Department of Taxes, 152 Vt. 229, 565 A.2d 1283
(1989). In that case, the Commissioner assessed an
automatic penalty for a late tax return based on
discretionary authority to assess penalties for late
filing. Id. at 233, 565 A.2d at 1286. The trial court
ruled that the automatic penalty was invalid because
the Commissioner “violated his duty . . . to exercise
discretion when imposing penalties for delinquent
payment.” Id. We reversed, explaining,
The fact that the penalty was imposed
automatically by the Department of Taxes

29a
when the delinquency was discovered does not
negate the exercise of discretion on the part of
the Commissioner, particularly when any
penalty assessed is subject to individual review
upon appeal to the Commissioner. It merely
represents the full extent to which the
Commissioner has chosen to exercise his
discretionary authority as granted under the
statute.
Id. at 234, 565 A.2d at 1286 (citation omitted).
¶ 57. Citing several other decisions from this
Court, VNT argues that Piche was wrongly decided
because, as a categorical rule, the exercise of
discretion requires individualized consideration. This
argument is incorrect. An agency’s discretion is not
always limited to individualized consideration. “The
enabling legislation of virtually every administrative
agency must include a certain degree of discretion
given to the administrative agency . . . .” Vincent v.
Vt. State Ret. Bd., 148 Vt. 531, 535, 536 A.2d 925, 928
(1987). “To determine the scope of authority vested in
an administrative agency by a statutory grant of
power, we look to its enabling legislation.” In re
Mountain Top Inn & Resort, 2020 VT 57, ¶ 37, ___ Vt.
___, ___ A. 3d, ___ (quotation omitted).
¶ 58. The scope of an agency’s discretionary
authority varies depending on the enabling
legislation. For example, the Legislature has given
the Natural Resource Board the discretionary
authority to promulgate regulations of general
applicability. See, e.g., 10 V.S.A. § 6025(b) (providing
Natural Resource Board with authority to “adopt
substantive rules . . . that interpret and carry out the
provisions of [Act 250]”). On the other hand, as VNT

30a
observes, in other situations we have held that
agencies could not adopt rules of general applicability
because the relevant enabling statute required an
agency to exercise discretion on a case-by-case basis.
For example, in Martin v. State, Agency of
Transportation Department of Motor Vehicles, we
held that the Department of Motor Vehicles could not
adopt a regulation categorically excluding certain
vanity license plates because the governing statute
only gave the Department discretion to refuse
requests for vanity plates on a case-by-case basis.
2003 VT 14, ¶¶ 2-3, 17-20, 175 Vt. 80, 819 A.2d 742.
¶ 59. Here, unlike the statute in Martin, nothing
in § 3202(b)(3) indicates that the Commissioner is
required to determine whether to assess a penalty on
a case-by-case basis. Section 3202 provides the
Commissioner with broad discretionary authority to
assess penalties for the failure to pay taxes, the
negligent failure to pay taxes, and the fraudulent
failure to pay taxes. There is nothing that suggests
the
Commissioner
must
take
individual
circumstances into account beyond those general
statutory criteria.
As we explained in Piche,
automatic penalties “merely represent[] the full
extent to which the Commissioner has chosen to
exercise his discretionary authority as granted under
the statute.” 152 Vt. at 234, 565 A.2d at 1286.
¶ 60. Furthermore, to the extent VNT argues
that § 3202(b)(3) requires the Commissioner to
consider penalties on a case-by-case basis, the appeal
to the Commissioner as provided in § 5885 creates
such individual review because, as we explained in
Piche, “any penalty assessed is subject to individual
review upon appeal to the Commissioner.” 152 Vt. at
234, 565 A.2d at 1286. The record shows that the

31a
Commissioner
specifically
considered
VNT’s
arguments and circumstances and did not abuse his
discretion in determining that the automatic penalty
was appropriate.
¶ 61. Before the Commissioner, VNT argued that
given the complexity of the legal issues, it acted
reasonably and in good faith by relying on the advice
of its accountants and allocating the gain to New
York. The Commissioner rejected this argument,
reasoning that because § 3202(b) authorizes penalties
for failure to pay, the negligent failure to pay, and the
fraudulent failure to pay, the Legislature intended to
penalize the failure to pay regardless of the taxpayer’s
fault or good faith. It is true that an abuse of
discretion occurs when a decision is based on an
incorrect interpretation of the law.
Bratton v.
Holland, 2018 VT 54, ¶ 17, 207 Vt. 517, 192 A.3d
1257. In this case, however, the Commissioner
reasonably interpreted § 3202(b)(3).
See Shires
Hous., Inc. v. Brown, 2017 VT 60, ¶ 9, 205 Vt. 186,
172 A.3d 1215 (“Absent compelling indications of an
error, interpretation of a statute by an administrative
body responsible for its execution will be sustained on
appeal, unless it is unjust or unreasonable.”
(quotation omitted)). In addition, the Commissioner
determined that the penalty was appropriate because
one of the purposes of penalties is to encourage
taxpayers to seek formal guidance from the
Department rather than take questionable positions.
B. Constitutionally Excessive
¶ 62. The United States Constitution prohibits
excessive fines. U.S. Const. amend. VIII. The
Vermont Constitution provides that “all fines shall be
proportioned to the offenses.” Vt. Const. ch. II, § 39.

32a
Citing United States v. Bajakajian, 524 U.S. 321
(1998), VNT argues the $445,222 penalty is an
excessive fine. The Department argues, however,
that VNT failed to preserve this argument because it
did not raise it before the Commissioner. We address
VNT’s Eighth Amendment claim on the merits even
though VNT failed to raise it before the
Commissioner. We conclude, however, that the
penalty is not excessive.
1. Preservation
¶ 63. The Department argues that VNT failed to
preserve its constitutional claim because it did not
raise it before the Commissioner. VNT argues in
response that the claim is preserved because there is
“no daylight” between arguing that the penalty was
arbitrary in violation of § 3202(b)(3) and arguing that
the
penalty
is
constitutionally
excessive.
Alternatively, VNT submits its constitutional claim
falls within an exception to the preservation rule
because the Department did not raise its preservation
argument before the trial court, and the trial court
addressed the claim on the merits. For the reasons
articulated below, we will address VNT’s Eighth
Amendment claim.
¶ 64. “We have repeatedly stressed that we will
not address arguments not properly preserved for
appeal.” White, 172 Vt. at 343, 779 A.2d at 1270.
“[T]o properly preserve an issue, a party must present
the issue to the administrative agency with specificity
and clarity in a manner which gives the agency a fair
opportunity to rule on it.” Pratt, 2017 VT 22, ¶ 16
(quotation and alteration omitted); In re Morrisville
Hydroelectric Project Water Quality, 2019 VT 84,
¶ 17, ___ Vt. ___, 224 A.3d 473 (“To preserve an

33a
argument for appeal, a party must present an
argument with specificity and clarity.” (quotation
omitted)). Even constitutional claims are subject to
the preservation rule. Clark v. Menard, 2018 VT 68,
¶ 6, 208 Vt. 11, 194 A.3d 752 (holding that petitioner
failed to preserve constitutional argument because it
was not raised with specificity below).
¶ 65. VNT did not preserve its constitutional
argument. Contrary to VNT’s assertion, there is a
significant difference between a statutory claim and a
constitutional one. VNT advanced a purely statutory
claim below, arguing that the penalty violated
§ 3202(b)(3). The Commissioner accordingly decided
only whether the penalty imposed was consistent
with the statute.
Whether the penalty is
constitutionally excessive is a completely different
argument that had to be preserved. See Martin, 2003
VT 14, ¶ 11 (holding that constitutional argument
was not preserved because appellant’s argument
throughout litigation was that regulation violated
statute).
¶ 66. Nevertheless, in our discretion, we will
address VNT’s argument that the penalty violated the
Eighth Amendment because the “goals of our
preservation rules are satisfied” with respect to that
claim. In re LaBerge NOV, 2016 VT 99, ¶ 16, 203 Vt.
98, 152 A.3d 1165; see also State v. Nash, 2019 VT 73,
¶ 15, ___ Vt. ___, 221 A.3d 386 (noting that Court has
discretion to consider unpreserved issues). “The
purpose of our preservation rule is to ensure that the
original forum is given an opportunity to rule on an
issue prior to our review.” Vt. Built, Inc. v. Krolick,
2008 VT 131, ¶ 10, 185 Vt. 139, 969 A.2d 80 (quotation
omitted).
Preservation also “facilitates the
development of a record for appeal.” State v. Wool,

34a
162 Vt. 342, 346, 648 A.2d 655, 658 (1994). Although
VNT did not raise its constitutional claim before the
Commissioner, it raised it with sufficient clarity to
allow the trial court to address it. Both parties have
briefed the Eighth Amendment claim on appeal. The
goals of our preservation rule have therefore been met
with respect to the Eighth Amendment claim, and we
will address it.
¶ 67. The same cannot be said with respect to
VNT’s claim under the Vermont Constitution. On
appeal, VNT makes a brief reference to the Vermont
Constitution’s Excessive Fines Clause. The trial
court, however, decided only that the penalty did not
violate the Eighth Amendment.
Furthermore,
“[m]erely citing the Vermont Constitution, without
providing any analysis of how the state constitutional
provision compares with its federal analog, does not
adequately present the issue for our review.” State v.
Brillon, 2010 VT 25, ¶ 6, 187 Vt. 444, 995 A.2d 557.
2. Merits
¶ 68. The trial court concluded that the penalty
did not violate the Eighth Amendment because the
penalty was “a small percentage of the outstanding
liability.” The court also explained that civil tax
penalties have repeatedly been held not to violate the
Eighth Amendment’s Excessive Fines Clause, and
VNT cited no case in which a similar penalty was held
to be constitutionally excessive. VNT argues the
$445,222 penalty is constitutionally excessive
because in Bajakajian, 524 U.S. at 337, the United
States Supreme Court held that a $357,144 fine was
excessive. The Department argues, on the other
hand, that the penalty is proportionate to the
underpayment, which was substantial.

35a
¶ 69. The Eighth Amendment to the United
States Constitution prohibits “excessive fines.” U.S.
Const. amend. VIII. In Timbs v. Indiana, the United
States Supreme Court held that the Eighth
Amendment’s Excessive Fines Clause was applicable
to the states through the Fourteenth Amendment’s
Due Process Clause. 139 S. Ct. 682, 689 (2019). “The
Excessive Fines Clause . . . limits the government’s
power to extract payments, whether in cash or in
kind, as punishment for some offense.” Bajakajian,
524 U.S. at 328 (quotation omitted). A fine “violates
the Excessive Fines Clause only if it is (1) punitive,
and (2) grossly disproportional to the gravity of the
defendant’s offense.” United States v. Jalaram, Inc.,
599 F.3d 347, 351 (4th Cir. 2010).
a. Punitive
¶ 70. A fine falls within the coverage of the
Eighth Amendment’s Excessive Fines Clause if it
“constitute[s] punishment.” Bajakajian, 524 U.S. at
328. Just because a fine serves both remedial and
punitive purposes does not mean it is exempt from the
Eighth Amendment’s protections. Austin v. United
States, 509 U.S. 602, 610 (1993). Rather, the inquiry
is whether the fine “can only be explained as serving
in part to punish.” Id.
¶ 71. In this case, the Department’s penalty
undoubtedly constitutes punishment.
As we
explained in TD Banknorth, N.A. v. Department of
Taxes, § 3202 enables “the Commissioner to penalize
taxpayers when they have not properly discharged
their tax burden” by assessing a penalty based on the
outstanding tax liability. 2008 VT 120, ¶ 37, 185 Vt.
45, 967 A.2d 1148 (emphasis added). As such, a
penalty assessed pursuant to § 3202 “does not serve

36a
the remedial purpose of compensating the
Government for a loss.” Bajakajian, 524 U.S. at 329.
While § 3203 allows the Commissioner to recover any
underpaid taxes, § 3202 allows the Commissioner to
assess a penalty in addition to the outstanding tax
liability. The purpose of § 3202 is to penalize
taxpayers and, in doing so, allows the state to recover
an amount in excess of the outstanding tax liability.
b. Excessive
¶ 72. “The touchstone of the constitutional
inquiry under the Excessive Fines Clause is the
principle of proportionality: The amount of the
forfeiture must bear some relationship to the gravity
of the offense that it is designed to punish.”
Bajakajian, 524 U.S. at 334. A penalty accordingly
violates the Excessive Fines Clause if it is grossly
disproportionate. Id. at 336 (adopting the “standard
of gross disproportionality articulated in . . . Cruel
and Unusual Punishments Clause precedents”).
Because “the relevant constitutional line is inherently
imprecise,” each case requires “an independent
examination.” Cooper Indus., Inc. v. Leatherman
Tool Grp., Inc., 532 U.S. 424, 434-35 (2001). Some of
the relevant factors to consider include the degree of
culpability, the relationship between the penalty and
the harm, and “the sanctions imposed in other cases
for comparable misconduct.” Id. at 435.
¶ 73. As an initial matter, “judgments about the
appropriate punishment . . . belong in the first
instance to the legislature.” Bajakajian, 524 U.S. at
336. There is accordingly “a strong presumption that
the amount of a fine is not unconstitutionally
excessive if it lies within the range of fines prescribed
by the legislature.” Moustakis v. City of Fort

37a
Lauderdale, 338 F. App’x 820, 821 (11th Cir. 2009)
(quotation omitted). In this case, the penalty the
Commissioner assessed fell within the statutory
range prescribed by the Vermont Legislature. Section
3202(b)(3) provides that if a “taxpayer fails to pay a
tax liability imposed by . . . [T]itle [32],” the
Commissioner may assess a penalty of “five percent[]
of the outstanding tax liability for each month, or
portion thereof, that the tax liability is not paid in full;
provided, however, that in no event shall the amount
of any penalty assessed . . . exceed 25 percent of the
tax liability unpaid.” But see 32 V.S.A. § 3202(b)(3)
(providing that for income tax, the Commissioner can
only assess penalty equal to one percent of the
outstanding tax liability). Pursuant to § 3202(b)(3),
the Commissioner assessed a penalty of $445,222.52,
which was approximately twenty-three percent of the
outstanding tax liability.
Because the penalty
assessed fell with the statutory range, a strong
presumption exists that the penalty is not
constitutionally excessive.
¶ 74. The relevant factors outlined in Cooper
Industries, Inc., confirm that the penalty imposed
here is not unconstitutionally excessive. With regard
to culpability, VNT argues its conduct was not
culpable because VNT relied on the advice of its
accounting firm, and it was never alleged they
willfully or negligently underpaid. Although VNT
may have relied upon the advice of its accounting
firm, the memorandum VNT received from its
accounting firm was just that—advice.
The
memorandum expressly cautioned that “[a]ny tax
advice contained in this correspondence or
attachments is based on upon our understanding of
relevant facts and the tax law and governmental

38a
rulings that were in effect at the time the advice was
given” and could not be used “for the purpose of
avoiding penalties that may be imposed on the
taxpayer by the Internal Revenue Service.” Despite
receiving this cautionary advice, VNT did not seek a
formal ruling from the Department.
See
Organization and Rules of Procedure Rule 7(b), Code
of Vt. Rules 10 060 028, http://www.lexisnexis.com/
hottopics/codeofvtrules (“Upon request of a taxpayer,
the Department will issue a declaratory ruling to as
to the applicability of any statutory provision or of any
rule or practice of the Department.”). Although VNT
may not have willfully or intentionally underpaid, by
relying on the advice of its accountants and not
seeking a formal ruling, it—as the Commissioner
explained—“assumed the risk” of receiving a penalty.
¶ 75. With regard to “the sanctions imposed in
other cases for comparable misconduct,” Cooper
Indus., Inc., 532 U.S. at 435, VNT argues the
$445,222 penalty is constitutionally excessive
because in Bajakajian, 524 U.S. at 337, the United
States Supreme Court held that a $357,144 fine was
excessive. In Bajakajian, the defendant was found
guilty of failing to report, as required by federal law,
that he was transporting $357,144 in cash, and the
trial court determined the entire amount was subject
to forfeiture. Id. at 324-25. The United States
Supreme Court held that the forfeiture was an
excessive fine because the crime “was solely a
reporting offense,” and the forfeiture order was “many
orders of magnitude” larger than the maximum $5000
fine for the offense under the sentencing guidelines.
Id. at 337-38, 340. The Court also noted that the
harm to the government was minimal because “[h]ad
his crime gone undetected, the Government would

39a
have been deprived only of the information that
$357,144 had left the country.” Id. at 339.
¶ 76. Nothing about Bajakajian indicates that
the Commissioner’s twenty-three percent penalty in
this case was excessive. Unlike Bajakajian, the
$445,222 penalty the Commissioner assessed was not
“many orders of magnitude” larger than the unpaid
tax liability. Furthermore, in contrast to Bajakajian,
the present case involved significantly more harm to
the government because VNT initially failed to pay a
tax liability of $1,947,437. Based on the foregoing, we
conclude the penalty is not constitutionally excessive.
Affirmed.

FOR THE COURT:
___________________________
Associate Justice

40a
STATE OF VERMONT
COMMISSIONER OF TAXES
IN RE: Vermont National Telephone Company, Inc.
Corporate Income Tax
ATC #16-10
DETERMINATION
Introduction
A hearing was held January 30, 2018, on the
appeal of Vermont National Telephone Company,
Inc., from the Department’s assessment of corporate
income tax. Attorneys Roger Prescott and Timothy
Doherty represented the taxpayer. Dr. Michel Guite,
President and CEO of the taxpayer and its
subsidiaries, and Dr. Kostas Liopiros testified as
witnesses for the taxpayer. Also attending the
hearing were Ms. Frances Stocker, Vice President of
Finance, Treasurer and CFO of the taxpayer; Mr.
Michel Caouette, CPA for the taxpayer; and Attorney
Henry Bubel, an attorney for the taxpayer.
Assistant Attorney General Margaret Burke
represented the Department. Department Tax Field
Auditor Alicia Carusona testified as a witness for the
Department.
The record was completed on March 20, 2018.
Findings of Fact
General
1. The parties agreed to a Stipulation of Facts
(“Stip.”) and to Exhibits (“Ex.”) A through YY, but
reserved the right to argue the relevance or
materiality of any stipulated fact or document. At the
hearing, Vermont National Telephone Company, Inc.,
offered additional Exhibits ZZ, AAA through MMM,

41a
and PPP. Prior to the hearing, Taxpayer submitted
written “Pre-Filed Testimony of Dr. Michel Guite,”
dated January 16, 2018 (“PF”). Because of a technical
problem with the recording equipment near the end
of the hearing, the transcript of the hearing (“Tr.”) is
supplemented with the parties’ agreed “Supplemental
Written Testimony of Dr. Kostas Liopiros and Dr.
Michel Guite,” dated February 9, 2018 (“SW”).
2. The two issues on appeal are whether a 2013
corporate capital gain on sales of intangible licenses
is taxable by Vermont and whether Dr. Guite’s 2012
and 2013 compensation for time working in his
Connecticut home office are includible in the Vermont
payroll factor for purposes of unitary corporate
income tax apportionment for the audit years. The
assessment for 2012 related only to the compensation
issue, and was for base tax of $10,880, plus interest,
and penalty of $326.40. Stip. 34, Ex. D. The
assessment for 2013 includes both the compensation
issue and the capital gain issue and was for base tax
of $1,947,437, plus interest, and penalty of
$445,222.52. Stip. 44, Ex. MM, NN.
Vermont National Telephone Company Inc., and its
subsidiaries
3. Dr. Michel Guite is currently, and was in
2012 and 2013, President and CEO of the taxpayer
corporation, Vermont National Telephone Company,
Inc. (“VNAT”), and all its subsidiaries. PF pp. 2-3;
Stip. 4.
4. In 2012 and 2013, VNAT wholly owned three
subsidiaries, Vermont Telephone Company, Inc.
(“Vtel’’), Vtel Wireless, Inc. (“Wireless”), and Four
Winds Farm, Inc. (“FWF”). VNAT, Vtel and Wireless
were incorporated in Delaware and FWF was

42a
incorporated in Vermont. All four corporations are
headquartered at 354 River Street in Springfield,
Vermont. Stip. 2.
5. In 2013, VNAT wholly owned an additional
subsidiary, VTel Data Networks, Inc. (“DATA”).
DATA is a Delaware corporation, also headquartered
at 354 River Street in Springfield, Vermont. Stip. 3.
6. VNAT is a holding company that Dr. Guite
envisions as “a vehicle for exploring” investment
opportunities, VNAT has investigated several
investment opportunities, and did invest in “a startup in Israel, and in a venture fund based in Westport,
Connecticut.” PF pp. 6, 7.
7. In 2012 and 2013, Ms. Frances Stocker was
Chief Financial Officer, Vice President of Finance,
and Treasurer for VNAT and had check signing
authority for VNAT, Vtel, Wireless and DATA. Stip.
5, Tr. p. 7. Ms. Stocker works in the office at 354 River
Street, Springfield, Vermont. Tr. p. 19.
8
Taxpayer’s counsel introduced Vtel and
Wireless as ‘principally in the business of providing
telecommunication services, either cellular services
or land-line service to paying customers. Nearly all
their customer base, their subscribers, are here in
Vermont . . . [with] 50, or so, employees.” Tr. p. 10. A
company Website states “Wireless . . . is building a
network across Vermont” and “Vtel proudly serves
17,000 Vermont homes and businesses, offering
landline telephone . . . internet, and . . . television
over a recently upgraded optical fiber network” and
“We’re Vermonters serving Vermonters.” Ex. QQ.
9. Dr. Guite testified that Vtel initially
purchased 17,500 telephone lines in Southern
Vermont in the mid-1990s and currently “remains, a

43a
telecommunications business.” PF p. 3. When it
purchased those lines from GTE, Vtel also took over
the lease for the office at 354 River Street, Springfield,
Vermont (“the Springfield office”), and “have used
that location since.’’
PF p. 4.
Vtel provides
telecommunications service to customers in Vermont
and a small number of customers in New Hampshire,
New York and Canada. Id.
10. Wireless began testing services in 2013 and
started billing customers in 2014. PF p. 5. It provides
cellular or wireless telecommunications services to
customers in Vermont and a small number of
customers in New Hampshire and New York. Id.
Wireless describes itself as a “Springfield, Vermontbased wireless communications company” serving
“rural villages across Vermont.” Ex. QQ.
11. VNAT’s 2012 and 2013 corporate annual
reports, filed with the Vermont Secretary of State in
2013 and 2014, report VNAT’s principal office address
as the Greenwich, Connecticut, home office of Dr.
Guite (see Finding of Fact 38, below), and VNAT’s
mailing address as the Springfield office. Ex. A, A2.
The 2012 report shows the Greenwich address for all
directors and officers, except shows the Springfield
office address for Ms. Stocker; the 2013 report shows
the Greenwich address for all, except shows the
Springfield office address for Ms. Stocker and Diane
and Sophie Guite. Id.
12. Vtel’s and Wireless’ 2012 and 2013 corporate
annual reports, filed with the Vermont Secretary of
State in 2013 and 2014, show the principal office and
mailing address as the Springfield office, and show
the Springfield office address for all directors and
officers. Ex. C2, C3, E2, E3.

44a
13. The VNAT and Wireless Vermont corporate
annual reports for 2012 and 2013 show Dawn Tucker
as the accountant for VNAT and Wireless.
FCC licenses: acquisition and sale
14. In 2003, Vtel purchased, through the Federal
Communications Commission (“FCC”) Auction 49,
two FCC licenses (“the Licenses’’) for broadcast in the
Lower 700 MHz electromagnetic spectrum. License
WPZW674 was a license for a geographic area
designated by the FCC to include Albany, Troy,
Schenectady, Amsterdam and Saratoga Springs in
New York, State, purchased for $934,150. License
WPZW676 was a license for a geographic area
designated by the FCC to include Glens Falls,
Whitehall and Fort Ann in New York State,
purchased for $55,250. Stip. 24, 26, 27.
15. Dr. Guite testified that the two FCC Licenses
were acquired “solely for investment purposes” and
were not “in any way essential to the core business
activity engaged in by VNAT, Vtel or Wireless in
2003.” PF p. 13.
16. In 2010, Vtel transferred the Albany License
to VNAT, and in 2011 transferred the Glens Falls
License to Wireless “through VNAT.” Stip. 28, 29.
17. The business sought and was granted FCC
authorization to “carve out” a smaller, separate
license from the Glens Falls License, to cover
telecommunications
service
by
Wireless
to
approximately 1700 customers in the Hebron, New
York area. SW, p. 4.
18. In 2013, VNAT sold the Albany License for
$21,302,341, and Wireless sold the non-Hebron Glens
Falls License for $3,047,659, to AT&T Mobility
Spectrum LLC (“AT&T”). Stip. 30.

45a
19. All communications to and from the FCC in
evidence show the business address for VNAT, Vtel,
and Wireless, and the address for Dr. Guite as
Chairman and President, as the Springfield office.
Ex. UU, VV, WW, YY, PPP.
20. Dr. Guite testified that after the 2013 sales to
AT&T, his company operated under the retained
Hebron portion of the FCC License to provide services
to the Hebron area. When asked if his company has
a tower that reaches into Hebron, he responded, “Yes,
I am not sure whether . that tower is in New York or
Vermont.” SW p. 5.
2015 Department audit
21. In 2015, the Department began an audit of
VNAT and its subsidiaries for the period January 1,
2012 through December 31, 2014, including corporate
income tax for tax years 2012, 2013, and 2014. Stip.
6, Ex. H. The Department letter scheduling the audit
date and time was sent to the taxpayer at the
Springfield office. Ex. H.
22. The Department’s Field Auditor conducted a
“full audit,” and reviewed sales tax, telephone tax,
corporate income tax, and other tax records. Tr. p. 20.
She conducted the audit at the Springfield office. Tr.
p. 19. There, she performed “on-site review of invoices
of purchases of either fixed assets or expenses,” as
well as sales records, financial statements,
withholding tax filings, W2s and W3s, filed tax
returns, and supporting work papers. Tr. p. 20, 29.
Ms. Stocker, in the Springfield office, was the
Auditor’s primary contact for the audit. Tr. p. 19. Ms.
Stocker was shown as the main contact and as the
primary signatory on the returns that the Auditor
reviewed. Id. Taxpayer’s CPA, Michel Caouette of

46a
Berry Dunn McNeil & Parker, LLC, in Portland,
Maine, prepared all of the Federal and state corporate
income tax returns for 2012 and 2013, and provided
the Auditor with records for “the corporate side of the
audit.” Tr. p. 19, Stip. 9, Ex. L, 12.
Corporate tax returns filed in 2012 and 2013
23. All of the Federal and state corporate income
tax returns in evidence, including for tax years 2012
and 2013, reported all corporations’ mailing address
as the Springfield office address. Ex. K - Q2.
24. Vermont Corporate Estimated Tax Payment
Vouchers for VNAT are included in Exhibit G.
Payment for these quarterly Vouchers are paid by
2012 and 2013 checks printed with the account name
of “Vermont Telephone Company, Inc.,” that is, Vtel.
The checks are drawn on the People’s United Bank
and People’s United Bank of Burlington, Vermont,
and are signed by Frances Stocker. Ex. G.
25. For tax years 2012 and 2013, VNAT and its
subsidiaries filed as a consolidated group for Federal
corporate income tax, and as a unitary combined
group for Vermont corporate income tax. Stip. 10.
26. The group reported on its 2013 Federal
corporate income tax return a capital gain of
$20,944,250 from sale of the Albany License and
$3,026,480 from the Glens Falls License, a total gain
of $23,970,730. Stip. 31.
27. The group reported gain from sale of the
Licenses on its 2013 Vermont combined return as
$23,751,913 “everywhere” nonbusiness income,
allocated entirely to a non-Vermont source. Ex. L2.
28. Although Dr. Guite testified that the Licenses
were purchased as an investment and not for business
use, he testified that after purchase of the Licenses,

47a
his companies depreciated (amortized) them for
Federal tax purposes. SW p. 6. The 2013 Federal and
Vermont returns in Exhibits K2 and L2 show the
2013 amortization deduction of $976,033 for the
Licenses. Id.
29. For tax years 2012 and 2013, VNAT and all
subsidiaries filed a Massachusetts combined
corporate income tax return; VNAT and Vtel filed a
Michigan unitary combined return; Vtel filed a New
Hampshire stand-alone business tax return; and Vtel
filed a New York stand-alone corporate franchise tax
return, and in 2013 also filed a New York City standalone corporate return. Stip. 11-18.
30. On the 2012 and 2013 Massachusetts
combined returns, Vtel reports on Schedule F the
Springfield office as the “VT Headquarters” which
“accepts orders,” and the Greenwich office in
Connecticut as a “Homeoffice” which does not accept
orders. Ex. M2.
31. The 2013 New York corporate return for Vtel
reports Dr. Guite as a greater-than-five- percent
owner, and reports his address as the Springfield
office. Ex. S. 32.
32. For tax year 2012, Vtel filed a Connecticut
stand-alone corporate business tax return. Ex. O. For
tax year 2013, VNAT and Vtel filed a Connecticut
combined corporate business tax return, with VNAT
indicating on the return that 2013 was its “initial”
Connecticut return. Ex. P.
33. The 2012 Connecticut return shows the
corporate mailing address for Vtel as the Springfield
office, and the 2013 Connecticut return shows the
mailing address for VNAT and Vtel as the Springfield
office. Ex. O, P. On both Connecticut returns, to the

48a
question “Is the principal place of business located in
CT?” the answer entered is “No,” and the “principal
place of business” is entered as “ Vermont.” Id. The
2012 return lists the corporate officers as Michel
Guite, Norman Koch, Justin Robinson and Frances
Stocker, and for all four, reports the address as
“Springfield, VT.” Ex. O. There is no list of corporate
officers included in the 2013 return pages in evidence.
Ex. P.
34. All 2012 and 2013 corporate income tax
returns in evidence for Federal tax, and for all states,
report the business address as the Springfield office
for VNAT, Vtel, Wireless, DATA, and FWF. Ex. G. K,
K2, L, L2, M, M2, N, N2, 0, P, Q, Q2, R, R2, S.
2012 and 2013 Vermont tax returns for other than
income taxes
35. Exhibit G contains various records and
returns for Vermont taxes other than income tax, and
shows the following:
- In 2012 and 2013, VNAT filed Vermont
sales and use tax returns and payroll withholding tax
returns.
- All non-income tax returns in evidence
report the business address as the Springfield office.
- Frances Stocker signed the returns and
signed the 2012 and 2013 VNAT corporate checks for
payment of these taxes. The checks were drawn on
the People’s United Bank, and the October 24, 2013,
check shows the location of People’s as Burlington,
Vermont.
- On
a
2012
Vermont
Employer’s
Reconciliation Return, Vtel reported 57 employees
and total wages in the quarter of $614,027.

49a
- On
a
2013
Vermont
Employer’s
Reconciliation Return, Vtel reported 59 employees
and total wages in the quarter of $754,766.
- Both Employer Reconciliations were signed
by Frances Stocker and by Dawn Tucker,
“Accountant.” The 2013 Reconciliation shows the
Springfield office address with “ATTN: D Tucker.”
- Wireless filed a 2013 Vermont electronic
funds transfer form for sales and use tax, signed by
Frances Stocker in June, 2013, and showing the
Springfield office address. Ex. G.
Certain wages of Dr. Guite omitted from Vermont
wage numerator on unitary returns
36. The
Auditor
questioned
the
wage
apportionment in the Vermont 2012 and 2013
corporate returns because the returns showed
Vermont “sales and property factors were 94 and 87
percent, respectively” and “yet wages were only at 30”
percent for Vermont. Tr. p. 23, Stip. 20 - 22.
37. The Auditor questioned the CPA about this
Vermont wage apportionment. He responded that Dr.
Guite often works from his home office in Connecticut,
and that when he works in Connecticut, the business
considers his wages Connecticut wages, and when he
works in Vermont, considers his wages Vermont
wages. Tr. p. 24.
38. Dr. Guite owns a residence at 47 Glenville
Road in Greenwich, Connecticut. He has an office in
his Glenville Road residence, and that office is owned
by Dr. Guite. SW p. 6. “VNAT’s records, including its
tax returns, are generally stored electronically and
therefore accessible from my [Dr. Guite’s] computer in
[his] Greenwich [home] office.” PF pp. 7-8; SWP p. 6.
Dr. Guite’s home office

50a
. . . has telephone and internet service, a
desk overlooking a garden, is about 60’ x 30’, in
a post and beam format, with a conference
section in front of a fireplace. It was designed
as a place to think, to review documents, store
confidential documents, host business guests in
a warm and inviting setting, and to walk
around during conference calls.
PF p. 7. Dr. Guite also has a space in the Springfield
office, “an open desk, in the business office.” PF p. 8.
39. Dr. Guite testified that VNAT board of
directors’ meetings “are typically held” in his home
office on Glenville road, but that “When Walter
Hewlett served on the Board of Directors, we would
also have Directors’ meetings at locations that were
convenient for him. With my daughters now on the
Board of Directors, we are holding more meetings via
telephone.” PF p. 7. Walter Hewlett was on the
VNAT Board “until approximately 2013.” PF p. 6. Dr.
Guite’s daughters, Diane and Sophie, joined the
VNAT Board in 2013. Ex. A, A2.
40. Dr. Guite is “responsible for making the
ultimate decisions [for VNAT], although I consult
with others, including my daughters, Diane and
Sophie Guite,” who are “now on the Board of
Directors.” Id. He typically makes those high-level
decisions in Greenwich, Connecticut. Id.
41. Dr. Guite made the decisions on how to bid for
the FCC licenses and testified, “As I recall, I made the
majority of my bidding decisions from the office in
Greenwich.” PF p. 13. He then “directed those
decisions to an employee in Springfield, Vermont, who
actually executed the bids.” Id. Dr. Guite “was in

51a
Barcelona, Spain” at the time he made the decision to
sell the FCC licenses to AT&T. PF p. 20.
42. After the CPA explained to the Auditor that
the business had apportioned some of Dr. Guite’s
wages to Connecticut, the Auditor responded to the
CPA that regardless of how the wages might be
treated for Dr. Guite’s personal income tax purposes,
they were Vermont wages for corporate income tax
purposes. Tr. p. 24, Ex. U. The Auditor sought
internal guidance from the Department, and was
instructed to adjust the apportionment of wages to
100 percent for Vermont. Tr. pp. 24-25. The Auditor
notified the CPA of her adjustment. Tr. p. 25, Ex. V.
She received no further response from the CPA about
the wage issue. Tr. p. 25.
43. In Vtel’s 2012 stand-alone Connecticut
return, in Statement 7 to Form CT-1120A, Vtel
reported Connecticut “compensation of officers” as “0”
out of a total of officer compensation “everywhere” of
$3,133,642. Vtel also reported on Schedule F no
Connecticut deduction taken for payroll. (Though
Vtel reported non-officer Connecticut compensation,
shown as “cost of operations,” of $1,034,709, out of a
total “everywhere” other compensation of $2,037,559.)
Ex. O. The sum of the Connecticut officer-plus-other
compensation is $1,034,709, and this equals 20
percent of its total everywhere compensation reported
for 2012.
44. In
the
2013
combined
VNAT-Vtel
Connecticut return, Schedule R for VNAT and
Schedule R for Vtel each report nothing allocated to
Connecticut for wages and compensation in Column
A, and nothing to Connecticut for property or sales
gross receipts. Ex. P. On Schedule S, the minimumtax apportionment, VNAT reports no Connecticut

52a
intangible or tangible property, and Vtel reports
$5,747 Connecticut tangible property. Schedule F,
Line 1, both corporations report no 2013 Connecticut
deduction taken for “Payroll.” Id.
45. VNAT reported no Connecticut receipts,
wages or property in 2012 or 2013. Wireless did not
report to Connecticut in 2012 or 2013.
46. There is no evidence in the record that Dr.
Guite worked in any state outside Connecticut and
Vermont in 2012 and 2013.
FCC licenses: Dr. Liopiros’ testimony
47. Dr. Liopiros testified about the Licenses and
about cellular telecommunications in general, Tr. pp.
39 - 172, SW pp. 1-2, a follows in Findings of Fact 48
through 56:
48. The Licenses were for broadcast use of the
700 MHz portion of the radio spectrum for
telecommunications operation in the Albany and
Glens Falls, New York, areas. These areas are
designated by the FCC as “Cellular Market Areas” or
CMAs. Tr. p. 93. As shown on the FCC map in
Taxpayer’s Exhibit CCC, the CMAs are made up of
MSAs (Metropolitan Statistical Areas) and RSAs
(Rural Service Areas). The two CMAs covered by the
Albany and Glens Falls Licenses are denoted on the
map as RSAs.
49. The radio spectrum is the communications
portion of the larger electromagnetic (“EM”)
spectrum. Different portions of the EM spectrum
propagate different wavelengths, that travel through
the atmosphere and through matter differently. The
EM spectrum is divided into various areas such as
“UV,” “X-rays,” “gamma rays” and other designations.
The “mobile spectrum” is the area of the spectrum

53a
best
for
mobile
communications,
meaning
transmission by cell phone or from car or plane
transmissions, etc.
The mobile spectrum is
considered a finite resource and is regulated by the
FCC.
50. Cell phones work by transmitting EM
radiation at a designated frequency to a base station,
which is the cell tower and its related equipment and
power supply. Cell towers may be connected by
telephone lines or fiber optic lines.
The
communication of a cell phone to a cell tower is
wireless. The relay of the signal between cell towers
may be through the physical lines (“land lines”) when
practical, or where land lines are impractical, by
microwave relay from the cell tower to a mobileswitching office. Base stations, land lines, fiber optic
lines, and equipment for microwave relay and
switching are infrastructure required for operation of
a cellular communications business.
51. A cellular telecommunication signal may be
overwhelmed by other, unwanted, signals, such as
radio waves or engine “noise” or cellular signals from
another operator, that “interfere” with the cellular
telecommunication signal. To avoid interference
among operators, the FCC regulates communications
by licensing specifically-assigned spectrum use, in a
specifically-assigned geographic area, to each FCC
license holder. An FCC license limits the holder to
use of the specified band width portion of the
spectrum, to broadcast in the specific geographic area,
for the specified number of years.
The FCC
determines the geographical areas for licenses.
52. An FCC license holder may enforce its right
to interference-free operation, and exclude others

54a
from operating in the holder’s licensed geographic or
spectrum area, by means of a complaint to the FCC.
53. An FCC license is purchased by bidding in an
FCC license auction. A license imposes performance
requirements on the holder.
Performance
requirements may include a “build-out” requirement,
under which the license holder must agree to obtain
or create the infrastructure necessary to provide some
level of service in the licensed area. The two Licenses
at issue here required build-out only by the date that
the Licenses expired in 2019. Ex. WW. In effect, this
meant the Licenses had no build-out requirements.
54. The FCC originally licensed the 700 MHz
portion of the spectrum for television broadcast.
Then, in the 1980s, the Federal Government decided
to move television broadcasting to a lower portion of
the spectrum, and to auction the use of the 700MHz
portion
of
the
spectrum
for
mobile
telecommunications. At the time of the 2003 FCC
Auction 49, many television channels were still using
the 700 MHz portion of the spectrum. Television
broadcasting at 700 MHz would interfere with mobile
telecommunications at 700 MHz. It was at that time
unclear when television operators might cease such
operation. Due to this uncertainty, there were very
few mobile telecommunications providers willing to
buy a license for 700 MHz. Due to the few mobile
telecommunications licensees, there was little market
for the kind of cell phones and operating equipment
needed for mobile telecommunications at 700 MHz.
Since there was little market, such equipment was
not being manufactured widely. The lack of available
necessary equipment, and the uncertainty about
when television operation at 700 MHz would cease,
affected the prices people were willing to pay for the

55a
licenses in Auction 49. Dr. Liopiros opined that these
uncertainties were also likely the reason why the FCC
had no real build-out requirements for the Licenses
Taxpayer purchased in 2003. He also opined that the
uncertainties were the reason large companies such
as AT&T, Sprint and T-Mobile did not participate in
Auction 49.
55. Build-out might be more expensive in some
license areas than others, depending on whether the
terrain is flat or mountainous, open or dense with
buildings, where construction and permitting might
be more costly, whether the topography might require
more cell towers, etc. The potential market for mobile
telecommunications might be more lucrative in a
more-populated and more-travelled area or higherwealth area where the populace would pay more for
services, and could be less lucrative in other areas.
Dr. Liopiros opined that he would consider all these
factors when advising a client on how much to pay for
a particular FCC license.
56. Dr. Liopiros testified that at the time of FCC
Auction 49 “in 2003 . . . not only was equipment not
available [for telecommunication at 700 MHz], but the
equipment standards had not been developed at this
point either.” SW p. 3.
57. An
FCC
Fact
Sheet,
https://transition.fcc.gov./eb/factsheet/sec310d.html,
summarizing licensee obligations under the Federal
Communications Act, is Exhibit XX.
58. Taxpayer states in its memorandum that the
FCC’s CMAs “do not overlap state lines.” TP Memo
p. 12. The FCC map in Exhibit CCC is difficult to
read, but appears to shows several CMAs that overlap
state lines, such as #65 overlapping Nebraska and

56a
Iowa, #85 overlapping Tennessee and Kentucky, #11
overlapping Missouri and Illinois, #6 overlapping
New Hampshire and Massachusetts, and #156
overlapping Maine and New Hampshire.
Objections
a. The Department objected on grounds of
irrelevance to cross-examination of the Auditor about
other audits she had performed. The objection was
upheld because other audits are irrelevant to this
appeal. In addition, the cross-examination was
beyond the bounds of the testimony on direct.
Tr.·p. 29.
b. The Department objected on grounds of
irrelevance to Exhibit FFF, a map of FCC license
areas other than the area at issue here. The Hearing
Officer took the objection under consideration and
now admits FFF simply to illustrate that other areas
were covered by FCC licenses. Tr. pp. 134-136.
c. The Department objected on grounds of
irrelevance to Exhibit HHH, a summary of census
data and household population for Maine. The
Hearing Officer noted the objection for the record and
admitted HHH as showing that this census data for
various areas is available. Tr. pp.146-147.
Discussion and Conclusions of Law
I. Allocation of gain from sale of two FCC licenses General
A. Vermont allocation of nonbusiness income
Vermont’s corporate tax law provides that the
income of a corporation doing business in multiple
states must be allocated and apportioned among the
states. 32 V.S.A. § 5833.

57a
VNAT and its wholly-owned subsidiaries are an
“affiliated group,” which is “a group of two or more
corporations in which more than 50 percent of the
voting stock of each member corporation is directly or
indirectly owned by a common owner or owners.” 32
V.S.A.§ 5811(22). The parties do not dispute that
VNAT and its subsidiaries are engaged in a “unitary
business” in which “there exists a unity of ownership,
operaton, and use, or an interdependence in their
functions.” See 32 V.S.A. § 5811(23). The “Vermont
net income” of a unitary affiliated group is the
“allocable share of the combined net income of the
group.” 32 V.S.A. § 5811(18)(C). As evidenced by
their various state income tax returns for 2012 and
2013, VNAT and its subsidiaries did business both
within and outside Vermont, and the income of such
a multistate group must be allocated and apportioned
under Section 5833.
The Department has formally adopted regulations
governing allocation and apportionment of multistate
corporate income. These regulations are prima facie
evidence of the proper interpretation of Section 5833
and have the force of law. 3 V.S.A. § 845(a).
Under the Department’s regulations, “business
income” of a multistate corporation is apportioned
among the states. “Nonbusiness income” is allocated
to the state where the income-producing asset is
located or, if the asset has no situs, to the
corporation’s state of “commercial domicile”:
Reg.
§ 1.5833
ALLOCATION
AND
APPORTIONMENT OF INCOME
***
(d) Sales and Receipts Factor
***

58a
(5) . . . Business receipts include all
income arising from transactions and activity
in the regular course of the taxpayer’s trade or
business and includes income from tangible or
intangible property if the acquisition,
management and disposition of the property
constitute integral parts of the taxpayer’s
regular trade or business operations. ·
(6) Nonbusiness Receipts Nonbusiness
receipts are all receipts other than business
receipts resulting from operations unrelated to
its regular business operations.
Typically
nonbusiness receipts are comprised of passive
or portfolio income. Income from dividends,
interest and capital gains will be considered
nonbusiness income unless the acquisition,
management, and disposition of the underlying
property generating the income constitute an
integral part of the taxpayer’s regular business
operations.
(e) Nonbusiness income will be allocated to
the state in which the income producing assets
are located. If the income producing asset has
no situs, the income will be allocated to the
state of commercial domicile, the principle [sic]
place from which the business is directed or
managed.
Vermont Department of Taxes Regulations (Effective
for tax years beginning on and after January 1, 1998)
(“Reg.”) § 1.5833-l(d)(S) and (6), (e).
The capital gain from the 2013, sale of the
Licenses was nonbusiness income. First, under
Regulation (d)(5), the capital gain was not business
income because the sale transaction did not “arise

59a
from transactions and activity in the regular course of
the taxpayer’s trade or business.” Taxpayer’s regular
trade or business was not the sale of FCC licenses.
Second, under that Regulation, the capital gain was
not income from intangible property whose
“acquisition,
management,
and
disposition”
constituted “integral parts of the taxpayer’s regular
business operations.” Taxpayer acquired the Licenses
as an investment, at a time when the Licenses could
not easily be used for cellular telephone operations;
Taxpayer managed the Licenses as a passive
investment and not as active broadcasting licenses;
and Taxpayer was not in the business of selling
Next, under
(“disposition of’) FCC licenses.1
Regulation (d)(6), the capital gain was nonbusiness
income because the sale was “unrelated to Taxpayer’s
regular business operations,” and the Licenses did not
function (“acquisition, management, and disposition”)
as “an integral part of the taxpayer’s regular business
1

Taxpayer took amortization deductions for the Licenses
on its corporate income tax returns over a period of years.
Federal tax law, which governs the starting point of a
corporation’s Vermont net income, 32 V.S.A.§ 5811(18), allows
amortization of “any license, permit, or other right granted by a
governmental unit or an agency or instrumentality thereof,” only
if it is “held in connection with the conduct of a trade or
business.” 26 U.S.C. § 197(a), (c)(l)(B), (d)(l)(D). A holding
company which acquires and holds an FCC license but does not
use it in an active trade or business is not entitled to
amortization deductions for the license under Section 197. Broz
v. C.I.R., 137 T.C. 46, 68-69 (2011). VNAT, Wireless and Vtel
never used the Licenses in active conduct of trade or business.
Therefore, the amortization deductions were taken in error,
though there is no assessment for disallowance of these
deductions at issue in this appeal. The reduced bases were
apparently used to calculate the capital gains assessment.

60a
operations.” Since none of the tests for business
income are met, the capital gain is nonbusiness
income that must be allocated, not apportioned.2
B. Statement of the question regarding License
capital gain
The question regarding capital gain income from
the 2013 sale of the Licenses is whether, under the
Regulation, Taxpayer’s nonbusiness income will be
“allocated to the state in which the income producing
2

The original Uniform Division of Income for Tax
Purposes Act (UDITPA) contained model language for states’
allocation and apportionment statutes and regulations. Its test
or tests for business income contained the same phrases
“transactions in the regular course of trade or business” and
“acquisition, management, and disposition.” Some states which
adopted UDITPA view the phrases as two separate tests; some
view the phrases as a single test; and some have, by legislation
or judicial gloss, changed the second phrase to, or interpreted it
as, “acquisition, management, or disposition. See generally
Construction and Application of Uniform Division of Income for
Tax Purposes Act (UDITPA) - Determination of Business
Income, 74 A.L.R.6th 1 (Originally published in 2012).
Vermont has never adopted UDITPA, though some of its
language is quite similar. Vermont courts have not ruled on
whether “and” in the, Vermont regulation should be read as “or.”
The plain language of Vermont’s regulation uses the word “and,”
not “or.” Based on the plain language, all three actions—
acquisition , management and disposition of the property—must
be integral parts of the taxpayer’s business operations in order
for the income to be “business income.”· Cf. Appeal of Chief
Indus., Inc., 255 Kan. 640, 651, 875 P.2d 278, 286 (1994)
(Regarding similar Kansas statute at the time, “The drafters’ use
of the conjunction ‘and’ clearly indicates that the disposition, as
well as the acquisition and management of property must be an
integral part of the taxpayer’s regular trade or business
operations in order to produce business earnings.”). The “and/or”
issue is moot here, because in Taxpayer’s case, none of the three
actions were integral to its business operations.

61a
assets were located” or “the income producing assets
had no situs [and] the income will be allocated to the
state of commercial domicile.”
Taxpayer asserts that the Licenses were “located”
in New York and the capital gain should be allocated
to New York. The Department asserts that the
Licenses “had no situs” and the gain should be
allocated to Taxpayer’s commercial domicile.
C. Location of an asset; nexus
Situs or location of an asset is significant because
it can provide a state with sufficient connection to tax
the asset or income from the asset. A state has
authority to impose a tax upon persons, property and
transactions with which it has some definite link or
minimum connection:
[D]ue process requires some definite link,
some minimum connection, between a state
and the person, property or transaction it seeks
to tax.
Miller Bros. Co. v. State of Md., 347 U.S. 340, 344–45
(1954).
A state’s authority to tax arises out of the benefits
and protections the state provides to the object of
taxation. ASARCO Inc. v. Idaho State Tax Comm’n,
458 U.S. 307, 315 (1982) (“The simple but controlling
question is whether the state has given anything for
which it can ask return.”).
States have the power to tax residents on their
income from whatever source derived, and the
required links are the privileges of residence and
enjoyment of the protection of the state’s laws:
That the receipt of income by a resident . . .
is a taxable event is universally recognized.
Domicil itself affords a basis for such taxation.

62a
Enjoyment of the privileges of residence in the
state and the attendant right to invoke the
protection of its laws are inseparable from
responsibility for sharing the costs of
government. ‘Taxes are what we pay for
civilized society.’
People of State of New York ex rel. Cohn. v. Graves,
300 U.S. 308, 312–13 (1937).
States have the power to tax tangible property
located in the state for the same reason - because, in
essence, the tangible property “resides” in the state,
enjoying the privileges and protections which “afford
a basis for taxation.”
Intangibles, however, have no physical “location.”
Because they are “sources of actual or potential
wealth” which “cannot be dissociated from their
owner,” they are generally taxable by the owner’s
state of domicile:
The power of government over [intangibles]
and the protection which it gives them cannot
be exerted through control of a physical thing.
They can be made effective only through control
over and protection afforded to those persons
whose relationships are the origin of the rights.
Curry v. McCanless, 307 U.S. 357,367 (1939).
A state other than the owner’s domicile may,
however, obtain taxing jurisdiction over an intangible
or the income from it if the owner engages in activities
related to the intangible and those activities are
subject to the taxing state’s governmental protections
and benefits. In that case, the host state may tax
income from the intangible,·
. . . when the taxpayer extends his activities
with respect to his intangibles, so as to avail

63a
himself of the protection and benefit of the laws
of another state, in such a way as to bring his
person or property within the reach of the tax
gatherer there . . . [because] taxation is but a
means of distributing the cost of government
among those who are subject to its control and
who enjoy the protection of its laws . . . .
Id. at 367, 370.
When a taxpayer engages, in a nondomiciliary
state, in business activities using its intangible
property, that host state’s link, and authority to tax,
derive from the benefits and protections afforded to
the business activity, and this link is sometimes
referred to as the “business situs” of the intangible.
Mobil Oil Corp. v. Comm’r of Taxes of Vermont, 445
U.S. 425,445 (1980).
Taxpayer here never used the Licenses in any
business activity. Taxpayer asserts, however, that
the Licenses have a New York situs that is unrelated
to whether New York provided benefits and
protections to the Licenses or their use, and states:
While the power to tax is often framed as a
quid pro quo relationship between the state and
the party that the state seeks to tax . . . even if
it were true that New York has not “given
anything for which it can ask return,” that
determination does not mean that the New
York Licenses lack New York situs. For
example, states have no power to tax property
owned by the federal government and in many
instances lack jurisdiction over the activities
that occur on that property, such as a military
installation. Obviously, the absence of taxing

64a
power and jurisdiction does not mean that such
property lacks situs.
Taxpayer’s Memorandum of February 27, 2018 (TP
Memo) p. 27-28. A military installation is, however,
likely not located in a state, because it is likely on
Federal land or a Federal enclave, so this is not a clear
example of something located in a state which the
state may not tax. See, e.g., U.S. Const. art. 1, § 8, cl.
17; art. 6, § 2. Taxpayer’s example is also of property
tax on tangible property, not income tax on gain from
sale of an intangible, and the example does not
explain how an intangible may acquire situs in a state
other than by some connection to the state’s benefits
and protections.
Taxpayer does offer a number of theories in
support of its assertion that the Licenses had a New
York location, and these will be considered here:
II. Taxpayer theories of New York situs
A. Geographic, topographic, demographic factors
Taxpayer asserts that the Licenses were located in
New York “because they convey benefits that can only
be exercised in New York and because their value is
inextricably bound to a host of geographic-specific
factors in New York.” TP Memo p. 15. Taxpayer
describes these factors as the number and incomelevel of residents and commuters in the New York
area, which indicates potential License revenue; the
existence of roads needed for, and the cost of, building
telecommunications infrastructure; the terrain,
which can interfere with electromagnetic signals and
thus increase the cost of infrastructure; the existence
of “exclusion zones” such as military bases, which
diminish the number of potential customers and
revenue; and state and local regulations which can

65a
affect the cost and difficulty of developing
infrastructure. TP Memo pp. 7-8. Based on these
factors, Taxpayer’s witness testified that the Albany
FCC License would be worth more than a license for
far northern Maine.
From the testimony of Dr. Liopiros, however, it
appeared that the greatest factor in determining the
value of the Licenses may have been the
unavailability (and later availability) of the 700 MHz
portion of the spectrum for mobile phone service, a
factor which was under sole control of the FCC, not
New York.
In any case, the New York factors which Taxpayer
recites are all factors which may affect the unknown,
but potential, future cost of acquiring infrastructure
and future income in the event the Licenses are used
in New York business and, on that basis, may affect
the price someone is willing to pay for the license. By
themselves, these factors did not locate the Licenses
on New York terrain.
The fact that Taxpayer’s Licenses were for
broadcast within areas of New York State had
nothing to do with New York State real property. The
Albany and Glens Falls “Cellular Market Areas” and
“Rural Service Areas” were simply market areas
drawn on the map by the FCC. Folden v. United
States, 379 F.3d 1344, 1347 (Fed. Cir. 2004) (“To
facilitate the allocation of cellular licenses, the
Commission divided the United States into two
geographic markets—metropolitan statistical areas
(MSAs) and rural service areas (RSAs).”). The FCCdrawn RSAs did not-mean the Licenses themselves
were located in New York.

66a
Since Taxpayer never charged or collected
broadcast contract fees from New York residents for
broadcast services, and never engaged in any
“activities with respect to his intangibles so as to avail
himself of the protection and benefit of the laws of’’ in
New York, there was also nothing to create a tax situs
in that state.
B. Whitney case
In support of its assertion of New York situs,
Taxpayer cites the case of New York ex rel. Whitney
v. Graves, 299 U.S. 366 (1937). Whitney is inapposite,
however, because, as the Court itself stated, it dealt
with business income, not nonbusiness income, and
because the intangible involved a right in identified,
tangible, New York real estate.
The
Whitney
Court
addressed
the
Constitutionality of a New York income tax on a
Massachusetts domiciliary taxpayer. New York taxed
his capital gain from the sale of an interest in a
membership in the New York Stock Exchange
(NYSE). The Court upheld New York’s right to tax
because the “peculiar nature” of the membership
“embraces . . . a valuable right of property.” Id. at
372. That right of property peculiar to a NYSE
membership was the right of “buying and selling
securities on the floor of the Exchange”:
Wherever the owner may reside he must go
to the Exchange to exercise his privilege to
trade upon its floor. If he prefers to have his
customers’ orders executed through other
members, still they must execute these orders
on the Exchange . . . .
Id. at 373.

67a
The Massachusetts resident held a full
membership in the NYSE and each full member was
granted an additional one-fourth interest in a
membership. The taxpayer sold that one-fourth
interest. The taxpayer had no office or abode in New
York and had never traded on the floor of the NYSE,
but accepted orders at his Boston office for execution
by other members on the floor of the NYSE. When
New York taxed him on the gain from the sale, he
appealed, asserting that the NYSE membership was
intangible and had no “business situs” in New York,
and therefore the gain was taxable only by taxpayer’s
domicile, Massachusetts.
The Court focused on the fact that the NYSE
owned a building in New York City and that members
or their representatives had to go to that building, the
only place where they could buy or sell stocks:
[T]he New York Stock Exchange . . . owns
the building in which the business of the
Exchange is transacted, with the land upon
which it stands, situated in the city of New
York; . . . a member may personally buy or sell
only in the Exchange building;
. . . and [a member’s] rights and privileges
are valuable and are exercisable only in
transactions conducted at the Exchange
building in the city of New York.
Id. at 370–71. The Court concluded:
[T]he dominant attribute of membership in
the New York Stock Exchange so links it to the
situs of the Exchange as to localize it at that
place and bring it within the taxing power of
New York.”

68a
Id. at 374. In contrast, Taxpayer’s Licenses were not
linked to any existing building or structure in New
York.
The fact that Taxpayer could have obtained New
York infrastructure does not mean that the FCC
Licenses “embraced . . . a valuable right of property”
in a potential future acquisition of real property. Nor
can it be said that the Licenses created a right in
electromagnetic waves located in New York. Radio
Common Carriers of New York, Inc. v. State, 601
N.Y.S.2d 513, 515-516 (N.Y. Supreme Ct. 1993)
(‘‘[D]ue to the nature of radio waves, the signals
cannot be stopped at state borders . . .
The
‘substantial nexus’ component of the test [for sales tax
nexus] will not be satisfied merely because electronic
signals pass through a state . . . .”). It is not even clear
that a licensee would have to go to an FCC-designated
license area to broadcast using a license, because Dr.
Guite testified that his business was serving Hebron,
New York, telecommunications customers from his
company’s cell tower, and he was “not sure whether
that tower is in New York or Vermont.”
The Whitney Court cited favorably an earlier case
in which the Supreme Court held that a Minnesota
county could impose a personal-property tax on a
nondomiciliary who owned a membership in the
Minneapolis Chamber of Commerce.
Rogers v.
Hennepin Cty., 240 U.S. 184 (1916). Rogers is also
inapposite because it, too, concerned business income
(“[A]pplying a principle . . . with respect to . . .
nonresidents arising from business within the state
. . . that it was competent for the state to fix the situs
of the memberships for the purpose of taxation . . . at
the place within the state where the exchange was
located.”). Id. at 191 (italics added). In Rogers, the

69a
Chamber of Commerce owned a grain exchange
building where members could execute trades. The
Court based its holding on the fact that the Chamber
owned the Exchange building and that the
membership allowed access to the building to engage
in grain trades which could only be transacted in that
building:
[The] Chamber of Commerce . . . furnished
buildings and equipment for its members, who,
under its rules, transacted business with each
other (for themselves and their customers)
upon the trading floor which was in fact a grain
exchange . . . .
Id. at 185.3 The Court found the membership was
inextricably tied to the real property, the only place
3

The Whitney Court also cited People ex rel. Lemmon v.
Feitner, 60 N.E. 265 (NY 1901), but only cited Lemmon for its
description of a NYSE membership, because “the state courts
have not aided us by a discussion or analysis of the nature of the
[NYSE membership] right involved or the grounds for the
assertion of the authority to lay the tax.” Whitney at 370.
Lemmon addressed taxation of a nonresident’s business
income, though under two state statutes and not on
Constitutional grounds. The New York court there held that a
nonresident’s NYSE membership was not taxable because (l) the
New York business income statute only taxed a nonresident on
capital invested in a New York “business,” and the NYSE was
not a “business,” but only a place for transacting business; and
(2) the New York personal -property tax statute only taxed an
express list of taxable items (e.g., “chattels, money, things in
action, debts due [to or from residents]”) which did not include a
NYSE membership. Whitney at 370.
The Lemmon court described the NYSE membership’s “main
object [being] to afford its members the facility for the
transaction of business by providing them with a convenient
exchange or salesroom.” Lemmon at 266.

70a
where the membership could be exercised, and on that
basis, distinguished the membership from mere
“intangible rights”:
It is urged that the memberships are
intangible rights held by the member at his
domicil. But [the] memberships represented
rights and privileges which were exercised in
transactions at the exchange in the city of
Minneapolis . . . it was competent for the state
to fix the situs of the memberships for the
purpose of taxation, whether they were held by
residents or nonresidents, at the place within
the state where the exchange was located.
Id. at 191.
In both Whitney and Rogers a key to taxation was
the right to use an extant building in the taxing
jurisdiction. The memberships were not merely
intangible rights, but were of a “peculiar” nature
because they embraced rights in a physical building.
Use of the building in each case was a “dominant
attribute” that fixed the situs of the membership,
“localizing it” and “bringing it within the taxing
power” of the host states
An FCC license does not have the same “peculiar”
feature of the memberships in Whitney and Rogers.
Taxpayer’s Licenses did not “embrace rights” in an
extant New York building or structure. FCC licenses
do not convey a right in a building, or a right to build
or obtain future infrastructure.
The fact that
Taxpayer could potentially have acquired its own
infrastructure in New York is not analogous to saying
that an FCC license includes a right to use a building
owned by the FCC and made available to its licensees.

71a
There was no right in a building or structure in New
York that was an ‘‘attribute” of the Licenses.
C. Ownership to the exclusion of others
Taxpayer asserts that “Although it did not use the
FCC licenses to broadcast signals, the Taxpayer
certainly used its rights under the license[s] by
excluding
potential
competitors
in
the
telecommunications industry from using the portion
of the electromagnetic spectrum in New York State
prescribed in the FCC licenses.’’ Taxpayer’s SurReply Memorandum of March 20, 2018 (TP Memo2)
p. 10. While this may be true, it does not create any
link or nexus with New York, because New York’s
laws did not protect or benefit Taxpayer’s passive
investment ownership to the exclusion of others; the
FCC and Federal courts have exclusive jurisdiction
over licensing issues (see discussion below, at Section
F). Excluded would-be owners do not create state tax
nexus and do not locate the licenses in the would-be
owners’ state of residence. Moreover, Taxpayer’s
passive ownership was not only to the exclusion of
telecommunications providers located in New York,
but also to the exclusion of any other business- or
passive investors, anywhere in the world.
Passively owning an FCC license, without more,
creates no tax link or nexus to a nondomiciliary state.
This was the statement of the Oregon Tax Court in a
dictum. Crystal Communications, Inc. v. State Dep’t
of Revenue, State of Oregon, 19 Or. Tax 524 (2008), as
amended (Mar. 2, 2009); aff’d 353 Or. 300 (2013). In
Crystal, the Oregon court considered whether
nonresident shareholders of an S corporation that
held an FCC telecommunications license for the
Oregon #1 Rural Service Area were taxable in Oregon

72a
on the capital gain from sale of the FCC license. The
court found that the business “leased the land for each
of [two ‘cell sites’] . . . and owned the improvements on
the land [that] included the towers, antennae,
electronics and other equipment ordinarily used to
operate the cellular telephone system” and had its
sole employee in Oregon “to oversee the acquisition
and operation of Crystal’s cellular communication
system.” The court held that these activities “went
far beyond mere holding of an asset,” and
demonstrated that its FCC license was employed in a
business in Oregon, as required by the Oregon statute
for taxation of the gain from sale of the license. Id. at
529, 531.
In a dictum, the court considered the tax results of
nonresidents simply owning the license as a passive
investment, and concluded that the common law
principle would govern and the intangible license
would be located at its owner’s situs, even though the
license covered an Oregon service area:
[S]eparately existing intangible property
such as a patent, trademark, ownership
interest (such as stock), or contract right can be
used in a trade or business . . . However, in the
case of a patent, a license, a share of stock, or a
contract right, it is possible for a nonresident
individual to simply hold the intangible and not
“employ” it in a trade or business or any other
activity other than passive ownership. Where
employment of such an intangible in this state
has not occurred, neither income nor gain in
respect of the intangible is sourced to this state.
Rather, the principle of mobilia sequuntur
personam is applied to locate and tax the

73a
intangible, or income from it, at the situs of its
owner.
Id. at 537-538.
VNAT and its subsidiaries did “not employ the
FCC licenses in a trade or business or any other
activity other than passive ownership.” That passive
ownership, according to the Crystal court, was
insufficient to locate the intangible at the situs of the
FCC license area.
D. Timber, water, and mineral rights: air rights
Taxpayer asserts that an FCC license for “the use
of electromagnetic radiation” is like a license to use
“any other natural resource, such as timber, water,
and minerals” and concludes that the FCC-prescribed
geographic area of the New York RSAs “is where the
asset is located.” TP Memo p. 24.
Electromagnetic radiation differs from timber,
water and minerals because, unlike the last three,
radiation is not a “profit à prendre” - not a part of real
property which may be removed from the land:
A profit à prendre involves primarily a
power to acquire, by severance or removal from
another’s land . . . an integral part thereof [such
as] wood, herbage, or coal or other minerals . . .
game on another’s land, fish in waters thereon,
to take seaweed cast thereon, or soil, sand and
gravel [or] ice . . . .
§ 839. Nature and incidents of the right, 3 Tiffany
Real Prop. § 839 (3d ed.) (italics added).
Profits à prendre also involve a right to “enter on
the land” to take the allotted integral part. Id.
An FCC license is not analogous to timber, water
or mineral rights because it is not a right to an

74a
integral part of real property and involves no right to
enter on land to remove anything. There is thus no
land which might give it a “location.” The fact that
Taxpayer
could
potentially
have
acquired
telecommunications infrastructure or land in New
York - but did not - is not the same as holding a right
to enter onto and take an integral part of existing,
identified, real property.
Taxpayer also asserts that an FCC license is akin
to an air right. An air right is not a right to air, but
is a type of development right. Wing Ming Properties
(U.S.A.) Ltd. v. Mott Operating, 561 N.Y.S.2d 337,340
(1990), aff’d, 568 N.Y.S.2d 605 (1991), aff’d, 594
N.E.2d 921 (1992) (“[P]revalent custom and usage of
the term ‘air rights’ clearly manifest the acquisition of
air development rights.”); Friedberg v. C.I.R., 102
T.C.M. 356, fn. 11 (2011) (‘The concept of development
rights stems from restrictions on the use of “air
rights,” the rights to construct a building on top of the
owner’s land. Air rights are rooted in the bundle of
rights associated with land ownership.”); Conveyance
and Taxation of Air Rights, 64 Colum. L. Rev. 338
(1964) (Air rights “may be defined as the right to
occupy the space above a specified plane over, on, or
beneath a designated tract of land.”).
An FCC license is not analogous to air rights or
development rights because it does not grant a right
to build on or otherwise burden a designated tract of
land, and there is thus no related land which could
give it a location or make it subject to a state’s benefits
and protections.
E. In corporeal hereditaments
Taxpayer asserts that FCC licenses are like the
licenses in the case of Louisville and Jeffersonville

75a
Ferry Co., in that “a governmental license belongs to
a class of estates known as incorporeal hereditaments
and like real property must be localized to the
geographic area where such right may be exercised.”
TP Memo p. 22, citing Louisville and Jeffersonville
Ferry Co., 188 U.S. 385 (1903).
The case is inapposite. The governmental licenses
at issue were granted by the Governor and
Legislature of Indiana, granting rights to a Kentucky
ferry company to dock on Indiana shores of the Ohio
River. The Court held that Kentucky could not
impose a property tax on the Kentucky ferry boat
company’s Indiana shore rights, because the rights
were a “franchise derived from Indiana’’ for the
Indiana shore, and thus were “not within the
jurisdiction of Kentucky” for property taxation.
In Taxpayer’s case, its Licenses were granted by
the Federal government, not by the Governor or
Legislature of New York.
They were not an
“incorporeal hereditament” because they did not
grant any tight of entry upon a shore or other land in
New York. Black’s Law Dictionary, Eighth Edition,
defines “incorporeal hereditament” as “An intangible
right in land.” It was this incorporeal right in Indiana
land - the shore - which connected the right to
Indiana, and at the same time demonstrated no
taxable connection to Kentucky. The FCC Licenses
were not incorporeal rights in New York land.
F. Covenant not to compete
Taxpayer asserts that FCC licenses are akin·to a
covenant not to compete because both are intangibles
that have a location “where activity would have
occurred but for the right contained in the covenant.”
TP Memo2 pp. 14-15.
This is inaccurate.
A

76a
noncompete agreement is a direct prohibition on one
contract party; an FCC license grants one party the
right to broadcast, and nonparties are prohibited only
in the same way anyone not a party to a contract has
no rights under the contract.
A noncompete agreement may be enforced by a
state court that has jurisdiction over the agreement
or a party. This connection to a state might be
described as “locating” the agreement in that state.
But if “court jurisdiction” is the meaning of “location,”
then Taxpayer’s Licenses do not have location in New
York, because New York courts have no jurisdiction
over FCC licensing rights. It anyone attempted to
operate under Taxpayer’s FCC Licenses in New York,
New York courts would have no jurisdiction to police
that activity. An action in violation of an FCC license
is under the exclusive jurisdiction of the Federal
Communications Commission and Federal courts. 47
U.S.C. § 301 (“No person shall use or operate any
apparatus for the transmission of energy or
communications or signals by radio . . . except under
and in accordance with this chapter and with a license
. . . granted under the provisions of this chapter.”);
McIntire v. Wm. Penn Broad. Co. of Philadelphia, 151
F.2d 597, 600 (3d Cir. 1945) (“[E]nforcement of the
[Federal Communications] Act rests in the FCC.”); 47
U.S.C. § 401(b) (“If any person fails . . . to obey any
order of the Commission . . . any party injured
thereby may apply to the appropriate district court of
the United States for the enforcement of such order.”);
Microwave Commc’ns, Inc. v. F.C.C., 515 F.2d 385,
388–89 (D.C. Cir. 1974) (“[F]ederal courts of appeals
possess exclusive jurisdiction to enjoin, set aside,
suspend (in whole or in part), or to determine the
validity of . . . all final orders of the Federal

77a
Communications Commission made reviewable by
Section 402(a) of the Communications Act of 1934.”);
see also, e.g., Havens v. Mobex Network Servs., LLC,
820 F.3d 80, 89–90 (3d Cir.), cert denied, 137 S. Ct.
496 (2016) (A person claiming damage by a common
carrier under 47 U.S.C. § 207 may bring private
action in Federal court only after obtaining an FCC
determination.);
Freeman
v.
Burlington
Broadcasters. Inc., 204 F.3d 311, 320–21 (2d Cir.
2000), cert. den. 531 U.S. 917 (2000) (Local zoning
authority had no jurisdiction to regulate the siting of
a cellular tower to prevent interference with nearby
household electrical devices; it was “clear that
Congress intended the FCC to possess exclusive
authority over technical matters related to radio
broadcasting . . . This authority is embedded in the
FCC’s broad authority to develop a comprehensive
national
regulatory
system
governing
telecommunications . . . federal law has preempted”
state law in the field of radio frequency interference
“either intentional or incidental.”).
Taxpayer asserts that whether New York courts
had jurisdiction over the Licenses or over Taxpayer is
irrelevant to location, because, as in a noncompete
agreement, parties to a contract may choose the state
whose law will apply to their contract. It is not clear
how this assertion advances Taxpayer’ s argument for
New York nexus. In any case, parties may not simply
choose any state’s laws; the state whose law is chosen
must have some relationship to the agreement or a
party:
In a covenant not to compete, the parties’
freedom to choose what jurisdiction’s law will
apply to their agreement cannot be unlimited.
They cannot require that their contract be

78a
governed by the law of a jurisdiction which has
no relation whatever to them or their
agreement.
DeSantis v. Wackenhut Corp., 793 S.W.2d 670, 677
(Tex. 1990). So, if neither the parties nor the
agreement has any connection to New York, the
parties cannot create a connection simply by choosing
New York law to apply to their agreement.
Most importantly, an FCC licensee has no choice
of law with respect to its licensing rights. FCC
licensing rights are governed exclusively by Federal
law under the exclusive jurisdiction of the FCC and
Federal courts, as noted above.
G. Uniform Division of Income for Tax Purposes
Act
Taxpayer asserts that a proposed regulation from
the Uniform Division of Income for Tax Purposes Act
(“UDITPA”) should apply to this case. Taxpayer cites
a proposed UDITPA regulation which allocates
receipts from the sale of an FCC license to the state
where the license authorizes the holder to conduct
business activity. TP Memo p. 37, citing “UDIPTA
[sic] Reg. IV.17.(f)(l)(E), example (ii)”). But Taxpayer
cites this UDITPA regulation out of context. As will
be described below, the regulation cited by Taxpayer
applies to business income, not to investment income;
the regulation applies to a proposed new
apportionment concept not adopted by Vermont; and
the allocation rules in UDITPA continue to expressly
allocate income from nonbusiness intangibles only to
the owner’s commercial domicile.
The Multistate Tax Compact (“Compact”) was
drafted in the 1960s by the Multistate Tax
Commission (“MTC”). The Compact lays out model

79a
rules for the apportionment and allocation of
corporate income among the states. The goal of the
MTC was for states to adopt the Compact and thus
divide taxable corporate income among the states in a
uniform, equitable manner, avoiding duplicate
taxation. Article IV of the Compact provided general
rules for this “Division of Income.” UDITPA provided
model regulations setting out details for division of
income under the general scheme of the Compact.
Vermont did not adopt UDITPA, though portions of
Vermont’s corporate tax law mirror the original
UDITPA language.
The MTC in 2017 adopted proposed amendments
to the Compact and the model UDITPA regulations to
allow “market-based sourcing.” These 2017 UDITPA
proposed regulations will be referred to here as the
“U/Regs.”
Market-based sourcing is a new
apportionment concept (see Footnote 4, below), and
applies only to business income. The MTC’s marketbased sourcing U/Regs do not change the UDITPA
rule that income from intangible nonbusiness assets
must be allocated to the taxpayer’s commercial
domicile. This is seen by a review of the entire text of
the U/Regs:
The FCC license example (E)(ii) that Taxpayer
quotes is from the proposed market-based sourcing
section of the U/Regs. Proposed new Compact Article
IV.1(g) defines “Receipts” as income “from
transactions and activity in the regular course of the
taxpayer’s trade or business” - that is, it defines
“Receipts” as business income. The corresponding
U/Reg IV.17 is also entitled “Receipts,” and relates to
the Compact provisions regarding “Receipts,” or
business income. Subdivision (f)(l) of U/Reg IV.l7 is
entitled “Assignment of Receipts,” and is the rule for

80a
assigning “Receipts” - business income - to the
appropriate state. The FCC example in U/Reg
IV.17(f)(l) which Taxpayer quotes is therefore within
the “Assignment of Receipts” - business income regulation, and reads:
(E) Examples.
***
(ii) Wireless Corp . . . sells a license issued
by the Federal Communications Commission
(FCC) to operate wireless telecommunications
services in a designated area in [state] to Buyer
Corp, a corporation that is based outside
[state]. The contract of sale is negotiated and
signed outside of [state]. The receipts from the
sale are in [state] because the intangible
property sold is a government license that
authorizes the holder to conduct business
activity solely in (state].
U/Reg IV.17.(f).(l)(E)(ii).
Since the governing
Compact Article IV defines “Receipts” as income
“from transactions and activity in the regular course
of the taxpayer’s trade or business,” and the example
Taxpayer quotes is addressing “Receipts” from the
sale of an FCC license, the example applies only if the
gain from Taxpayer’s FCC license sale qualifies as
“Receipts” from “transactions or activity in the
regular course of the taxpayer’s trade or business.”
But Taxpayer’s Licenses were investments and their
sale was not a transaction in the regular course of
Taxpayer’s trade or business. As a result, the FCC
example in this regulation does not apply to
Taxpayer’s sale of the Licenses.
This conclusion is expressly supported by the 2017
U/Regs themselves, which provide that “Property that

81a
is held merely for investment purposes” is “not related
to the operation of the trade or business,” and income
from activities “for the taxpayer’s mere financial
betterment rather than for the operation of the trade
or business” is not “apportionable,” meaning it is
nonapportionable. U/Reg, IV.1.(a).(4)(B) and (5). The
rule for nonapportionable income is in U/Reg
IV.2.(b)(3):
Application of Article IV: Allocation. Any
taxpayer subject to the taxing jurisdiction of
this state shall allocate all of its
nonapportionable income or loss within or
without this state in accordance with Article
IV.4 to IV.8.
That reference is to Articles IV.4 to IV.8 of the
Compact. Articles IV.4 and IV.6 provide:
ARTICLE IV. Division of Income
Section 4.
Rents and royalties from real or tangible
personal property, capital gains, interest,
dividends, or patent or copyright royalties,
to the extent that they constitute nonbusiness income, shall be allocated as
provided in sections 5 through 8 of this act.
***
Section 6.
(a) Capital gains and losses from sales of
real property located in this state are
allocable to this state.
(b) Capital gains and losses from sales of
tangible personal property are allocable to
this state if

82a
(1) the property had a situs in this
state at the time of the sale, or
(2) the
taxpayer’s
commercial
domicile is in this state and the taxpayer is
not taxable in the state in which the
property had a situs.
(c) Capital gains and losses from sales of
intangible personal property are allocable to
this state if the taxpayer’s commercial
domicile is in this state.
Compact,
Uniform
Law
Commission,
http://www.uniformlaws.org (italics added).
Taken as a whole, the 2017 proposed Compact and
U/Regs provide that capital gain from sale of the
intangible Licenses, which Taxpayer “held merely for
investment purposes” and were “not related to the
operation of Taxpayer’s trade or business,” and which
gain was from activities “for Taxpayer’s mere
financial betterment rather than for the operation of
the trade or business,” was nonbusiness,
nonapportionable income, and must be allocated to
Taxpayer’s commercial domicile.4
4

As noted earlier, the UDITPA model regulations were
originally adopted for use with the Multistate Tax Compact
drafted by the Multistate Tax Commission (MTC), in the 1960’s.
The UDITPA regulation Taxpayer cites is from the MTC’s
recently-proposed amendments to the UDITPA Regulations,
published in 2015 and adopted by MTC in 2017, for use by states
which adopt “market-based sourcing” for multistate corporate
income tax apportionment. http://www.mtc.gov/Uniformity/
Project-Teams/Section-17-Model-Market-Sourcing-Regulations.
Market-based sourcing is a recent apportionment concept,
responding to the evolution of the economy from goods-based to
services-based.
The new market-based apportionment
regulations apply to business income, now termed

83a

“apportionable income.” The new regulations do not change the
UDITPA rule that income from intangible nonbusiness assets
are nonapportionable and must be allocated to the taxpayer’s
commercial domicile.
Under market-based sourcing, business income from the sale
of services is not assigned to the state where the services are
performed (which is the traditional rule, and is Vermont’ s rule,
32 V.S.A. § 5833(a)(3); Reg. § 1.5833-1(d)(3)). Instead, services
income is assigned to the “market” state, where the customers
are located. See generally, Market-Based Sourcing on Cusp of
Becoming General Rule, J. Multistate Tax’n (May 25, 2015), 2015
WL 2088861.
Under the market-sourcing regulations, the receipts from
the sale of a business asset such as an FCC license covering a
New York area would be assigned to the “market” state of New
York, because that is the market where the license will be used
to generate business revenue - New York is the source of the
revenue to be taxed. The market-based sourcing rules do not
apply to an FCC license purchased as an investment asset and
not used to generate business revenue.
Taxpayer also cites regulations from Massachusetts and
Rhode Island with similar language regarding an FCC license
sale. But these two states have expressly adopted market-based
sourcing. See, e.g., Massachusetts Department of Revenue, 830
CMR 63.38.1: Apportionment of Income; Rhode Island
Department of Revenue, Division of Taxation Apportionment of
Net Income Regulation CT 15-04, Rule 8.
There is no authority for applying market-based sourcing
rules in Vermont, because that approach has not been legislated
or adopted in regulations and would contradict Vermont’s
current apportionment laws. At least two state courts have
invalidated application of market-based sourcing in the absence
of any expressly authorizing statute or regulations. University
of Phoenix, Inc. v. Indiana Department of State Revenue, 88
N.E.3d 805 (T.C. 2017); Quest Diagnostics Clinical Labs. Inc. v.
Barfield, 2015-0926 (La. App. 1 Cir. 9/9/16). In Quest the
Louisiana court also questioned whether market-based sourcing
provides an adequate view of all costs of producing the business
income, and questioned whether application of market-based
sourcing alongside cost-of-performance of services would pass

84a
Conclusion
Taxpayer has shown no legal basis for finding the
Licenses to be located in New York. Taxpayer’s
Licenses were not located in New York by geographic
or demographic factors, business activity, integral
relation to buildings or land, court jurisdiction, or
otherwise. The intangible Licenses had no situs and
the nonbusiness income from their sale must be
allocated to Taxpayer’s commercial domicile.
III. Commercial Domicile
A. Preliminary
Each member corporation of a unitary group must
individually account for any nonbusiness income
allocated to Vermont. Reg.§ 1.5862(d)-7(c)(5). Since
VNAT sold the Albany License, and Wireless sold the
Glens Falls License, the commercial domicile of each
corporation must be determined. Taxpayer asserts
that the commercial domicile is Connecticut. The
Department asserts that it is Vermont.
B. Commercial domicile case law
The concept of “commercial domicile’’ developed in
the context of taxation of intangibles. A corporation
is “legally domiciled” in “the place of its
incorporation.” First Bank Stock Corp. v. State of
Minnesota, 301 U.S. 234, 237 (1937).
When
(Commerce Clause) muster under the Complete Auto “internal
consistency” test. Id. at 11.
Even if Vermont were to adopt the new UDITPA marketbased sourcing regulations, the new UDITPA regulations do not
change the UDITPA regulations requiring allocation of
nonbusiness investment income to the taxpayer’s commercial
domicile, as noted above, under U/Reg IV.2.(b)(3) and Compact
Article IV, Sec. 6(c).

85a
corporations did business only in the state of
incorporation, the intangible “followed its owner” in
the same way as tangible moveable property (mobilia
sequuntur personam) for purposes of taxation.
Jurisdiction over the owner was the sufficient due
process link to allow taxation of the corporation’s
moveables and its intangibles.
With the rise of multistate business, the
corporation might have no real relation to its state of
incorporation, other than the fact of incorporation
there. In that case, the legal domicile is merely a
“paper domicile.” For this reason, courts developed
exceptions to the mobilia rule. A California court
described the developing exceptions in Southern
Pacific Co. v. McColgan, 156 P.2d 81 (1945): First, if
the intangible is used in business, it is deemed to have
a “business situs” there, and to be taxable by the
business situs state, rather than “follow its owner” to
the “paper domicile” state. If, however, the intangible
is merely an investment, it can have no “business
situs,” and if the corporation also has no real link to
its “paper domicile,” the court determines which state
has the sufficient link to support taxation of the
intangible. This other state with the greater link is
termed the “commercial domicile.” This concept
recognizes that domicile for tax purposes is in the
state where the corporation is actually operating and
has its “principal place of business.” “Commercial
domicile” is considered the domicile-in-fact, and
supersedes the authority of the paper domicile to tax
the corporation’s intangibles:
In recent years the doctrine that the state of
the business situs of intangibles may tax has
been greatly extended. It is extremely difficult
to tell the exact limits of the doctrine. Each

86a
case must turn upon its own facts, and from
those facts it must be determined whether in
that case the business situs of the particular
intangibles in fact and in law, is in the taxing
state. One of the extensions of the business
situs rule, or perhaps an independent exception
to the mobilia rule, is to be found in those cases
that hold that the foreign state where a
corporation has established its ‘commercial
domicile,’ at least in reference to the intangibles
in question, has jurisdiction to tax those
intangibles . . . [W]here the state of
incorporation is a paper domicile, a mere
technical legal domicile, in which the
corporation carries on none of its activities,
such corporation may be said to have its
domicile in fact, its commercial domicile, in that
state where it has its principal place of
business, and that state, in return for the
advantages, opportunities and protection
accorded the corporation in the conduct of its
business there, may tax the intangibles of such
corporation.
Id. at 95 (bold typeface added), Although the court
first describes the concept as an “extension of the
business situs rule,” the court’s second description is
more apt - that the concept is “perhaps an
independent exception to the mobilia rule.”
“Commercial domicile” is described variously as
the location of the “general business offices”
(Wheeling Steel Corp. v. Fox, 298 U.S. 193, 211
(1936)); the “principal place of business” (Southern
Pacific, supra, 156 P.2d at 95, 99) the “principal
business office” (Associated P’ship I, Inc. v.
Huddleston, 889 S.W.2d 190, 197-198 (Tenn. 1994)

87a
(citing Anniston Sportswear Corp. v. Alabama, 151
So.2d 778 (Ala. 1963)); or the “general office” (Smith
v. Ajax Pipe Line Co.)., 87 F.2d 567 (8th Cir. 1937)).
The general or principal business office is, however,
only short-hand for “commercial domicile,’’ as the
court cases establish that “commercial domicile” is
determined from a review of all the facts. In
identifying the commercial domicile, the “true test
must be to consider all the facts . . . to determine . . .
which state . . . gives the greatest protection and
benefits.” Southern Pacific, supra, 156 P.2d at 99.
Southern Pacific cited the U.S. Supreme Court
case of Wheeling Steel as “establishing this rule” of
commercial domicile. Id. Wheeling Steel held that
accounts receivable and bank deposits of a Delaware
corporation, which had manufacturing plants in Ohio
and sales offices in a number of other states, were
taxable by West Virginia:
The corporation established in West
Virginia what has aptly been termed a
‘commercial domicile.’ It maintains its general
business offices at Wheeling and there it keeps
its books and accounting records. There its
directors hold their meetings and its officers
conduct the affairs of the corporation. There,
as appellant’s counsel well says, ‘the
management functioned.’ The corporation has
manufacturing plants and sales offices in other
states. But what is done at those plants and
offices is determined and controlled from the
center of authority at Wheeling.
The
corporation has made that the actual seat of its
corporate government.

88a
Wheeling Steel Corp. v. Fox, 298 U.S. 193, 211-212
(1936).
Wheeling established that commercial
domicile is determined by the totality of the facts,
including the location of the general business offices,
where the books and records are kept, where checks
are drawn, where the directors hold their meetings,
where the officers conduct the business affairs of the
corporation, and where management functions. Id. at
211-213.
Commercial domicile cases following Wheeling
have all applied a factual analysis. In Southern
Pacific, supra, the taxpayer was incorporated in
Kentucky, operated in California and other Western
states, but asserted that its commercial domicile was
in New York, where its board of directors and
executive committee met and where the intangible
stock was held which generated the dividend income
to be taxed. The court held that while the location of
the directors’ meetings was an important fact, it was
not solely determinative. The commercial domicile
was
California,
where
the
company
had
“substantially more business and property,” where
the majority of its employees worked, and where its
legal, engineering and purchasing staffs operated.
Southern Pacific, 156 P.2d at 90. The court held that
where the board of directors meets is not conclusive if
the evidence as a whole shows “the factual and
realistic” business center is elsewhere:
The fact that the board of directors of
plaintiff meets in New York is an important, a
very important factor, to be considered in
determining whether California is in fact the
commercial domicile of this company. But that
factor is not conclusive . . . [T]he contention
that, as a matter of law the only state that can

89a
possibly be held to be its commercial domicile is
that state where its board of directors meets, is
as unrealistic, unsound, and artificial as the
concept that the corporation for all tax purposes
is domiciled in the state of incorporation. It was
to free the law from this last mentioned
artificial and fictional concept that the concepts
of business situs and commercial domicile were
applied by the courts. The true test must be to
consider all the facts relating to the particular
corporation, and all the facts relating to the
intangibles in question, and to determine from
those facts which state, among all the states
involved, gives the greatest protection and
benefits to the corporation, which state, among
all the states involved, from a factual and
realistic standpoint is the domicile of the
corporation.
Id. at 99 (italics added). The Southern Pacific court
cited earlier cases, including Wheeling, to support its
statements that commercial domicile may be “in a
state other than the one in which the board met” and
“That the state where ultimate control is exercised is
not necessarily the commercial domicile.” Id. The
commercial domicile is the state where:
. . . substantially more activities are carried
on, more actual control is exercised, more
protection is given this corporation, and more
benefits conferred on it . . . than by any other
state.
Id.
Similarly, the court in Pacific Western Oil
Corporation v. Franchise Tax Board, State of
California, 289 P.2d 287 (1955), looked at all the facts

90a
to determine in which state “the taxpayer
[corporation] received the greatest protection and
benefits.’’ Id. at 293. The court considered the
number of employees in each state, where the books
and records were kept, the location of its fixed assets,
the sales volume in each state, where it filed its
Federal tax returns, where the day- to-day production
and sales activities occurred, where payroll payments
were made, and other factors. Id. at 294.
A more recent case which expressly follows
Wheeling reaffirmed that the location of board
meetings is simply one factor and not alone
determinative: “[E]ven if the ‘high level management
decisions’” are made elsewhere, the more important
factors are where the “common officers of [the
corporation]” execute “the detailed implementation
and exercise of the policies.” Pelto Oil Co. v. Collector
of Revenue of State of La., 384 So. 2d 533, 539-540
(La. Ct. App. 1980). In that case, the court looked to
the state where the corporation engaged in its main
business activity, where it was ‘‘actually functioning
from the headquarters.” Id. at 538. The court
considered where the taxpayer had an “office
available to the general public,” its mailing address,
the location of its “books and records of day-to-day
operations,” the location of its “secretarial,
bookkeeping, leasing, geological, and engineering
staff,” and where it “prepared budgets, made sales,
contracted for services, collected money, paid bills,
salaries, and other obligations.” Id. at 539. The Pelto
court held:
The commercial domicile of a business
cannot be at some remote location where an
individual, or even two or three of the higher
officers of a corporation, may be located,

91a
particularly if there is no office, staff, or other
physical indicia of management functioning at
that location.
Id.
The court held that the “out-of-·state
formulation of policy and general influence of an
out-of-state board of directors does not remove a
commercial domicile” to that state. Id.
C. Vermont definition of “commercial domicile”
“Commercial domicile” is defined in Vermont’s
regulations as ‘‘the principle [sic] place from which
the business is directed or managed.” Reg. § 1.5833l(e). Although Vermont has not adopted UDITPA, its
definition of “commercial domicile” is identical with
the UDITPA definition (“‘Commercial domicile’
means the principal place from which the trade or
business of the taxpayer is directed or managed.”
UDITPA Sec. l(b)). The official Comment to the
UDITPA definition states:
Comment
The phrase “directed or managed” is not
intended to permit both the state where the
board of directors meets and the state where
the company is managed to claim the
commercial domicile. The phrase “directed or
managed” is intended as two words serving the
same end; not as two separate concepts.
UDITPA Comment to Sec. 1(b). This Comment echoes
the case law, that the place where the board of
directors meets is not, by itself, the test of commercial
domicile. Case law and commentary both indicate
that the UDITPA definition is intended to follow the
U.S. Supreme Court’s reasoning in Wheeling Steel:
The UDITPA definition of the phrase
“commercial domicile,” and the interpretation

92a
given the phrase by those courts considering
the issue is consistent with the decisions from
courts in other non-UDITPA jurisdictions that
follow Wheeling Steel Corp. . . .
Associated P’ship I, Inc., supra, 889 S.W.2d at 198;
“Factors to Be Considered in Determining a
Corporation’s Commercial Domicile,” J. Multistate
Tax’n 6, 10 (Oct. 2003) (“The UDITPA definition of
commercial domicile follows the theory adopted by the
U.S. Supreme Court in Wheeling Steel.”). Since the
Vermont definition of “commercial domicile” is
identical with the UDITPA definition, and the
UDITPA definition follows Wheeling, it is clear that
the reasoning of Wheeling applies to analysis of
Taxpayer’s case under Vermont law. As noted,
Wheeling Steel and its progeny hold “the true test
must be to consider all the facts,” to determine where
the “actual conduct of business operations” occurs,
and which state “gives the greatest protection and
benefits to· the corporation.”
E. Applying commercial domicile analysis to the
facts of this case
All of the taxpayer corporations (other than FWF,
not relevant here) were incorporated in Delaware, but
there is no evidence of any office, employees, or
activity in Delaware. Delaware was therefore a
“paper domicile,” and not the commercial domicile of
any of the corporations.
l. Location of high-level decision-making
Taxpayer asserts that VNAT’s commercial
domicile is Connecticut, the location of Dr. Guite’s
office in his home in Greenwich, where he makes
“high-level strategic decisions” for VNAT:

93a
VNAT’s commercial domicile is clearly
located in Connecticut. As VNAT’s president,
treasurer, chief executive officer, and a member
of its board of directors, Dr. Michel Guite is
ultimately responsible for making the highlevel strategic decisions for VNAT . . . The
record establishes that Dr. Guite makes these
high-level decisions at VNAT’s principal office
located at 47 Glenville Road, Greenwich,
Connecticut, and that the VNAT Board of
Directors also typically meets in Greenwich or
else via telephone . . . Meetings between Dr.
Guite and high-level executive from other
companies also generally occur in Greenwich
because it is more easily accessible from major
metropolitan areas and large airports than
Springfield, Vermont.
In addition, the
Greenwich office is better suited to facilitate
high-level discussion.
Whereas the space
allocated to Dr. Guite in the Springfield office
consists of just an open desk in a shared work
area, the Greenwich office is spacious and wellequipped for both private work and
conferences. It was specifically designed as ‘a
place to think, to review documents, store
confidential documents, host business guests in
a warm and inviting setting, and to walk
around during conference calls.’
TP Memo pp. 29-30 (italics added); see also, Dr.
Guite’s testimony, PF pp. 7-8.
Taxpayer asserts that “under Wheeling, it is the
location of the high-level decision makers - the
directors or managers - that matters the most, even if
the majority of a company’s assets, employees, and
business activity and day-to-day implementation are

94a
located elsewhere.” TP Memo p. 29. This assertion is
at odds with the U.S. Supreme Court’s ruling in
Wheeling and the state cases which follow it. It is not
the high-level decision makers’ location that matters
the most, though it is one fact to be considered.
2. Principal office address
First, it is noted that although Taxpayer describes
his Greenwich office as “VNAT’s principal office,” it is
not owned by VNAT, but is owned personally by Dr.
Guite and is a room in his personal residence. There
is no evidence of any VNAT or Wireless or other
corporate or business lease of the Greenwich home
office.
There is no evidence that VNAT or Wireless, or the
other members of the taxpayer group, owned or leased
any office in Connecticut. The 2012 Connecticut
corporate return was filed by Vtel alone, seeming to
indicate no VNAT or Wireless property in Connecticut
in 2012.
In the 2013 combined VNAT-Vtel
Connecticut corporate return, VNAT affirmatively
stated that the “principal place of business” was not
located Connecticut, and entered “Vermont” as the
“principal place of business.” Also in that return,
VNAT reported no Connecticut intangible or tangible
property, indicating no VNAT interest in any
Connecticut office. Since Wireless was not included
on either Connecticut return, it means Wireless
reported no office - and no property - in Connecticut
in 2012 or 2013.
All audited corporate tax returns were filed with
the reporting taxpayer’s address as the Springfield
office address.
Wireless’ 2012 and 2013 corporate annual reports
to the Vermont Secretary of State report the mailing

95a
and the principal office addresses as the Springfield
office.
VNAT’s 2012 and 2013 corporate annual reports
to the Vermont Secretary of State report the mailing
address as the Springfield office, but the principal
office as the Greenwich address. This document is
insufficient to overcome the evidence from the
Connecticut corporate returns (above), which were
submitted under penalties of perjury, and the
multiple declarations of the Springfield office as the
VNAT business address or principal office on all
Federal and state tax returns for 2012 and 2013, also
submitted under penalties of perjury.
3. Office location of conduct of day-to-day
business
Frances Stocker, the Chief Financial Officer, Vice
President of Finance, and Treasurer for VNAT, works
in the Springfield office. That office is where she
worked with the Auditor to provide records and
answer questions, which is part of the ordinary
conduct of a business, though the audit was not in
2012 or 2013.
Ms. Stocker signed all 2012 and 2013 Vermont
non-income tax returns in evidence, a part of the
ordinary conduct of business.
Ms. Stocker had check signing authority in 2012
and 2013 for VNAT, Vtel, Wireless and DATA. She
signed the checks for payment of 2012 and 2013
Vermont sales tax and payroll withholding tax. These
are day-to-day business activities which it may be
presumed, in the absence of other evidence, took place
where Ms. Stocker works, in the Springfield office.
In 2012 and 2013, using the Springfield office
address, VNAT filed Vermont sales and use tax

96a
returns and payroll withholding tax returns; Vtel
filed Vermont employer withholding reconciliation
returns; and Wireless enrolled in electronic funds
transfer for Vermont taxes. These are all evidence of
day-to-day VNAT and Wireless business activities of
sales, purchasing, and payroll activities in the
Springfield office.
There are no Connecticut sales and use tax returns
or payroll withholding returns in evidence for any of
the companies. There was no evidence of any
purchases, sales, or payroll or payroll-withholding
activities conducted from Dr. Guite’s Greenwich
office, or any office, in Connecticut.
VNAT was not on the 2012 Connecticut corporate
tax return, indicating no VNAT business activities or
property or employees in Connecticut in 2012; and
VNAT was on the 2013 Connecticut return, but
reported zero Connecticut sales, property or payroll.
4. Where the common officers implement and
exercise corporate policies
Dr. Guite made the decision on how to bid for the
FCC Licenses while he was in Connecticut, but he
then “directed those decisions to an employee in
Springfield, Vermont, who actually executed the
bids.” This is not 2013 evidence, but is evidence that
his high-level decision to make the 2003 purchase was
implemented by an employee in Vermont.
Dr. Guite testified that he made the decision to sell
the FCC Licenses in 2013 while he was in Barcelona,
Spain. There is no evidence of who implemented this
decision or from what state.
There was no evidence of implementation in
Connecticut of any of Dr. Guite’s high-level decisions.

97a
5. Location of secretarial, bookkeeping, and other
staff
Taxpayer’s CPA for 2012, 2013 and 2014 corporate
income tax for the Taxpayer group is located in Maine
and works for a Maine accounting firm.
In their Vermont annual corporate reports for
2012 and 2013, VNAT and Wireless both reported
Dawn Tucker as their accountant. Ms. Tucker signed
the Vtel 2012 and 2013 Vermont withholding tax
reconciliation returns, showing her address as the
Springfield office.
Since the 2012 through 2014 audit records, other
than the non-Vermont corporate tax returns, were
located in the Springfield office, it may reasonably be
inferred that the secretarial and bookkeeping staff
who created and maintained those sales, purchase
and payroll records were in Vermont.
There was no evidence of secretarial, bookkeeping
or other office staff working in Connecticut.
Somewhat analogous to location of staff is the
location of the business’ bank. VNAT’s 2012 and 2013
Vermont corporate quarterly tax payments were paid
with checks drawn on People’s United Bank, and at
least one of the checks was imprinted with “People’s
United Bank of Burlington, Vermont.”
6. Where books and records are kept
Dr. Guite testified that VNAT’s records, including
its tax returns, are generally stored electronically and
therefore accessible from his computer in
Connecticut.
This indicates that the original
corporate records were not in Connecticut.
The Department Auditor testified that she
conducted a full audit, of all tax types, for the years

98a
2012 through 2014, and performed an on-site review
at the Springfield office. There, she reviewed the
2012 through 2014 invoices, sales records financial
statements, withholding tax filings, W2s and W3s,
and supporting work papers for Vermont taxes, other
than corporate income tax, for VNAT, Wireless and
Vtel. This indicates that these 2012, 2013 and 2014
records were kept in the Springfield office in Vermont.
CPA Caouette, who is located in Portland, Maine,
provided the Auditor with corporate tax returns and
financial statements for the audit period. This
indicates the corporate tax returns for 2012, 2013,
and 2014 were kept in Maine.
As between Connecticut and Vermont, the greater
number of books and records were kept in Vermont.
In fact, then is no evidence that any records were kept
in Connecticut, but only that VNAT’s records could be
viewed on Dr. Guite’s computer there.
7. Where the majority of employees work
Vermont law requires that employers submit
withholding tax for every payment subject to Vermont
income tax. 32 V.S.A. § 5841(a). On its 2012 and 2013
Vermont withholding returns, Vtel reported 57 and
59 employees subject to Vermont withholding. This
indicates that Vtel had over 50 employees in each
year who were either resident in Vermont or working
in Vermont. Although the employer was Vtel, the
payments of the withholding taxes in evidence were
made by VNAT on VNAT checks.
The evidence includes a VNAT Vermont employer
withholding reconciliation filed in 2013 for 2012.
There was no evidence of any Connecticut VNAT or
Wireless employer-withholding tax returns or
payments for 2012 or 2013.

99a
The 2012 Vtel stand-alone Connecticut return
reports Vtel “cost of operations’’ but reports no
deduction for Connecticut payroll taxes. The 2012
Connecticut return indicates no VNAT or Wireless
Connecticut employees in that year.
The 2013 combined Connecticut return of VNAT
and Vtel reports nothing allocated to Connecticut for
wages, and reports no deduction for Connecticut
payroll taxes for VNAT, Vtel, Wireless or other subs.
8. Where the board of directors meets
Dr Guite testified that meetings of the VNAT
board of directors “are typically” held in his home
office, though he testified that when Walter Hewlett
was on the board, they “would also have Directors’
meetings at locations that were convenient for him,”
and “with [Dr. Guite’s] daughters now on the Board of
Directors, we are holding more meetings via
telephone.” Walter Hewlett was on the VNAT board
“until approximately 2013,” and Dr. Guite’s
daughters joined the board in 2013. Thus, it is
unclear from the record how many board meetings
were held in Connecticut in 2012 and 2013.
Even if all board meetings had been held in
Connecticut, the location of board meetings is but one
factor to consider.
9. Where greater protection is given and more
benefits conferred
In 2012 and 2013, the taxpayer corporations’
unitary group, which included VNAT and Wireless,
reported its total business receipts and business
property everywhere were close to, or over, 90 percent
in Vermont. The various audited returns for the
group reflect a majority of its employees were in
Vermont in 2012 and 2013. Neither VNAT nor

100a
Wireless reported any Connecticut business receipts,
property or payroll in 2012 or 2013.
Vermont’s contract laws, real property laws,
employment laws, banking laws, and other laws
provided protection and benefits to VNAT’s and
Wireless’ Springfield office, bank account, office staff,
business activities, business records, and employees
in Vermont in 2012 and 2013. The lack of evidence of
a Connecticut business office, office staff, day-to-day
business activities or business records, and the lack of
any VNAT or Wireless report of business receipts,
property or wages in Connecticut in these years,
indicate far less benefit and protection from, and far
less taxable link, if any, to Connecticut.
Conclusion
Considering all the facts, there are many indicia
that in 2012 and 2013, for VNAT, Wireless, and Vtel,
Vermont was the location of the principal office, the
place where high-level policy was implemented,
where the conduct of day-to-day business operations
occurred, where the greatest number of office staff
and business employees worked, and where the
business records were kept, and was the state that
gave the greatest protection and benefits to these
companies. There was evidence that the VNAT board
of directors’ meetings “are typically” held in Dr.
Guite’s home office in Connecticut, though there is no
specific evidence of meetings in 2012 and 2013; that
Dr. Guite’s high-level business decisions are made in
his Connecticut home office, though there is no
specific evidence of decisions in Connecticut in 2012
and 2013, and his decision to sell the Licenses in 2013
was made while he was in Barcelona, Spain; and that
VNAT’s 2013 corporate annual report to the Vermont

101a
Secretary of State reported a Connecticut principal
office address. This scant Connecticut evidence is
insufficient to overcome the more-detailed,
documented, and far greater evidence, described
above, that Vermont was the commercial domicile of
these companies in 2012 and 2013.
IV. Allocation of Dr. Guite’ s wages
Vermont taxes a multistate unitary corporate
group doing business in Vermont on the Vermont
share of its multistate business income. 32 V.S.A.
§ 5833. The Vermont share of taxable business
income is apportioned by comparing the group
members’ Vermont sales, property, and payroll in the
numerator to the group’s total sales, property, and
payroll in the denominator. The payroll numerator
for the apportionment calculation is detailed in
regulations:
(c) Payroll Factor
(1) The payroll factor is a fraction, the
numerator of which includes the total
compensation paid in Vermont during the tax
period and the denominator of which includes the
total compensation paid everywhere during the
tax period. In addition to “normal” salary and
wages, compensation shall include payments to
employees for board, rent, housing, lodging, and
any other benefits paid in exchange for labor.
These amounts will be treated as compensation if
they are considered as income under the Internal
Revenue Code.
(2) The taxpayer’s accounting method will
determine the actual amounts that are to be
included in the factors. If the taxpayer uses the
accrual method of accounting, compensation that

102a
has been properly accrued and deductible will be
considered to have been paid during the taxable
period.
(3) For purposes of this regulation, an
employee is defined to be any person, including an
officer of the corporation, who is included by the
taxpayer as an employee for purposes of the
payroll taxes imposed by the FICA.
(4) The payroll factor shall include only
compensation that is related to the production of
apportionable income.
Compensation that is
related to the operation, maintenance, protection
or supervision of nonbusiness income is not
included in the payroll factor. To the extent that
employee services produce both business and
nonbusiness income, proration is allowed .
(5) Compensation will be considered to be paid
in Vermont and thus includable in the numerator
of the payroll factor if:
(A) the individuals’ services are performed
entirely within Vermont;
(B) the individuals’ services are performed
both within and without Vermont, but the
out-of-state services are incidental to the
Vermont services;
(C) some of the individuals’ services are
performed within Vermont and the company’s
base of operation or the place from where the
service is controlled is within Vermont; or
(D) some of the individual’s services are
performed within Vermont, which is his or
her state of residence, and there is no base of
operation or place from where the service is
controlled in any of the other states where

103a
part of the
performed.

individual’s

services

are

Reg. §1.5833-1(c) (italics added).
Taxpayer asserts that the compensation Dr. Guite
received for time working in his home office in
Connecticut is not includible in the Vermont payroll
numerator.
The italicized portion of the regulation quoted
above is the rule applicable here: “Compensation will
be considered to be paid in Vermont . . . if . . . some of
the individuals’ services are performed within
Vermont and the company’s base of operation or the
place from where the service is controlled is within
Vermont.”
Taxpayer does not dispute that Dr. Guite worked
some portion of his time in Vermont in 2012 and 2013.
TP Memo p. 38. This satisfies the first requirement
in the regulation, that some of his services were
performed within Vermont.
As discussed earlier, the commercial domicile, or
base of operation, of VNAT, Vtel and Wireless was
Vermont in 2012 and 2013. This satisfies the second
requirement in the regulation, that either the base of
operation or the place from where the service is
controlled is within Vermont.
Since both requirements of the regulation are
satisfied, the compensation paid to Dr. Guite for his
time working in Connecticut “will be considered to be
paid in Vermont” for purposes of apportionment.
The regulation provides that the payroll factor
only includes compensation related to business
income. If compensation is related to production of
some business income and some nonbusiness income,
the compensation may be prorated for calculating the

104a
payroll factor.
Reg. § 1.5833-l(c)(4).
The
Department’s assessment is presumed correct, and
the burden is on the taxpayer to demonstrate that a
proration is required. Thinking Machines Corp. v.
New Mexico Taxation and Revenue Dept., 211 B.R.
426, 428 (D.Mass. 1997) (“It is settled law that
taxpayers bear the burden of proving that a tax
deficiency assessment is erroneous . . . This rule is
supported by ‘the presumption of administrative
regularity; the likelihood that the taxpayer will have
access to the relevant information; and the
desirability of bolstering the record-keeping
requirements of the Code.’”). Taxpayer here has
offered to no evidence to support a proration.
Conclusion
As a result, Dr. Guite’s total compensation for
2012 and 2013 must be included in the Vermont
numerator of the apportionment calculation.
V. Penalties
The Department assessed penalties under Section
3202(b)(3) for “failure to pay” taxes. The penalty for
underpayment of income tax is one percent per
month, up to a maximum of 25 percent of the
outstanding tax liability. 32 V.S.A. § 3202(b)(3).
Taxpayer asserts that this penalty should be
imposed only when the taxpayer has acted
unreasonably, and asserts that in this case, Taxpayer
“made no attempt to hide” the gain and was
cooperative in the audit. Taxpayer also asserts that
“the factual and legal issues at the heart of this
dispute are complex,” and that the complexity made
it reasonable for Taxpayer to report the gain as New
York gain based on its interpretation of the law. TP
Memo pp. 40-41, TP Memo2 p. 16.

105a
Section 3202 imposes interest and penalties for all
taxes under the Commissioner’s jurisdiction. It
provides for three types of penalties: failure to pay,
negligent failure to pay, and fraudulent failure to pay:
§ 3202. Interest and penalties
...
(b) Penalties . . .
(3) Failure to pay. When a taxpayer fails to
pay a tax liability imposed by this title . . . on
the date prescribed therefor, then in addition
to any interest payable pursuant to subsection
(a) of this section, the Commissioner may
assess and the taxpayer shall then pay a
penalty which shall be equal to . . . five percent
. . . provided, however, that in no event shall
the amount of any penalty assessed under this
subdivision exceed 25 percent . . . .
(4) Negligent failure to pay.
When a
taxpayer fails to pay a tax liability imposed by
this title and the failure is due to negligence or
constitutes a substantial understatement of
tax . . . “negligence” means any failure to make
a reasonable attempt to comply with the
provisions of the tax code and “substantial
understatement” means an understatement of
20 percent or more of the tax.
(5) Fraudulent failure to pay. When a
taxpayer fraudulently or with willful intent to
defeat or evade a tax liability imposed by this
title, either fails to pay a tax liability on the
date prescribed therefor . . . .
32 V.S.A. § 3202(b)(3), (4), (5).
The higher two penalties are for negligent and
fraudulent failure to pay. The first level is a penalty

106a
for simple “failure to pay,” regardless of fault. The nofault penalty does not require a showing of
negligence, fraud, or any other state of mind; it is a
strict-liability provision, meaning it is triggered by
mere nonpayment. The presence of the negligence
and fraud penalties in Subsections (4) and (5)
indicates that the Legislature was aware of the
concepts of fault and state of mind, and intended to
create a penalty for simple failure to pay with no fault
in Subsection (b)(3). The Legislature is presumed to
have chosen the words of a statute advisedly.
Wetterau, Inc. v. Department of Taxes, 141 Vt. 324,
330 (1982).
That is, it is presumed that the
Legislature was aware, when it created the no-fault
penalty; that it would apply to a taxpayer who simply
failed to pay a tax when due, for whatever reason.
While Taxpayer may have acted in good faith, lack
of good faith is not the only reason for a penalty.
Another reason is to encourage communication
between a taxpayer and the Department prior to the
taxpayer’s taking a questionable position on a tax
return. The risk of not only having to pay the tax
deficiency, but also having to pay a penalty for
underpayment, is intended either to dissuade a
taxpayer from taking a questionable position or to
persuade the taxpayer to first seek a formal ruling
from the Department as to the tax consequences.
Here, Taxpayer believed the legal issues to be
complex, and in addition, had a Maine CPA preparing
its Vermont corporate income tax returns. Taxpayer
nonetheless did not request a ruling, but assumed the
risk of omitting the capital gain from its Vermont
taxable income and omitting a portion of Dr. Guite’s
wages from its Vermont apportionment calculation.

107a
Though Taxpayer found the law to be complex,
taxpayers are presumed to know the law. Longe v.
Boise Cascade Corp., 171 Vt. 214, 226 (2000) (“[T]he
time-honored principle that all persons are presumed
to know the law” is ‘‘of unquestioned application in
Vermont as elsewhere, both in civil and in criminal
cases.”); see also Wells v. C.I.R., T.C. Memo 2010-5, 3,
2010 WL 23333, (U.S.Tax Ct., 2011) (“[A] taxpayer is
presumed to know the law, and a mistake of law does
not excuse liability.”). For this reason, and as a
matter of fairness to all taxpayers, ignorance of the
law is not considered sufficient reason to forbear or
waive penalties. Use of the word “may” in the no-fault
penalty statute, quoted above, provides the
Commissioner with discretion to withhold the penalty
in appropriate cases, but there were no circumstances
here which warranted withholding the penalty. The
Supreme Court recently affirmed that a mistake of
law does not excuse liability for the tax or for the nofault penalty. Citibank (S. Dakota), N.A. v. Dep’ t of
Taxes, 2016 VT 69, ¶¶ 27-28 (“Because penalties are
authorized where a taxpayer has failed to pay any tax
owed to the Department, the Commissioner acted well
within her discretion in imposing a 5% monthly
penalty . . . [R]etailer is essentially positing that it
should not incur penalties because it was ignorant of
the tax law, an untenable defense in any
jurisdiction.”).
Conclusion
The penalties should not be abated.
VI. Conclusion
Based on the foregoing analysis, the Department’s
assessments, including interest and penalties, are
affirmed.

108a
Dated this 27th day of August, 2018, at Montpelier,
County of Washington, State of Vermont.
State of Vermont
Department of Taxes
s/ Emily J. Bergquist
Emily J. Bergquist
Hearing Officer
APPROVED BY:
s/ Kaj Samson
Kaj Samson
Commissioner of Taxes

Date:

8/28/18

109a
STATE OF VERMONT
SUPERIOR COURT
Washington Unit

CIVIL DIVISION
Docket No. 528-9-18 Wncv

Vermont National Telephone Company
Taxpayer–Appellant
v.
State of Vermont Department of Taxes
Appellee
DECISION ON APPEAL
Taxpayer Vermont National Telephone Company
(VNAT) appeals from the Commissioner of Taxes’
determination that capital gain on its 2013 sale of two
Federal
Communications
Commission
(FCC)
telecommunications licenses is properly allocated to,
and thus taxable by, Vermont pursuant to
Department of Taxes Regulation § 1.5833-1.1 VNAT
also appeals the assessment of an underpayment
penalty imposed pursuant to 32 V.S.A. § 3202(b)(3).

1

At all times relevant to this case, VNAT was part of a
“unitary group” doing business in Vermont and elsewhere that
included subsidiaries VTel Wireless, Inc., Four Winds Farm,
Inc., and VTel Data Networks, Inc. There is no dispute in this
case about VNAT’s unitary group reporting or other need to
distinguish between VNAT and its subsidiaries or among the
related corporations. For ease of reference, the court will refer
to VNAT and its subsidiaries collectively as VNAT. While the
unitary business principle provides crucial legal context to this
case, there is no specific dispute about it presented. For more on
the unitary business principle and unitary group reporting in
Vermont generally, see 32 V.S.A. § 5862(d); Department of Taxes
Regulation § 1.5862(d); AIG Ins. Mgmt. Servs., Inc. v. Vermont
Dep’t of Taxes, 2015 VT 137, 201 Vt. 9.

110a
Regulation
§ 1.5833-1
addresses
the
apportionment and allocation, for tax purposes, of
corporate income arising from business “conducted
both within and outside this State.” 32 V.S.A.
§ 5833(a).2
Apportionment and allocation are
processes for determining how much of the corporate
taxpayer’s income will be taxed. The parties agree
that the gain on the sale of the licenses, which were
held purely for investment purposes, is “nonbusiness”
income for purposes of the rule. The principal issue
is where the licenses are properly “located” if they can
be located anywhere at all.3
VNAT argues that the licenses have a New York
State location exclusively and thus the gain from their
sale must be allocated to New York and cannot be
taxed by Vermont. The Commissioner determined,
and the State argues, that the licenses have no
location and thus the gain from their sale is properly
allocated to Vermont, VNAT’s “commercial domicile.”
The principal controversy is one of interpretation.
The parties interpret Regulation § 1.5833-l(e), which
describes
how
corporations
should
allocate
nonbusiness income, to different effect. There is no
2

The legislature substantially amended 32 V.S.A. § 5833
in 2019. 2019, No. 51, § 8. The amendment “shall take effect on
January 1, 2020, and apply to tax years starting after that date.”
Id. § 41(3). The amendment therefore does not apply to and has
no bearing on this case.
3

At issue before the Commissioner also was an issue
related to VNAT’s 2012 taxes. The Commissioner resolved that
issue in favor of the Department, and VNAT has not raised any
issue with that ruling on appeal. The court therefore treats that
ruling as beyond the scope of review and will not address it. This
case is limited to those parts of the Commissioner’s
Determination addressing VNAT’s 2013 taxes.

111a
dispute about the underlying facts, and VNAT is not
challenging the constitutionality of Regulation
§ 1.5833-1 generally or the constitutionality of the
Department’s interpretation of it specifically.
Standard of Review
The Court has described the standard of review in
tax appeals as follows:
Courts presume that the actions of
administrative agencies are correct, valid and
reasonable, absent a clear and convincing
showing to the contrary. Therefore, judicial
review of agency findings is ordinarily limited
to whether, on the record developed before the
agency, there is any reasonable basis for the
finding.
Courts must remember that
“(a)dministrative agencies belong to a different
branch of government,” and that “(t)hey are
separately created and exercise executive
power in administering legislative authority
selectively delegated to them by statute.”
State Dep’t of Taxes v. Tri-State Indus. Laundries,
Inc., 138 Vt. 292, 294 (1980) (citations omitted).
Regulation § 1.5833-l(e) income allocation
In 2003, VNAT purchased two FCC licenses
granting it exclusive telecommunications use of a
definite part of the electromagnetic spectrum
covering two specific geographic areas each wholly
within New York State. VNAT purchased and held
the licenses purely for investment purposes. It never
constructed
the
on-the-ground
infrastructure
necessary to use the rights granted by the licenses,
and it did not otherwise use those rights in its regular

112a
business operations.4 VNAT sold both licenses in
2013 to AT&T Mobility Spectrum LLC, generating a
substantial capital gain. VNAT treated the gain as
having arisen from an asset located in New York
State under Vermont Regulation § 1.5833-l(e) and
thus paid no corporate income tax on the gain to
Vermont.
Following an audit, the Department
assessed VNAT for unpaid tax on this gain, interest,
and an underpayment penalty.
In the administrative case before the
Commissioner, there was no dispute that the gain
from the sale of the licenses is properly classified as
nonbusiness income, meaning that it arose not from
the taxpayer’s regular business operations.5 There
also is no dispute that the licenses, which represent
rights granted by a governmental entity, are
intangible assets.
Regulation § 1.5833-1 prescribes methods for
apportioning business income, Regulation § 1.5833l(a)–(d), and allocating nonbusiness income,
Regulation § 1.5833-1 (e).
Apportionment—
applicable to business income only—refers to the
“fair” method of aggregating the taxpayer’s Vermont
and non-Vermont income and then calculating
according to a formula the amount that will be used
for Vermont tax purposes. Allocation—applicable to
4

VNAT claims that merely holding such licenses can be a
business use of them insofar as ownership excludes competitors
from using the licensed spectrum. However, there is no dispute
in this case that these licenses were held exclusively for
investment purposes and their sale generated nonbusiness
income only.
5 The court takes no position on whether the income may
be better characterized as business or nonbusiness income and
defers to the parties’ agreement on the issue.

113a
nonbusiness income only—refers to a method of
assigning income from a specific asset wholly to the
state where it is located or to the taxpayer’s
commercial domicile if the asset has no location. In
either event, if the assigned state is Vermont, the
income will be taxed by Vermont. If it is a state other
than Vermont, the income will not be taxed by
Vermont.
Regulation § 1.5833-l(a)(2) provides: “All items of
nonbusiness income (income which is not includable
in the apportionable tax base) shall be allocated as
provided in Sec. 1.5833-1(d)(6).” Section 1.5833l(d)(6) further provides:
Nonbusiness receipts are all receipts other than
business receipts resulting from operations
unrelated to [the taxpayer’s] regular business
operations. Typically nonbusiness receipts are
comprised of passive or portfolio income.
Income from dividends, interest and capital
gains will be considered nonbusiness income
unless the acquisition, management, and
disposition of the underlying property
generating the income constitute an integral
part of the taxpayer’s regular business
operations.
The allocation provision for nonbusiness income is as
follows: “Nonbusiness income will be allocated to the
state in which the income producing assets are
located. If the income producing asset has no situs,
the income be allocated to the state of commercial
domicile, the principle [sic] place from which the
business is directed or managed.”
Regulation
§ 1.5833-l(e).

114a
There is no indication that “situs” is being used as
a term of art (such as tax situs or business situs) in the
second sentence of Regulation § 1.5833-l(e) to mean
anything other than “location,” the parallel term
expressly used in the first sentence. See MerriamWebster
Online
Dictionary,
available
at
https://www.merriam-webster.com/dictionary/situs
(defining situs as “the place where something exists
or originates”).
The licenses at issue in this case are intangible
assets. An intangible asset is “[a]n asset that is not a
physical object.” Black’s Law Dictionary 113 (7th ed.
1999). An intangible asset, not being a physical
object, has no intrinsic location. See Mobil Oil Corp.
v. Commissioner of Taxes of Vermont, 445 U.S. 425,
445 (1980) (noting that locations of intangible assets
are “fictions”); First Bank Stock Corp. v. State of
Minnesota, 301 U.S. 234, 240 (1937) (“The rule that
property is subject to taxation at its situs, within the
territorial jurisdiction of the taxing state, readily
understood and applied with respect to tangibles, is
in itself meaningless when applied to intangibles
which;
since
they
are
without
physical
characteristics, can have no location in space.”);
Wheeling Steel Corp. v. Fox, 298 U.S. 193, 209 (1936)
(“When we deal with intangible property . . . , we
encounter the difficulty that by reason of the absence
of physical characteristics they have no situs in the
physical sense.”); see also Factors To Be Considered
In Determining A Corporation’s Commercial
Domicile, J. Multistate Tax’n 6, 8 (Oct. 2003) (“Unlike
tangible property, for tax purposes intangible
property must be assigned a situs.”
VNAT argues that because use of the licenses can
only occur in New York and nowhere else, the licenses

115a
should be deemed to be located in New York. An asset
that comprises a land interest can be different,
however, from an asset that is land. For example, one
may own 500 acres of timberland in Montana as an
investment asset. Such an asset has a location in
Montana. Or, one may own 100% of the stock in the
Montana Timberland Corporation, Inc., which is the
owner of 500 acres of timberland in Montana. The
stock certificate is an intangible asset with no
location, even though any activity to generate income
from the land would have to occur in Montana. It is
akin to owning a share of stock in Weyerhaeuser: if
the share is sold, any gain is taxed to the owner where
the owner pays taxes, regardless of where the land is
that Weyerhaeuser owns.
The U.S. Supreme Court has described this
distinction as follows:
[T]here are many legal interests other than
conventional ownership which may be created
with respect to land of such a character that
they may be constitutionally subjected to
taxation in states other than that where the
land is situated. No one has doubted the
constitutional power of a state to tax its
domiciled residents on their shares of stock in a
foreign corporation whose only property is real
estate located elsewhere, or to tax a valuable
contract for the purchase of land or chattels
located in another state, or to tax a mortgage of
real estate located without the state, even
though the land affords the only source of
payment. Each of these legal interests finds its
only economic source in the value of the land,
and the rights which are elsewhere subjected to
the tax can be brought to their ultimate fruition

116a
only through some means of control of the land
itself. But the means of control may be
subjected to taxation in the state of its owner
whether it be a share of stock or a contract or a
mortgage. There is no want of jurisdiction to
tax these interests where they are owned in the
sense that the state lacks power to appropriate
them to the payment of the tax. No court has
condemned such action as so capricious,
arbitrary or oppressive as to bring it within the
prohibition of the Fourteenth Amendment, for
it is universally recognized that these interests
are of themselves in some measure clothed with
the legal incidents of property enjoyed by their
owner, in the state where he resides, through
the benefit and protection of its laws.
Curry v. McCanless, 307 U.S. 357, 365 n.3 (1939)
(citations omitted). An intangible asset, merely
because it stands in some relation to a tangible asset,
does not for that reason necessarily possess all the
qualities of the tangible asset to which it relates. The
same is true in this case when comparing the licenses,
which have no location, with the business use of the
licenses, which may be thought to have a discernible
location.
Because the licenses that generated the disputed
income have no intrinsic location, and Regulation
§ 1.5833-l(e) allocates such income for tax purposes to
the state of commercial domicile, the only remaining
issue relating to taxability is whether the
Commissioner’s determination that Vermont is
VNAT’s commercial domicile is error. That issue is
addressed below.

117a
VNAT arrives at a different result under
Regulation § 1.5833-l(e), however.
It argues
essentially as follows. (1) Regulation § 1.5833-1 first
distinguishes between business income and
nonbusiness income. (2) The nonbusiness income
provision,
Regulation
§ 1.5833-l(e),
further
distinguishes between income-producing assets with
a location and those without a location and does not
expressly distinguish between tangible and
intangible property.
(3) The lack of express
distinction between tangible and intangible
nonbusiness assets means that Regulation § 1.5833l(e) must include the possibility that both types of
property can have a physical location. (4) Relevant
case law, particularly Whitney v. Graves, 299 U.S. 366
(1937), demonstrates that intangible assets can have
a physical location, and that the licenses at issue in
this case can be “localized” to New York.
VNAT’s argument does not lead to the conclusion
that the disputed income should not be allocated to
Vermont. There is no need to read Regulation
§ 1.5833-l(e) as including the unlikely (and unstated)
proposition that an intangible asset can have a
physical location in some intrinsic sense.
The
apportionment part of the regulation refers in several
places expressly to tangible property, and Regulation
§ 1.5833-1(d)(5) expressly addresses business income
from intangible assets and includes that income
within the apportionable tax base.
Regulation
§ 1.5833-l(e) does not expressly use the terms tangible
or intangible, but by expressly allocating income from
assets with no location it effectively addresses
nonbusiness income from intangible assets. Nothing
in the record implies that Regulation § 1.5833-l(e)
must or should be interpreted to embrace the physical

118a
impossibility that an intangible thing, which has no
physical existence, nevertheless has some intrinsic
geographic location.
Neither Whitney nor any other case supplied by
VNAT stands for the proposition that an intangible
asset has any intrinsic location. Whitney addressed
the constitutionality of a tax imposed by New York
State on “the profits realized by a nonresident upon
the sale of a right appurtenant to membership in the
New York Stock Exchange.” Whitney, 299 U.S. at 369.
The court found the New York tax constitutional
because the intangible rights at issue could be
“localized” to New York—that is, determined to have
a tax situs in New York—despite being intangible
rights otherwise without any intrinsic physical
location. Id. at 372. In other words, assigning a tax
situs of New York to the income did not violate the
Constitution even though the owner of the asset was
domiciled elsewhere. The Court clearly did not rule
that the income could not also be taxed by the nonNew York state of the taxpayer’s domicile or
commercial domicile. See id. at 373–74 (addressing
this issue). The Whitney Court was simply addressing
the constitutionality of the tax actually imposed.
Whitney and similar authorities are unhelpful to
this case. The issue here is not whether New York
State could have constitutionally imposed a tax on
VNAT’s sale of the licenses.6 Regardless whether it
6

Certain of the Commissioner’s conclusions are irrelevant
to this case. For example, the Commissioner determined: “Since
Taxpayer never charged or collected broadcast contract fees from
New York residents for broadcast services and never engaged in
any ‘activities with respect to [its] intangibles so as to avail
[itself] of the protection and benefit of the laws of’ in [sic] New
York, there was also nothing to create a tax situs in that state.”

119a
could, the question in this case is simply what
Regulation § 1.5833-l(e) requires.
Regulation
§ 1.5833-l(e) requires allocating the income to the
state of VNAT’s commercial domicile. No other issue
regarding taxability is presented. If VNAT has a
constitutional objection to this outcome, it was never
raised.
VNAT’s commercial domicile
The Commissioner determined that VNAT’s
commercial domicile is Vermont.7 VNAT does not
Commissioner’s Determination at 22. There is no New York tax
at issue in this case, however, and there is no reason under the
Vermont rule to determine whether a New York tax situs could
successfully be asserted. Also, an implied premise that seems to
run throughout much of the Determination is that an intangible
asset can have only one location for tax purposes. See Curry v.
McCanless, 307 U.S. 357, 373–74 (1939) (“If we enjoyed the
freedom of the framers it is possible that we might, in the light
of experience, devise a more equitable system of taxation than
that which they gave us. But we are convinced that that end
cannot be attained by the device of ascribing to intangibles in
every case a locus for taxation in a single state despite the
multiple legal interests to which they may give rise and despite
the control over them or their transmission by any other state
and its legitimate interest in taxing the one or the other. While
fictions are sometimes invented in order to realize the judicial
conception of justice, we cannot define the constitutional
guaranty in terms of a fiction so unrelated to reality without
creating as many tax injustices as we would avoid and without
exercising a power to remake constitutional provisions which the
Constitution has not given to the courts.”).
7

Unitary combined reporting requires each member of the
unitary group to separately account for its “nonbusiness income
or loss allocable to this state.” Vermont Department of Taxes
Regulation § 1.5862(cl)-7(c)(5).
The Commissioner thus
analyzed the issue of commercial domicile with regard to each
unitary group member-seller, VNAT and VTel Wireless, Inc.
VNAT’s objection to the Commissioner’s Determination on these

120a
contest the thrust of the Commissioner’s analysis of
what “commercial domicile” means and does not
argue that any of the component findings by the
Commissioner lacks substantial evidentiary support.
Rather, VNAT argues that a proper weighting of
relevant considerations shows that its commercial
domicile is Connecticut because that is where its
president, treasurer, chief executive officer, and board
member, Dr. Michel Guite, has a residence with a
home office that he sometimes uses for VNAT
business and when making strategic business
decisions, and the board sometimes meets there.
Regulation 1.5833-l(e) describes commercial
domicile as the “principle [sic] place from which the
business is directed or managed.” There appears to
be no more specific Vermont regulatory or statutory
definition of the expression. Following a more
detailed analysis of the concept, the Commissioner
generally summarized that ‘“[T]he true test must be
to consider all the facts,’ to determine where the
‘actual conduct of business operations’ occurs, and
which state ‘gives the greatest protection and benefits
to the corporation.’” Commissioner’s Determination
at 42; accord Factors To Be Considered In
Determining A Corporation’s Commercial Domicile,
J. Multistate Tax’n 6 (Oct. 2003).
The
Commissioner’s
detailed
findings
demonstrate that nearly all of VNAT’s varied
business operations and day-to-day direction and
management occur in Vermont. Dr. Guite’s home
office in Connecticut and occasional board meetings
matters is not dependent on the identity of the specific seller.
Thus, the court will continue to refer to the unitary group
member collectively as VNAT.

121a
there are, by comparison, not significant and do not
reveal an actual commercial domicile in Connecticut
versus Vermont.
The gain at issue in this case is properly allocated
to VNAT’s commercial domicile pursuant to
Regulation 1.5833-l(e). VNAT’s commercial domicile
is Vermont. The Department therefore properly
included this income in the calculation of VNAT’s
taxes.
Discretion and Constitutionality of the penalty
The Department imposed a penalty due to VNAT’s
underpayment of taxes pursuant to 32 V.S.A.
§ 3202(b)(3). Subsection (b)(3) gives the Department
discretion to impose a penalty due to mere
underpayment, regardless of negligence or fraud,
which are addressed in other provisions. VNAT
argues that the Commissioner failed to exercise
discretion by automatically imposing the penalty and
that doing so resulted in an unconstitutionally
excessive fine.
Subsection 3202(b)(3) allows, but does not require,
the Commissioner to impose a penalty for mere
underpayment of taxes.
The penalty was
automatically
assessed
due
to
VNAT’s
underpayment. However, the Vermont Supreme
Court already has rejected an argument,
substantially similarly to VNAT’s, that automatic
imposition of a penalty is an impermissible failure to
exercise
discretion.
Addressing
analogous
circumstances, the Court explained, “The fact that the
penalty was imposed automatically by the
Department of Taxes when the delinquency was
discovered does not negate the exercise of discretion
on the part of the Commissioner, particularly when

122a
any penalty assessed is subject to individual review
upon appeal to the Commissioner.
It merely
represents the full extent to which the Commissioner
has chosen to exercise his discretionary authority as
granted under the statute.” Piche v. Dep’t of Taxes,
152 Vt. 229, 234 (1989) (citation omitted).
In this case, as in Piche, the penalty was imposed
automatically and it was subject to individual review
on appeal to the Commissioner. VNAT in fact
objected to the Department’s automatic imposition of
the penalty in the course of review before the
Commissioner. The Commissioner’s Determination
reflects consideration and rejection of VNAT’s
objection. Among other things, the Commissioner
maintained that the penalty serves an important
purpose of encouraging taxpayers with complex
issues or close calls to affirmatively seek clarification
from the Department rather than simply—as in this
case—not paying the tax and hoping for the best. The
Commissioner did not fail to exercise discretion.
The penalty also is not unconstitutionally
disproportionate. The statute permitted a penalty
equal to 1% of the outstanding tax liability per month
and capped it at 25% of the initial deficiency. 32
V.S.A. § 3202(b)(3). There is no suggestion that the
penalty imposed exceeded that permitted by statute.
The penalty is a small percentage of the outstanding
liability that only grows over time so long as it
remains unpaid and until it reaches a statutory
maximum that can go no higher than a quarter of the
original deficiency. VNAP has cited no case in which
a similar tax penalty has been found unconstitutional
as an excessive fine. “[C]ivil tax penalties have
repeatedly been held not to violate the 8th
Amendment’s Excessive Fines Clause:” 14A Mertens

123a
Law of Fed. Income Tax’n § 55:3; see also the cases
annotated at id. § 55:3 n.7 (describing permissible
penalties of 40%, 50%, and 75%). VNAT has not
demonstrated that the penalty is unconstitutional.
ORDER
For the foregoing reasons, the Determination of
the Commissioner is affirmed.
Dated at Montpelier, Vermont this 31st day of
July 2019.
s/ Mary Miles Teachout
Mary Miles Teachout
Superior Judge

124a
ENTRY ORDER
SUPREME COURT DOCKET NO. 2019-280
OCTOBER TERM, 2020
VERMONT SUPREME COURT
FILED IN CLERK’S OFFICE
NOV 02 2020
Vermont National
Telephone Company * v.
Department of Taxes

}
}
}
}
}
}
}
}

APPEALED FROM:
Superior Court,
Washington Unit
Civil Division
DOCKET NO. 5289-18 Wncv

In the above-entitled cause, the Clerk will enter:
Appellant’s motion fails to identify points of law or
fact overlooked or misapprehended by this Court. The
motion is therefore denied. See V.R.A.P. 40.
BY THE COURT:
s/ Paul L. Reiber
Paul L. Reiber, Chief Justice
s/ Beth Robinson
Beth Robinson,
Justice

Associate

s/ Harold E. Eaton, Jr.
Harold
E.
Eaton,
Associate Justice

Jr.,

125a
s/ Karen R. Carroll
Karen R. Carroll, Associate
Justice
s/ William D. Cohen
William D. Cohen, Associate
Justice

126a
Vt. Tax Reg. § 1.5833-1
Reg. § 1.5833 ALLOCATION AND APPORTIONMENT OF INCOME
Reg. § 1.5833-1 (Effective for tax years beginning on
and after January 1, 1998) Allocation and
apportionment of “Vermont net income” by
corporations
(a) Computations of Vermont Apportionment
Percentage
(1) If the income of a taxable corporation is derived
from any trade, business, or activity conducted
entirely within this state, the Vermont net income of
the corporation shall be apportioned to this state in
full. If the income of a taxable corporation is derived
from any trade, business, or activity conducted both
within and without this state, the amount of the
corporation’s Vermont Net Income apportioned to this
state shall be determined by the arithmetic average
of the following factors:
(A) The average of the value of all real and
tangible property owned or rented by the taxpayer
within Vermont expressed as a percentage of all
such property both within and without Vermont.
(B) The total wages, salaries or other personal
service compensation paid during the taxable year
to employees or agents within Vermont expressed
as a percentage of such payments both within and
without Vermont.
(C) The gross sales or charges for services
performed within Vermont expressed as a
percentage of such sales or charges both within
and without Vermont.
(2) All items of nonbusiness income (income which
is not includable in the apportionable tax base) shall

127a
be allocated as provided in Sec. 1.5833(d)(6) of this
regulation.
(3) The apportionment percentage is computed by
adding together the percentages of the taxpayer’s real
and tangible personal property, sales or receipts, and
payrolls within Vermont during the period covered by
the return, and dividing the total of such percentages
by three. However, if any one of the factors (for
property, receipts or payroll) is missing, the other two
percentages are added and the sum is divided by two,
and if two of the factors are missing, the remaining
percentage is the apportionment percentage. (A
factor is not missing merely because its numerator is
zero, but it is missing if both its numerator and its
denominator are zero).
Example: A taxpayer owns no real or tangible
personal property and rents no real property
either within or without the state.
The
property
factor
being
missing,
the
apportionment percentage may be computed by
adding the percentages derived from the
apportionment of its sales or receipts and
payrolls, and dividing the total by two.
(b) Property Factor
(1) The property factor is a fraction, the numerator
of which is the average value of all real and tangible
property within this state based on original cost at the
beginning of the taxable year and at the end of the
taxable year; and the denominator of which is the
average value of property based on original cost both
within and without the state at the beginning and at
the end of the taxable year.
(2) Tangible personal property is within Vermont
if, and so long as, it is physically situated or located

128a
here. Property of the taxpayer held in Vermont by an
agent, consignee or factor is (and property held
outside Vermont by an agent, consignee or factor is
not) situated or located within Vermont.
Property in transit between locations of the
taxpayer to which it belongs shall be considered to be
at the destination for purposes of the property factor.
Property in transit between a buyer and seller which
is included by a taxpayer in the denominator of its
property factor in accordance with its regular
accounting practices shall be included in the
numerator according to the state of destination. The
value of mobile or movable property such as
construction equipment, trucks or leased electronic
equipment which are located within and without this
state during the tax period shall be determined for
purposes of the numerator of the factor on the basis of
total time within the state during the tax period. An
automobile assigned to a traveling employee shall be
included in the numerator of the factor of the state to
which the employee’s compensation is assigned under
the payroll factor or in the numerator of the state in
which the automobile is licensed.
(3) Construction in progress will not be included in
the factors until the asset constructed is placed in
service.
(4) In determining the property factor, real and
personal property rented or leased to the taxpayer, as
well as real and personal property owned by it must
be considered. The value of rented real and personal
property both within and without the state is
determined by multiplying the gross rent payable
during the tax year by eight (8).

129a
“Gross Rent” as used in this rule, is the actual sum
of money payable or other consideration payable,
directly or indirectly, by the taxpayer or for its benefit
for the use or possession of the property and includes:
(A) Any amount payable for the use or
possession of real or personal property, or any part
thereof, whether designated as a fixed sum of
money or as a percentage of sales, profits or
otherwise.
Example: A taxpayer, pursuant to the terms of
a lease, pays the lessor $1,000.00 per month
and at the end of the year pays the lessor one
percent of its gross sales of $400,000.00. Its
gross rent is $16,000.00.
(B) Any amount payable as additional rent or in
lieu of rent, such as interest, taxes, insurance,
repairs or any other amount required to be paid by
the terms of a lease or other arrangement;
Example: A taxpayer, pursuant to the terms of
a lease, pays the lessor $24,000.00 per annum
and also pays real estate taxes in the amount
of $4,000.00 and interest on a mortgage in the
amount of $2,000.00
Its gross rent is
$30,000.00.
(C) Any other amount required to be paid by the
terms of a lease or other arrangement, including
the amount of amortization or depreciation
allowed in computing the taxable income base for
the taxable year of any improvement to real
property made by or on behalf of the business
organization which reverts to the owner or lessor
upon termination of the lease or other
arrangement.

130a
Example: A taxpayer enters into a 21-year
lease of certain premises at a rental of
$20,000.00 per annum and after the expiration
of one year installs a new store front at a cost
of $10,000.00 which reverts to the owner upon
expiration of the lease. Its gross rent for the
first year is $20,000.00.
However, for
subsequent years its gross rent is $20,500.00
($20,000.00 annual rent plus 1/20th of
$10,000.00, the cost of the improvement
apportioned on the basis of the unexpired term
of the lease).
Example: A taxpayer leases a parcel of vacant
land for 40 years at an annual rental of
$5,000.00 and erects thereon a building which
costs $600,000.00. The value of the land is
determined by multiplying the annual rent of
$5,000.00 by eight, and the value of the
building is determined in the same manner as
if owned by the taxpayer.
“Gross Rent” does not include:
(A) Intercompany rents if both the lessor and
lessee are taxed on a consolidated basis.
(B) Amounts payable as separate charges for
water and electric service furnished by the lessor.
(C) Amounts payable for storage provided no
designated space under the control of the taxpayer
as a tenant is rented for storage purposes.
(5) In exceptional cases use of the general method
outlined above may result in inaccurate valuations.
Accordingly, in such cases, any other method which
will properly reflect value may be adopted by the
Vermont Department of Taxes, either on its own
motion or on request of a taxpayer. Such other

131a
method of valuation may not be used by a taxpayer
until approved in writing by the Department. Any
such request shall set forth full information with
respect to the property, together with the basis for the
valuation proposed by the taxpayer. Such other
method once approved by the Department may be
used by the taxpayer in its reports for subsequent
years until the facts upon which such other method is
based are, in the judgment of the Department,
materially changed.
(c) Payroll Factor
(1) The payroll factor is a fraction, the numerator
of which includes the total compensation paid in
Vermont during the tax period and the denominator
of which includes the total compensation paid
everywhere during the tax period. In addition to
“normal” salary and wages, compensation shall
include payments to employees for board, rent,
housing, lodging, and any other benefits paid in
exchange for labor. These amounts will be treated as
compensation if they are considered as income under
the Internal Revenue Code.
(2) The taxpayer’s accounting method will
determine the actual amounts that are to be included
in the factors. If the taxpayer uses the accrual
method of accounting, compensation that has been
properly accrued and deductible will be considered to
have been paid during the taxable period.
(3) For purposes of this regulation, an employee is
defined to be any person, including an officer of the
corporation, who is included by the taxpayer as an
employee for purposes of the payroll taxes imposed by
the FICA.

132a
(4) The payroll factor shall include only
compensation that is related to the production of
apportionable income. Compensation that is related
to the operation, maintenance, protection or
supervision of nonbusiness income is not included in
the payroll factor. To the extent that employee
services produce both business and nonbusiness
income, proration is allowed.
(5) Compensation will be considered to be paid in
Vermont and thus includable in the numerator of the
payroll factor if:
(A) the individuals’ services are performed
entirely within Vermont;
(B) the individuals’ services are performed both
within and without Vermont, but the out-of-state
services are incidental to the Vermont services;
(C) some of the individuals’ services are
performed within Vermont and the company’s
base of operation or the place from where the
service is controlled is within Vermont; or
(D) some of the individual’s services are
performed within Vermont, which is his or her
state of residence, and there is no base of operation
or place from where the service is controlled in any
of the other states where part of the individual’s
services are performed.
(d) Sales and Receipts Factor
(1) The sales and receipt factor is a fraction, the
numerator of which is the receipts of the taxpayer in
this state during the taxable year and the
denominator of which is the receipts of the taxpayer
within and without this state during the taxable year.
The method of calculating receipts for purposes of the
denominator is the same method used in determining

133a
receipts for purposes of the numerator. The receipts
factor shall include only those receipts which
constitute business income and are includable in the
apportionable base for the tax year. Receipts from the
following are allocable to Vermont:
(A) sales of tangible personal property in
Vermont;
(B) services performed in Vermont;
(C) rentals from property situated in
Vermont;
(D) royalties from the use in Vermont of
patents and copyrights;
(E) all other business receipts earned in
Vermont.
All such receipts of the period covered by the
return (computed on the cash or accrual basis, in
accordance with the method of accounting used in
the computation of the taxpayers “Vermont net
income”) must be taken into account.
(2) Sales of Tangible Personal Property in
Vermont Sales of tangible personal property are
made in this state if the property is delivered or
shipped to a purchaser, other than the United States
government, who takes possession within this state,
regardless of fob point or other conditions of sale, or
the property is shipped from an office, store,
warehouse, factory or other place of storage in this
state and:
(A) the purchaser is the United States
Government; or
(B) the corporation is not taxable in the
state in which the purchaser takes possession.
If a seller in Vermont makes sales of tangible
personal property to a purchaser who takes delivery

134a
of the property at the seller’s shipping dock, the sale
is a Vermont sale if the purchaser transports the
property to one of its in-state locations. If the
purchaser transports the property to one of its out-ofstate locations the sale is not a Vermont sale, unless
the corporation is not taxable in the state to which the
property is transported.
(3) Compensation for Services
Receipts for
services are apportioned to Vermont if the services
are performed in Vermont. All amounts received for
such services are apportionable irrespective of
whether such services are performed by employees,
agents, subcontractors or any other persons.
When compensation for services are in payment of
services performed both within and without Vermont,
sales are apportioned to this state if a greater
proportion of the income producing activity is
performed in Vermont. If this rule causes an
inequitable apportionment of income, the amount
attributable to Vermont shall be determined based on
the cost of performance.
(4) Rents and Royalties Receipts from rentals of
real and personal property situated in Vermont,
royalties from the use in Vermont of patents or
copyrights and receipts from the licensing of
computer software used in Vermont and similar
transactions are apportionable to Vermont.
Receipts from rentals include all amounts received
directly or indirectly by the taxpayer for use of or
occupancy of property, whether or not such property
is owned by the taxpayers.
Receipts from royalties include all amounts
received by the taxpayer for the use of patents or
copyrights whether or not such patents or copyrights

135a
were originally issued to or are owned by the
taxpayer.
A patent or copyright is used in Vermont to the
extent that activities thereunder are carried on in
Vermont.
(5) Other Business Receipts All business receipts
earned by the taxpayer within Vermont are
apportionable to Vermont. Business receipts are not
considered to have been earned in Vermont solely by
reason of the fact that they were payable in Vermont
or were received in Vermont. Business receipts
include all income arising from transactions and
activity in the regular course of the taxpayer’s trade
or business and includes income from tangible or
intangible property if the acquisition, management
and disposition of the property constitute integral
parts of the taxpayer’s regular trade or business
operations.
(6) Nonbusiness Receipts Nonbusiness receipts
are all receipts other than business receipts resulting
from operations unrelated to its regular business
operations.
Typically nonbusiness receipts are
comprised of passive or portfolio income. Income from
dividends, interest and capital gains will be
considered
nonbusiness
income
unless
the
acquisition, management, and disposition of the
underlying property generating the income constitute
an integral part of the taxpayer’s regular business
operations.
(e) Nonbusiness income will be allocated to the
state in which the income producing assets are
located. If the income producing asset has no situs,
the income will be allocated to the state of commercial

136a
domicile, the principle place from which the business
is directed or managed.
(f) Discretionary
Adjustment
of
Vermont
Apportionment
Percentage
Generally
the
apportionment formula will result in a fair
apportionment of the taxpayer’s income within and
without Vermont. However, due to the nature of
certain businesses the formula may not result in an
equitable allocation of income. In such cases, the
taxpayer may petition for, or the commissioner may
require:
(1) Separate accounting;
(2) the exclusion or modification of any or all of the
factors;
(3) the inclusion of one or more additional factors
which will fairly represent the taxpayers business
activity in this state; or
(4) the employment of any other method to effect
an equitable apportionment of the taxpayer’s income.

